<html>
<title> - EXAMINING SOCIAL MEDIA COMPANIES' EFFORTS TO COUNTER ON-LINE TERROR CONTENT AND MISINFORMATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  EXAMINING SOCIAL MEDIA COMPANIES' EFFORTS TO COUNTER ON-LINE TERROR 
                       CONTENT AND MISINFORMATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 26, 2019
                               __________

                           Serial No. 116-30
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-783 PDF                 WASHINGTON : 2020          



                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Ms. Monika Bickert, Head of Global Policy Management, Facebook:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Nick Pickles, Global Senior Strategist for Public Policy, 
  Twitter:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Derek Slater, Global Director of Information Policy, Google:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Ms. Nadine Strossen, John Marshall Harlan II, Professor of Law, 
  New York Law School:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter, October 30, 2017.......................................    74
  Letter, February 22, 2018......................................    76
  Letter, December 18, 2018......................................    78
  Statement of the ADL (Anti-Defamation League)..................    80

                                Appendix

Questions From Chairman Bennie G. Thompson for Monika Bickert....    91
Questions From Honorable Lauren Underwood for Monika Bickert.....    95
Questions From Ranking Member Mike Rogers for Monika Bickert.....    96
Questions From Chairman Bennie G. Thompson for Nick Pickles......    98
Questions From Ranking Member Mike Rogers for Nick Pickles.......   101
Questions From Chairman Bennie G. Thompson for Derek Slater......   104
Questions From Honorable Lauren Underwood for Derek Slater.......   104
Questions From Ranking Member Mike Rogers for Derek Slater.......   104
Question From Ranking Member Mike Rogers for Nadine Strossen.....   105

 
  EXAMINING SOCIAL MEDIA COMPANIES' EFFORTS TO COUNTER ON-LINE TERROR 
                       CONTENT AND MISINFORMATION

                              ----------                              


                        Wednesday, June 26, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Correa, Torres Small, Rose, Underwood, Slotkin, Cleaver, Green 
of Texas, Clarke, Titus, Watson Coleman, Barragan, Demings, 
Rogers, King, Katko, Walker, Higgins, Lesko, Green of 
Tennessee, Taylor, Joyce, Crenshaw, and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``Examining Social Media Companies' Efforts to Counter On-line 
Terror Content and Misinformation.''
    In March, a white supremacist terrorist killed 51 people 
and wounded 49 more at two mosques in Christchurch, New 
Zealand. Our thoughts and prayers continue to be with the 
victims and their families.
    The motive behind the attack is not in question. The 
terrorist had written an extensive manifesto outlining his 
white supremacist, white nationalist, anti-immigrant, anti-
Muslim, and fascist beliefs. His act was horrifying beyond 
words, and it shook the conscience.
    Shockingly, the terrorist was able to live-stream the 
attack on Facebook, where the video and its gruesome content 
went undetected initially. Instead, law enforcement officials 
in New Zealand had to contact the company and ask that it be 
removed.
    When New Zealand authorities called on all social media 
companies to remove these videos immediately, they were unable 
to comply. Human moderators could not keep up with the volume 
of videos being reposted, and their automated systems were 
unable to recognize minor changes in the video. So the video 
spread on-line and spread around the world.
    The fact that this happened nearly 2 years after Facebook, 
Twitter, Google, Microsoft, and other major tech companies 
established the Global Internet Forum to Counter Terrorism, 
pronounced ``GIF-C-T,'' is troubling to say the least. The 
GIFCT was created for tech companies to share technology and 
best practices to combat the spread of on-line terrorist 
content.
    Back in July 2017, representatives of the GIFCT briefed 
this committee on this new initiative. At the time, I was 
optimistic about its intentions and goals and acknowledged that 
its members demonstrated initiative and willingness to engage 
on this issue while others have not. But after a white 
supremacist terrorist was able to exploit social media 
platforms in this way, we all have reason to doubt the 
effectiveness of the GIFCT and the companies' efforts more 
broadly.
    On March 27 of this year, representatives of GIFCT briefed 
this committee after the Christchurch massacre. Since then, 
myself and other Members of this committee have asked important 
questions about the organization and your companies and have 
yet to receive satisfactory answers.
    Today, I hope to get answers regarding your actual efforts 
to keep terrorist content off your platforms. I want to know 
how you will prevent content like the New Zealand attack video 
from spreading on your platforms again.
    This committee will continue to engage social media 
companies about the challenges they face in addressing terror 
content on their platforms. In addition to terror content, I 
want to hear from our panel about how they are working to keep 
hate speech and harmful misinformation off their platforms.
    I want to be very clear: Democrats respect the free-speech 
rights enshrined in the First Amendment. But much of the 
content I am referring to is either not protected speech or 
violates the social media companies' own terms of service.
    We have seen time and time again that social media 
platforms are vulnerable to being exploited by bad actors, 
including those working at the behest of foreign governments, 
who seek to sow discord by spreading misinformation. This 
problem will only become more acute as we approach the 2020 
elections. We want to understand how companies can strengthen 
their efforts to deal with this persistent problem.
    At a fundamental level, today's hearing is about 
transparency. We want to get an understanding of whether and to 
what extent social media companies are incorporating questions 
of National security, public safety, and integrity of our 
domestic institutions into their business models. I look 
forward to having that conversation with the witnesses here 
today and to our on-going dialog on behalf of the American 
people.
    I thank the witnesses for joining us and the Members for 
their participation.
    With that, I now recognize the Ranking Member of the full 
committee, the gentleman from Alabama, Mr. Rogers, for 5 
minutes for the purpose of an opening statement.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 26, 2019
    In March, a white supremacist terrorist killed 51 people and 
wounded 49 more at 2 mosques in Christchurch, New Zealand. Our thoughts 
and prayers continue to be with the victims and their families. The 
motive behind the attack is not in question--the terrorist had written 
an extensive manifesto outlining his white supremacist, white 
nationalist, anti-immigrant, anti-Muslim, and fascist beliefs. His act 
was horrifying beyond words, and it shook the conscience. Shockingly, 
the terrorist was able to live-stream the attack on Facebook, where the 
video and its gruesome content went undetected initially. Instead, law 
enforcement officials in New Zealand had to contact the company and ask 
that it be removed. When New Zealand authorities called on all social 
media companies to remove these videos immediately, they were unable to 
comply. Human moderators could not keep up with the volume of videos 
being reposted, and their automated systems were unable to recognize 
minor changes to the video. So, the video spread on-line spread around 
the world.
    The fact that this happened nearly 2 years after Facebook, Twitter, 
Google, Microsoft, and other major tech companies established the 
Global Internet Forum to Counter Terrorism, or GIFCT, is troubling to 
say the least. The GIFCT was created for tech companies to share 
technology and best practices to combat the spread of on-line terrorist 
content. Back in July 2017, representatives from GIFCT briefed this 
committee on this new initiative. At the time, I was optimistic about 
its intentions and goals, and acknowledged that its members 
demonstrated initiative and willingness to engage on this issue while 
others have not. But after a white supremacist terrorist was able to 
exploit social media platforms in this way, we all have reason to doubt 
the effectiveness of the GIFCT and the companies' efforts more broadly. 
On March 27 of this year, representatives of GIFCT briefed this 
committee after the Christchurch massacre. Since then, myself and other 
Members of this committee have asked important questions about the 
organization and your companies, and we have yet to receive 
satisfactory answers.
    Today, I hope to get answers regarding your actual efforts to keep 
terrorist content off your platforms. I want to know how you will 
prevent content like the New Zealand attack video from spreading on 
your platforms again. This committee will continue to engage social 
media companies about the challenges they face in addressing terror 
content on their platforms. In addition to terror content, I want to 
hear from our panel about how they are working to keep hate speech and 
harmful misinformation off their platforms. I want to be very clear--
Democrats respect the free speech rights enshrined in the First 
Amendment, but much of the content I am referring to is either not 
protected speech or violates the social media companies' own terms of 
service.
    We have seen time and time again that social media platforms are 
vulnerable to being exploited by bad actors, including those working at 
the behest of foreign governments, who seek to sow discord by spreading 
misinformation. This problem will only become more acute as we approach 
the 2020 elections. We want to understand how companies can strengthen 
their efforts to deal with this persistent problem. At a fundamental 
level, today's hearing is about transparency. We want to get an 
understanding of whether--and to what extent--social media companies 
are incorporating questions of National security, public safety, and 
the integrity of our democratic institutions into their business 
models.

    Mr. Rogers. Thank you, Mr. Chairman.
    Concerns about violent and terror-related on-line content 
has existed since the creation of the internet. This issue has 
peaked over the last decade, with the growing sophistication in 
which foreign terrorists and their global supporters have 
exploited the openness of on-line platforms to radicalize, 
mobilize, and promote their violent messages. These tactics 
prove successful, so much so that we are seeing domestic 
extremists mimic many of the same techniques to gather 
followers and spread hateful, violent propaganda.
    Public pressure has grown steadily on the social media 
companies to modify their terms of service to limit posts 
linked to terrorism, violence, criminal activity, and, most 
recently, the hateful rhetoric of misinformation. The large and 
mainstream companies have responded to this pressure in a 
number of ways, including the creation of the Global Internet 
Forum to Counter Terrorism, or GIFCT. They are also updating 
their terms of service and hiring more human content 
moderators.
    Today's hearing is also an important opportunity to examine 
the Constitutional limits placed on the Government to regulate 
or restrict free speech. Advocating violent acts and recruiting 
terrorists on-line is illegal, but expressing one's political 
views, however repugnant they may be, is protected under the 
First Amendment.
    I was deeply concerned to hear the recent news reports 
about Google's policy regarding President Trump and 
conservative news media. Google's head of responsible 
innovation, Jen Gennai, recently said, ``We all got screwed 
over in 2016. The people got screwed over, the news media got 
screwed over, everybody got screwed over. So we've rapidly been 
like, what happened there? How do we prevent this from 
happening again?''.
    Then, Ms. Gennai again on video remarked, ``Elizabeth 
Warren is saying that we should break up Google. That will not 
make it better. It will make it worse, because all these 
smaller companies that don't have the same resources that we do 
will be charged with preventing the next Trump situation.''
    Now, Ms. Gennai is entitled to her opinion, but we are in 
trouble if her opinions are Google's policy.
    That same report details alarming claims about Google's 
deliberate attempt to alter search results to reflect the 
reality Google wants to promote rather than objective facts. 
This report and others like it are a stark reminder of why the 
Founders created the First Amendment.
    In fact, the video I just quoted from has been removed from 
YouTube. That platform is owned by Google, who is joining us 
here today. I have serious questions about Google's ability to 
be fair and balanced when it appears they have colluded with 
YouTube to silence negative press coverage.
    Regulating speech quickly becomes a subjective exercise for 
Government or the private sector. Noble intentions often give 
way to bias and political agendas. The solution to this problem 
is complex. It will involve enhanced cooperation between the 
Government, industry, individuals, while protecting the 
Constitutional rights of all Americans.
    I appreciate our witnesses' participation here today. I 
hope that today's hearing can be helpful in providing greater 
transparency and understanding of this complex challenge.
    With that, I yield back, Mr. Chairman.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                             June 26, 2019
    Concerns about violent and terror-related on-line content have 
existed since the creation of the internet. The issue has peaked over 
the past decade with the growing sophistication in which foreign 
terrorists and their global supporters have exploited the openness of 
on-line platforms to radicalize, mobilize, and promote their violent 
messages.
    These tactics proved successful--so much so that we are seeing 
domestic extremists mimic many of the same techniques to gather 
followers and spread hateful and violent propaganda.
    Public pressure has grown steadily on the social media companies to 
modify their terms of service to limit posts linked to terrorism, 
violence, criminal activity, and, most recently, to hateful rhetoric 
and misinformation.
    The large, mainstream companies have responded to this pressure in 
a number of ways, including the creation of the Global Internet Forum 
to Counter Terrorism, or GIFCT. They are also updating their terms of 
service and hiring more human content moderators.
    Today's hearing is also an important opportunity to examine the 
Constitutional limits placed on the Government to regulate or restrict 
free speech.
    Advocating violent acts and recruiting terrorists on-line is 
illegal. But expressing one's political views, however repugnant they 
may be, is protected under the First Amendment.
    I was deeply concerned to hear news reports about Google's policies 
regarding President Trump and conservative news media.
    Google's ``Head of Responsible Innovation'' Jen Gennai said 
recently, ``Well all got screwed over in 2016 . . . the people got 
screwed over, the news media got screwed over . . . everybody got 
screwed over so we've rapidly been like what happened there and how do 
we prevent it from happening again?''
    Ms. Gennai then remarked: ``Elizabeth Warren is saying that we 
should break up Google . . . That will not make it better it will make 
it worse because all these smaller companies that don't have the same 
resources that we do will be charged with preventing the next Trump 
situation.''
    Ms. Gennai is entitled to her opinion but we are in trouble if her 
opinions are Google's policy.
    That same report details alarming claims about Google's deliberate 
attempt to alter search results to reflect the reality Google wants to 
promote rather than objective facts.
    This report, and others like it, are a stark reminder of why the 
Founders created the First Amendment.
    In fact, the video that I just quoted from has been removed from 
YouTube. That platform is owned by Google who is joining us here today.
    I have serious questions about Google's ability to be fair and 
balanced when it appears to have colluded with YouTube to silence this 
negative press coverage.
    Regulating speech quickly becomes a subjective exercise for 
Government or the private sector.
    Noble intentions often give way to bias and political agendas.
    The solution to this problem is complex. It will involve enhanced 
cooperation between Government, industry, and individuals, while 
protecting the Constitutional rights of all Americans.
    I appreciate our witness' participation here today. I hope that 
today's hearing can be helpful in providing greater transparency and 
understanding of this complex challenge.

    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I welcome our panel of witnesses.
    Our first witness, Ms. Monika Bickert, is the vice 
president of global policy management at Facebook. Next, we are 
joined by Mr. Nick Pickles, who currently serves as the global 
senior strategist for public policy at Twitter. Our third 
witness is Mr. Derek Slater, the global director of information 
policy at Google. Finally, we welcome Ms. Nadine Strossen, who 
serves as the John Marshall Harlan II professor of law at New 
York Law School.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Bickert.

STATEMENT OF MONIKA BICKERT, HEAD OF GLOBAL POLICY MANAGEMENT, 
                            FACEBOOK

    Ms. Bickert. Thank you, Chairman Thompson, Ranking Member 
Rogers, and Members of the committee, and thank you for the 
opportunity to appear before you today.
    I am Monika Bickert, Facebook's vice president for global 
policy management, and I am in charge of our product policy and 
counterterrorism efforts. Before I joined Facebook, I 
prosecuted Federal crimes for 11 years at the Department of 
Justice.
    On behalf of our company, I want to thank you for your 
leadership combating extremism, terrorism, and other threats to 
our homeland and National security.
    I would also like to start by saying that all of us at 
Facebook stand with the victims, their families, and everyone 
affected by the recent terror attacks, including the horrific 
violence in Sri Lanka and New Zealand. In the aftermath of 
these acts, it is even more important to stand together against 
hate and violence. We make this a priority in everything that 
we do at Facebook.
    On terrorist content, our view is simple: There is 
absolutely no place on Facebook for terrorists. They are not 
allowed to use our services under any circumstances. We remove 
their accounts as soon as we find them. We also remove any 
content that praises or supports terrorists or their actions. 
If we find evidence of imminent harm, we promptly inform 
authorities.
    There are three primary ways that we are implementing this 
approach: First, with our products that help stop terrorists 
and their propaganda at the gates; second, through our people, 
who help us review terrorist content and implement our 
policies; and, third, through our partnerships outside the 
company, which help us stay ahead of the threat.
    So, first, our products. Facebook has invested 
significantly in technology to help identify terrorist content, 
including through the use of artificial intelligence but also 
using other automation and technology. For instance, we can now 
identify violating textual posts in 19 different languages.
    With the help of these improvements, we have taken action 
on more than 25 million pieces of terrorist content since the 
beginning of 2018. Of the content that we have removed from 
Facebook for violating our terrorism policies, more than 99 
percent of that is content that we found ourselves, using our 
own technical tools, before anybody has reported it to us.
    Second are people. We now have more than 30,000 people who 
are working on safety and security across Facebook across the 
world, and that is 3 times as many people as we had dedicated 
to those efforts in 2017.
    We also have more than 300 highly-trained professionals 
exclusively or primarily focused on combating terrorist use of 
our services. Our team includes counterterrorism experts, 
former prosecutors like myself, former law enforcement 
officials, former intelligence officials. Together, they speak 
more than 50 languages, and they are able to provide 24-hour 
coverage.
    Finally, our partnerships. In addition to working with 
third-party intelligence providers to more quickly identify 
terrorist material on the internet, we also regularly work with 
academics who are studying terrorism and the latest trends and 
Government officials.
    Following the tragic attacks in New Zealand, Facebook was 
proud to be a signatory to the Christchurch Call to Action, 
which is a 9-point plan for the industry to better combat 
terrorist attempts to use our services.
    We also partner across industry. As Mr. Chairman and the 
Ranking Member mentioned, in 2017 we launched the Global 
Internet Forum to Counter Terrorism, or GIFCT, with YouTube, 
Microsoft, and Twitter. GIFCT, the point of that is we bring 
companies together from across industry to share information 
and also to share technology and research to better combat 
these threats.
    Through GIFCT, we have expanded an industry database for 
companies to share what we call hashes, which are basically 
digital fingerprints of terrorist content, so that we can all 
remove it more quickly and help smaller companies do that too. 
We have also trained over 110 companies from around the globe 
in best practices for countering terrorist use of the internet.
    Now, Facebook took over as the chair of GIFCT in 2019, and, 
along with our fellow members, we have this year worked to 
expand our capabilities, including making new audio and text 
hashing techniques available to other member companies, 
especially these smaller companies, and we have also improved 
our crisis protocols.
    In the wake of the horrific Christchurch attacks, we 
communicated in real-time across our companies and were able to 
stop hundreds of versions of the video of the attack despite 
the fact that bad actors were actively trying to edit the video 
to upload it to circumvent our systems.
    We know there are adversaries who are always evolving their 
tactics, and we have to improve if we want to stay ahead. 
Though we will never be perfect, we have made real progress, 
and we are committed to tirelessly combating extremism on our 
platform.
    I appreciate the opportunity to be here today, and I look 
forward to answering your questions. Thank you.
    [The prepared statement of Ms. Bickert follows:]
                  Prepared Statement of Monika Bickert
                             June 26, 2019
                            i. introduction
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee, thank you for the opportunity to appear before you 
today. My name is Monika Bickert, and I am the vice president of global 
policy management at Facebook. In that role, I lead our efforts related 
to Product Policy and Counterterrorism. Prior to assuming my current 
role, I served as lead security counsel for Facebook, working on issues 
ranging from children's safety to cybersecurity. And before that, I was 
a criminal prosecutor with the Department of Justice for 11 years in 
Chicago and Washington, DC, where I prosecuted Federal crimes including 
public corruption and gang violence. On behalf of Facebook, I want to 
thank you for your leadership in combating extremism, terrorism, and 
other threats to our National security.
    I want to start by saying that all of us at Facebook stand with the 
victims, their families, and everyone affected by recent terrorist 
attacks, including the horrific violence in Sri Lanka and New Zealand. 
In the aftermath of such heinous acts, it is more important than ever 
to stand against hate and violence. We will continue to make that a 
priority in everything we do at Facebook. Facebook's mission is to give 
people the power to build community and bring the world closer 
together. We are proud that more than 2 billion people around the world 
come to Facebook every month to share with friends and family, to learn 
about new products and services, to volunteer or donate to 
organizations they care about, or to help in a crisis. But people need 
to feel safe in order to build this community. And that is why we are 
committed to fighting any efforts by terrorist groups to use Facebook. 
That is also why Facebook has rules against inciting violence, 
bullying, harassing, and threatening others. Our goal is to ensure that 
Facebook is a place where both expression and personal safety are 
protected and respected.
               ii. facebook's efforts to combat terrorism
    On terrorist content, our view is simple: There is absolutely no 
place on Facebook for terrorism. Our long-standing Dangerous 
Individuals and Organizations policy bans any organization or 
individual that proclaims a violent mission or has engaged in acts of 
violence, including terrorist activity and organized hate. Regardless 
of whether or not these individuals or groups post content that would 
violate our policies, we remove their accounts as soon as we find them. 
They simply are not allowed to use our services under any 
circumstances. Furthermore, we remove any content that praises or 
supports terrorists or their actions whenever we become aware of it, 
and when we uncover evidence of imminent harm, we promptly inform 
authorities.
    We recognize the challenges associated with fighting on-line 
extremism, and we are committed to being part of the solution. We are 
working to address these threats in three ways: Through products that 
help us stop terrorists at the gate, people who help us implement our 
policies, and partnerships outside the company which can help us stay 
ahead of the threat.
A. Products
    One of the challenges we face is identifying the small fraction of 
terrorist content--less than 0.03 percent--posted to a platform used by 
more than 2 billion people every month. Facebook has invested 
significantly in technology to help meet this challenge and to identify 
proactively terrorist content, including through the use of artificial 
intelligence (AI) and other automation. These technologies have become 
increasingly central to keeping hateful or violent content off of 
Facebook.
    Importantly, we do not wait for ISIS or al-Qaeda to upload content 
to Facebook before placing it into our internal detection systems. 
Instead, we proactively go after it. We contract with groups like SITE 
Intelligence and the University of Alabama at Birmingham to find 
propaganda released by these groups before it ever hits our site. We 
put this content, and other content we are able to identify from 
elsewhere on the internet, into our matching systems. And once we are 
aware of a piece of terrorist content, we remove it. We know that 
terrorists adapt as technology evolves, and that is why we constantly 
update our technical solutions. We use these solutions, as well as 
human expertise, so we can stay ahead of terrorist activity on our 
platform. We have provided information on our enforcement techniques in 
the past, and I would like to describe in broad terms some new tactics 
and methods that are proving effective.
            1. Machine Learning Tools
    We use machine learning to assess Facebook posts that may signal 
support for ISIS or al-Qaeda. Our machine learning tools produce a 
score indicating the likelihood that the post violates our 
counterterrorism policies, which, in turn, helps our team of reviewers 
prioritize reviewing posts with the highest scores. The system ensures 
that our reviewers are able to focus on the most important content 
first. And when the tool is sufficiently confident that a post contains 
support for terrorism, we automatically and immediately remove that 
post. We have seen real gains as a result of our efforts; for example, 
prioritization powered by our new machine learning tools has been 
critical to reducing significantly the amount of time terrorist content 
reported by our users stays on the platform.
            2. Changes To Facebook Live
    Facebook has also made changes to Facebook Live in response to the 
tragic events in Christchurch. We now restrict users from using 
Facebook Live if they have violated certain rules--including our 
Dangerous Organizations and Individuals policy. We apply a ``one 
strike'' policy to Live: Anyone who violates our most serious policies 
will be restricted from using Live for set periods of time--for 
example, 30 days--starting on their first offense. And we are working 
on extending these restrictions in the weeks to come, beginning with 
preventing those same people from creating ads on Facebook.
            3. Improvements To Existing Tools And Partnerships
    We have improved several of our existing proactive techniques and 
are now able to detect more effectively terrorist content. For example, 
our tools to algorithmically identify violating text posts (what we 
refer to as ``language understanding'') now work across 19 languages. 
Similarly, though we have long used image- and video-hashing--which 
converts a file into a unique string of digits that serves as a 
``fingerprint'' of that file--we now also use audio- and text-hashing 
techniques for detecting terrorist content.
    These improvements in our technical tools and partnerships have 
allowed for continued and sustained progress in finding and removing 
terrorist content from Facebook. Since the beginning of 2018, we have 
taken action on more than 25 million pieces of terrorist content, and 
we found over 99 percent of that content before any user reported it.
B. People
    We know that we cannot rely on AI alone to identify terrorist 
content. Context often matters. To understand more nuanced cases, we 
need human expertise. One of our greatest human resources is our 
community of users. Our users help us by reporting accounts or content 
that may violate our policies--including the small fraction that may be 
related to terrorism. To review those reports, and to prioritize the 
safety of our users and our platform more generally, including with 
respect to counterterrorism, we have more than 30,000 people working on 
safety and security across the company and around the world. That is 
three times as many people as we had dedicated to such efforts in 2017. 
Our safety and security professionals review reported content in more 
than 50 languages, 24 hours a day. Within our safety and security team, 
we have also significantly grown our team of dedicated counterterrorism 
specialists. Distinct from our content review teams, we have more than 
300 highly-trained professionals who are exclusively or primarily 
focused on preventing terrorist content from ever appearing on our 
platform and quickly identifying and removing it if it does. This team 
includes counterterrorism experts, former prosecutors, and law 
enforcement personnel. Together, they speak over 30 languages and are 
working 24 hours a day around the world to detect and remove terrorist 
content.
    Because our reviewers are human, our performance is not always 
perfect. We make mistakes. And sometimes we are slower to act than we 
want to be. But keeping our platform and our users safe is one of 
Facebook's highest priorities, and we are always working to improve.
C. Partnerships
    We are proud of the work we have done to make Facebook a hostile 
place for terrorists. We understand, however, that simply working to 
keep terrorism off Facebook is not an adequate solution to the problem 
of on-line extremism, particularly because terrorists are able to 
leverage a variety of platforms. We believe our partnerships with 
others--including other companies, civil society, researchers, and 
governments--are crucial to combating this threat.
    In 2017, Facebook co-launched the Global Internet Forum to Counter 
Terrorism (GIFCT) with YouTube, Microsoft, and Twitter. The GIFCT 
shares information between the participants and has trained 110 
companies from around the globe. Just last week, we held an event in 
Jordan that brought together more than 100 people from Government, 
industry, and civil society to share best practices.
    Through GIFCT we expanded a database--which now contains hashes for 
more than 200,000 visually distinct images or videos--in which 15 
companies share ``hashes,'' or digital fingerprints, to better enable 
companies to identify noxious terrorist content.
    Facebook took over as the chair of the GIFCT in 2019 and we have 
worked to expand its capabilities, including increasing hash sharing. 
In fact, we are freely providing our hashing technology to companies 
participating in the consortium.
    Our efforts to work with others in the industry to tackle the on-
line terrorist threat go further still. On May 15, 2019, in the wake of 
the tragic New Zealand attacks, Facebook and other tech companies, 
including Google, Twitter, Microsoft, and Amazon, signed the 
Christchurch Call to Action. The Christchurch Call expands on the GIFCT 
and builds on our other initiatives with Government and civil society 
to prevent the dissemination of terrorist and violent extremist 
content.
    Facebook joined with others in the industry to commit to a 9-point 
plan that sets out concrete steps the industry will take to address the 
spread of terrorist content. Those steps are:
    (1) Terms of Use.--We commit to updating our terms of use, 
        community standards, codes of conduct, and acceptable use 
        policies to expressly prohibit the distribution of terrorist 
        and violent extremist content.
    (2) User Reporting of Terrorist and Violent Extremist Content.--We 
        commit to establishing one or more methods within our on-line 
        platforms and services for users to report or flag 
        inappropriate content, including terrorist and violent 
        extremist content. We will ensure that the reporting mechanisms 
        are clear, conspicuous, and easy to use, and provide enough 
        categorical granularity to allow the company to prioritize and 
        act promptly upon notification of terrorist or violent 
        extremist content.
    (3) Enhancing Technology.--We commit to continuing to invest in 
        technology that improves our capability to detect and remove 
        terrorist and violent extremist content on-line, including the 
        extension or development of digital fingerprinting and AI-based 
        technology solutions.
    (4) Livestreaming.--We commit to identifying appropriate checks on 
        livestreaming, aimed at reducing the risk of disseminating 
        terrorist and violent extremist content on-line. These may 
        include enhanced vetting measures and moderation where 
        appropriate. Checks on livestreaming necessarily will be 
        tailored to the context of specific livestreaming services, 
        including the type of audience, the nature or character of the 
        livestreaming service, and the likelihood of exploitation.
    (5) Transparency Reports.--We commit to publishing on a regular 
        basis transparency reports regarding detection and removal of 
        terrorist or violent extremist content on our on-line platforms 
        and services and ensuring that the data is supported by a 
        reasonable and explainable methodology.
    (6) Shared Technology Development.--We commit to working 
        collaboratively across industry, governments, educational 
        institutions, and NGO's to develop a shared understanding of 
        the contexts in which terrorist and violent extremist content 
        is published and to improve technology to detect and remove 
        terrorist and violent extremist content including by creating 
        robust data sets to improve AI, developing open-source or other 
        shared tools to detect and remove content, and by enabling all 
        companies to contribute to the effort.
    (7) Crisis Protocols.--We commit to working collaboratively to 
        respond to emerging or active events on an urgent basis, so 
        relevant information can be quickly and efficiently shared, 
        processed, and acted upon by all stakeholders with minimal 
        delay. This includes the establishment of incident management 
        teams that coordinate actions and broadly distribute 
        information that is in the public interest.
    (8) Education.--We commit to working collaboratively to help 
        understand and educate the public about terrorist and extremist 
        violent content on-line. This includes educating and reminding 
        users about how to report or otherwise not contribute to the 
        spread of this content on-line.
    (9) Combating Hate and Bigotry.--We commit to working 
        collaboratively across industry to attack the root causes of 
        extremism and hate on-line. This includes providing greater 
        support for relevant research--with an emphasis on the impact 
        of on-line hate on off-line discrimination and violence--and 
        supporting the capacity and capability of NGO's working to 
        challenge hate and promote pluralism and respect on-line.
    Our work to combat terrorism is not done. Terrorists come in many 
ideological stripes--and the most dangerous among them are deeply 
resilient. At Facebook, we recognize our responsibility to counter this 
threat and remain committed to it. But we should not view this as a 
problem that can be ``solved'' and set aside, even in the most 
optimistic scenarios. We can reduce the presence of terrorism on 
mainstream social platforms, but eliminating it completely requires 
addressing the people and organizations that generate this material in 
the real world.
                  iii. fighting other harmful content
    Facebook recognizes that terrorist content is not the only threat 
to our users' safety and well-being. There will always be people who 
try to use our platforms to spread hate. And we have seen foreign 
actors trying to interfere with elections by sowing division and 
spreading false information. We are also working to address new tools 
of distortion, including manipulated media. We are developing 
technologies to identify manipulated content, dramatically reduce its 
distribution, and provide additional context to inform our community 
about its falsity. And we have partnered with outside fact checkers, 
researchers, and our colleagues across the industry to help with these 
efforts. We know that people want to see accurate information on 
Facebook, so we will continue to make fighting misinformation a 
priority.
    We take all of these problems very seriously. Hate of any kind has 
no place on Facebook. Any organization or individual that espouses 
violence or hatred violates our standards. A few months ago, we updated 
our policies to make it clear that all praise, support, and 
representation of white nationalism or white separatism, in addition to 
white supremacy, violates our rules. Any such content is removed from 
our platform under our Dangerous Organizations and Individuals policy. 
And Facebook does not tolerate attempts to undermine the integrity of 
an election or suppress voter turnout. These issues are difficult, but 
we will continue to work to craft policies that protect people; to 
apply those policies consistently and without bias; and to give voice 
to a community that transcends regions, cultures, and languages.
                             iv. conclusion
    Security is an arms race and our adversaries are always evolving 
their tactics. We constantly have to improve to stay ahead. Though we 
will never be perfect, we have made progress. And we are committed to 
tirelessly combating extremism on our platform by regularly reviewing 
our policies, adopting technical solutions, and strengthening our 
partnerships with external stakeholders. I appreciate the opportunity 
to be here today, and I look forward to your questions.

    Chairman Thompson. I thank you.
    I now recognize the gentleman, Mr. Pickles, for 5 minutes.

STATEMENT OF NICK PICKLES, GLOBAL SENIOR STRATEGIST FOR PUBLIC 
                        POLICY, TWITTER

    Mr. Pickles. Chairman Thompson, Ranking Member Rogers, 
Members of the committee, thank you for the opportunity to 
appear here today to discuss these important issues of 
combating terrorist content on-line and manipulation for the 
public conversation.
    We keep the victims, their families, and the affected 
communities of the attack in Christchurch and around the world 
in our minds as we undertake this important work.
    We have made the health of Twitter our top priority and 
measure our efforts by how successfully we encourage healthy 
debates, conversations, and critical thinking on the platform. 
Conversely, hateful conduct, terrorist content, and deceptive 
practices detract from the health of the platform.
    I would like to begin by outlining three key policies.
    First, Twitter takes a zero-tolerance approach to terrorist 
content on our platform. Individuals may not promote terrorism, 
engage in terrorist recruitment or terrorist acts.
    Since 2015, we have suspended more than 1.5 million 
accounts for violations of our rules related to the promotion 
of terrorism and continue to see more than 90 percent of these 
accounts suspended through proactive measures. In the majority 
of cases, we take action at the account-creation stage before 
an account has even tweeted. The remaining 10 percent is 
identified through a combination of user reports and 
partnerships.
    Second, we prohibit the use of Twitter by violent extremist 
groups. These are defined in our rules as groups who, whether 
by their statements on or off the platform, promote violence 
against civilians or use violence against civilians to further 
their cause, whatever their ideology. Since the introduction of 
this policy in 2017, we have taken action on 184 groups 
globally and permanently suspended more than 2,000 unique 
accounts.
    Third, Twitter does not allow hateful conduct on its 
service. An individual on Twitter is not permitted to promote 
violence or directly attack or threaten people based on 
protected characteristics. Where any of these rules are broken, 
we will take action to remove the content and will permanently 
remove those who promote terrorism or violent extremist groups 
on Twitter.
    As you have heard, Twitter is a member of the Global 
Internet Forum to Counter Terrorism, a partnership between 
YouTube, Twitter, Facebook, and Microsoft that facilitates 
information sharing and technical information across industry, 
as well as providing essential export for smaller companies.
    We learned a number of lessons from the Christchurch 
attacks. The distribution of media was manifestly different 
from how IS or other terror organizations worked. This reflects 
a change in the wider threat environment that requires a 
renewed approach and a focus on crisis response.
    After Christchurch, an array of individuals on-line sought 
to continuously re-upload the content created by the attacker, 
both the video and the manifesto. The broader internet 
ecosystem presented then and still presents a challenge we 
cannot avoid. A range of third-party services were used to 
share content, including some forums and websites that have 
long hosted some of the most egregious content available on-
line.
    Our analysis found that 70 percent of the views of the 
video posted by the Christchurch attacker came from verified 
accounts on Twitter, including news organizations and 
individuals posting the video to condemn the attack. We are 
committed to learning and improving, but every entity has a 
part to play.
    We should also take some heart from the social examples we 
have seen on Twitter around the world as users come together to 
challenge hate and challenge division. Hashtags like 
#PrayForOrlando, #JeSuisCharlie, or, after the Christchurch 
attack, #HelloBrother reject terrorist narratives and offer a 
better future for us all.
    In the months since the attack, governments, industry, and 
civil society have united behind our mutual commitments to a 
safe, secure, open, and global internet. In fulfilling our 
commitment to the Christchurch call, we will take a wide range 
of actions, including to continue investing in technology so we 
can respond as quickly as possible to a future instance.
    Let me now turn to our approach to dealing with attempts to 
manipulate the public conversation.
    As a uniquely open service, Twitter enables the 
clarification of falsehoods in real-time. We proactively 
enforce policies and use technology to halt the spread of 
content propagated through manipulated tactics. Our rules 
clearly prohibit coordinated account manipulation, malicious 
automation, and fake accounts.
    We continue to explore how we may take further action, 
through both policy and products, on these types of issues in 
the future. We continue to critically examine additional 
safeguards we can implement to protect the health of the 
conversation occurring on Twitter. We look forward to working 
with the committee on these important issues.
    Thank you.
    [The prepared statement of Mr. Pickles follows:]
                   Prepared Statement of Nick Pickles
                             June 26, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee: Twitter's purpose is to serve the public conversation. 
Twitter is a place where people from around the world come together in 
an open and free exchange of ideas. My statement today will provide 
information and deeper context on: (I) Twitter's work to protect the 
health of the public conversation, including combating terrorism, 
violent extremist groups, hateful conduct, and platform manipulation, 
and (II) our partnerships and societal engagement.
   i. twitter's work to protect the health of the public conversation
    All individuals accessing or using Twitter's services must adhere 
to the policies set forth in the Twitter Rules. Accounts under 
investigation or which have been detected as sharing content in 
violation with the Twitter Rules may be required to remove content, or 
in serious cases, will see their account permanently suspended. Our 
policies and enforcement options evolve continuously to address 
emerging behaviors on-line.
A. Policy on Terrorism
    Individuals are prohibited from making specific threats of violence 
or wish for the serious physical harm, death, or disease of an 
individual or group of people. This includes, but is not limited to, 
threatening or promoting terrorism.
    We have now suspended more than 1.5 million accounts for violations 
related to the promotion of terrorism between August 1, 2015, and 
December 31, 2018. In 2018, a total of 371,669 accounts were suspended 
for violations related to promotion of terrorism. We continue to see 
more than 90 percent of these accounts suspended through proactive 
measures.
    The trend we are observing year-over-year is a steady decrease in 
terrorist organizations attempting to use our service. This is due to 
zero-tolerance policy enforcement that has allowed us to take swift 
action on ban evaders and other identified forms of behavior used by 
terrorist entities and their affiliates. In the majority of cases, we 
take action at the account creation stage--before the account even 
tweets.
    Government reports constituted less than 0.1 percent of all 
suspensions in the last reporting period. Continuing the trend we have 
seen for some time, the number of reports we received from governments 
of terrorist content from the second half of last year decreased by 77 
percent compared to the previous reporting period (January-June 2018).
    We are reassured by the progress we have made, including 
recognition by independent experts. For example, Dublin City University 
Professor Maura Conway found in a detailed study that ``ISIS's 
previously strong and vibrant Twitter community is now . . . virtually 
non-existent.''
    In tandem with removing content, our wider efforts on countering 
violent extremism going back to 2015 have focused on bolstering the 
voices of non-Governmental organizations and credible outside groups to 
use our uniquely open service to spread positive and affirmative 
campaigns that seek to offer an alternative to narratives of hate.
    We have partnered with organizations delivering counter and 
alternative narrative initiatives across the globe and we encourage the 
committee to consider the role of Government in supporting the work of 
credible messengers in this space at home and abroad.
B. Policy on Violent Extremist Groups
    In December 2017, we broadened our rules to encompass accounts 
affiliated with violent extremist groups. Our prohibition on the use of 
Twitter's services by violent extremist groups--i.e., identified groups 
subscribing to the use of violence as a means to advance their cause--
applies irrespective of the cause of the group.
    Our policy states:
    Violent extremist groups are those that meet all of the below 
criteria:
  <bullet> identify through their stated purpose, publications, or 
        actions as an extremist group;
  <bullet> have engaged in, or currently engage in, violence and/or the 
        promotion of violence as a means to further their cause; and
  <bullet> target civilians in their acts and/or promotion of violence.
    An individual on Twitter may not affiliate with such an 
organization--whether by their own statements or activity both on and 
off the service--and we will permanently suspend those who do so.
    We know that the challenges we face are not static, nor are bad 
actors homogenous from one country to the next in how they behave. Our 
approach combines flexibility with a clear, consistent policy 
philosophy, enabling us to move quickly while establishing clear norms 
of unacceptable behavior.
    Since the introduction of our policy on violent extremist groups, 
we have taken action on 184 groups under this policy and permanently 
suspended 2,182 unique accounts. Ninety-three of these groups advocate 
violence against civilians alongside some form of extremist white 
supremacist ideology.
C. Policy on Hateful Conduct
    People on Twitter are not permitted to promote violence against or 
directly attack or threaten other people on the basis of race, 
ethnicity, national origin, sexual orientation, gender, gender 
identity, religious affiliation, age, disability, or serious disease. 
We also do not allow accounts whose primary purpose is inciting harm 
toward others on the basis of these categories.
    We do not allow individuals to use hateful images or symbols in 
their profile image or profile header. Individuals on the platform are 
not allowed to use the user name, display name, or profile bio to 
engage in abusive behavior, such as targeted harassment or expressing 
hate toward a person, group, or protected category.
    Under this policy, we take action against behavior that targets 
individuals or an entire protected category with hateful conduct. 
Targeting can happen in a number of ways, for example, mentions, 
including a photo of an individual, or referring to someone by their 
full name.
    When determining the penalty for violating this policy, we consider 
a number of factors including, but not limited to the severity of the 
violation and an individual's previous record of rule violations. For 
example, we may ask someone to remove the violating content and serve a 
period of time in read-only mode before they can Tweet again. 
Subsequent violations will lead to longer read-only periods and may 
eventually result in permanent account suspension. If an account is 
engaging primarily in abusive behavior, or is deemed to have shared a 
violent threat, we will permanently suspend the account upon initial 
review.
D. Manipulation of the Public Conversation
    Our policies regarding terrorism, violent extremist groups, and 
hateful conduct are strictly enforced, as are all our policies. We take 
additional steps to safeguard the public conversation from 
manipulation.
    As a uniquely open, public service, the clarification of falsehoods 
could happen in seconds on Twitter. We proactively enforce policies and 
use technology to halt the spread of content propagated through 
manipulative tactics, such as automation or attempting to deliberately 
game trending topics.
    Our Site Integrity team is dedicated to identifying and 
investigating suspected platform manipulation on Twitter, including 
activity associated with coordinated malicious activity that we are 
able to reliably associate with state-affiliated actors. In partnership 
with teams across the company, we employ a range of open-source and 
proprietary signals and tools to identify when attempted coordinated 
manipulation may be taking place, as well as the actors responsible for 
it. We also partner closely with governments, law enforcement, 
academics, researchers, and our peer companies to improve our 
understanding of the actors involved in information operations and 
develop a holistic strategy for addressing them.
    For example, we typically challenge 8 to 10 million accounts per 
week for these behaviors, requesting additional details, like email 
addresses and phone numbers in order to authenticate the account. We 
also recently acquired a new business to augment our efforts in this 
regard. This strategic investment will be a key driver as we work to 
protect the public conversation and help all individuals on our service 
see relevant information.
    Attempts to execute misinformation campaigns rely on tactics like 
coordinated account manipulation or malicious automation--all of which 
are against Twitter's Rules. We are continuing to explore ways at how 
we may take action--through both policy and product--on these types of 
issues in the future. We continue to critically examine additional 
safeguards we can implement to protect the conversation occurring on 
Twitter.
    In October 2018, we published the first comprehensive archive of 
tweets and media associated with known state-backed information 
operations on Twitter and since then we have provided two further 
updates covering a range of actors. Thousands of researchers from 
across the globe have now made use of these datasets, which contain 
more than 30 million tweets and more than 1 terabyte of media, using 
our archive to conduct their own investigations and to share their 
insights and independent analysis with the world.
    By making this data open and accessible, we seek to empower 
researchers, journalists, governments, and members of the public to 
deepen their understanding of critical issues impacting the integrity 
of public conversation on-line, particularly around elections. This 
transparency is core to our mission.
E. Investing in Tech: Behavior vs. Content
    Twitter's philosophy is to take a behavior-led approach, utilizing 
a combination of machine learning and human review to prioritize 
reports and improve the health of the public conversation. That is to 
say, we increasingly look at how accounts behave before we look at the 
content they are posting. This is how we seek to scale our efforts 
globally and leverage technology even where the language used is highly 
context-specific. Twitter employs extensive content detection 
technology to identify potentially abusive content on the service, 
along with allowing users to report content to us either as an 
individual or a bystander.
    We have made the health of Twitter our top priority, and our 
efforts will be measured by how we help encourage more healthy debate, 
conversations, and critical thinking on the platform. Conversely, 
abuse, automation, hateful conduct, terrorism, and manipulation will 
detract from the health of our platform.
    For abuse, this two-pronged strategy has allowed us to take 3 times 
the amount of enforcement of action on abuse within 24 hours than this 
time last year. We now proactively surface nearly 40 percent of abusive 
content we remove compared to 20 percent a year ago to reduce the 
burden on the individual. Since we started using machine learning 3 
years ago to reduce the visibility on abusive content:
  <bullet> 80 percent of all replies that are removed were already less 
        visible;
  <bullet> Abuse reports have been reduced by 7.6 percent;
  <bullet> The most visible replies receive 45 percent less abuse 
        reports;
  <bullet> 100,000 accounts were suspended for creating new accounts 
        after a suspension during January through March 2019--a 45 
        percent increase from the same time last year;
  <bullet> 60 percent faster response to appeals requests with our new 
        in-app appeal process;
  <bullet> 3 times more abusive accounts suspended within 24 hours 
        after a report compared to the same time last year; and
  <bullet> 2.5 times more private information removed with a new, 
        easier reporting process.
                ii. partnerships and societal engagement
    We work closely with the Federal Bureau of Investigation, along 
with law enforcement and numerous public safety around the world. As 
our partnerships deepen, we are able to better respond to the changing 
threats we all face, sharing valuable information and promptly 
responding to valid legal requests for information.
A. Industry Collaboration
    Collaboration with our industry peers and civil society is also 
critically important to addressing common threats from terrorism 
globally. In June 2017, we launched the Global Internet Forum to 
Counter Terrorism (the ``GIFCT''), a partnership among Twitter, 
YouTube, Facebook, and Microsoft.
    The GIFCT facilitates, among other things, information sharing; 
technical cooperation; and research collaboration, including with 
academic institutions. In September 2017, the members of the GIFCT 
announced a significant financial commitment to support research on 
terrorist abuse of the internet and how governments, tech companies, 
and civil society can respond effectively. Our goal is to establish a 
network of experts that can develop platform-agnostic research 
questions and analysis that consider a range of geopolitical contexts.
    Technological collaboration is a key part of GIFCT's work. In the 
first 2 years of GIFCT, two projects have provided technical resources 
to support the work of members and smaller companies to remove 
terrorist content.
    First, the shared industry data base of ``hashes''--unique digital 
``fingerprints''--for violent terrorist propaganda now spans more than 
100,000 hashes. The database allows a company that discovers terrorist 
content on one of its sites to create a digital fingerprint and share 
it with the other companies in the forum, who can then use those hashes 
to identify such content on their services or platforms, review against 
their respective policies and individual rules, and remove matching 
content as appropriate or block extremist content before it is posted.
    Second, a year ago, Twitter began working with a small group of 
companies to test a new collaborative system. Because Twitter does not 
allow files other than photos or short videos to be uploaded, one of 
the behaviors we saw from those seeking to promote terrorism was to 
post links to other services where people could access files, longer 
videos, PDFs, and other materials. Our pilot system allows us to alert 
other companies when we removed an account or Tweet that linked to 
material that promoted terrorism hosted on their service. This 
information sharing ensures the hosting companies can monitor and track 
similar behavior, taking enforcement action pursuant with their 
individual policies. This is not a high-tech approach, but it is simple 
and effective, recognizing the resource constraints of smaller 
companies.
    Based on positive feedback, the partnership has now expanded to 12 
companies and we have shared more than 14,000 unique URLs with these 
services. Every time a piece of content is removed at source, it means 
any link to that source--wherever it is posted--will no longer be 
operational.
    We are eager to partner with additional companies to expand this 
project, and we look forward to building on our existing partnerships 
in the future.
B. The Christchurch Attack
    The Christchurch attack was unprecedented both in the way it 
exploited the on-line environment but also the disparate range of on-
line communities that were involved in sharing the Christchurch video 
and the hateful manifesto of the attacker.
    We saw a wide range of individuals on the service continue to 
upload excerpts of the attacker's video even after it had been removed. 
This included those who sought to condemn the attack, including those 
who combined video of their condemnation and prayers with video of the 
attack, and others who saw baseless conspiracies and wanted to provide 
evidence to refute such claims. There were those who believed to remove 
the content was censorship and those who wanted to amplify the hatred 
the video embodied. Our analysis found 70 percent of the views of 
footage of the attack in Christchurch on Twitter were from content 
posted by verified accounts, including media outlets and those seeking 
to condemn the violence. In all of these circumstances we removed the 
relevant content.
    As a uniquely open service, we see regular examples around the 
world of our users, communities, and groups challenging hate and 
division, particularly following violent acts. As the world began to 
comprehend the horror of what took place in Christchurch, some may have 
sought to promote hate, but there was another conversation taking 
place, one that reached many more people. The hashtag #HelloBrother saw 
people around the world recognizing the brave act of one victim and 
rejecting the terrorist's narrative, while hundreds of thousands of 
tweets expressed similar sentiments in their own way. This is the 
potential of open public conversation and what it can empower--a global 
platform for the best of society to challenge violence and hatred.
                   c. the christchurch call to action
    In the months since the attack, New Zealand Prime Minister Jacinda 
Ardern has led the international policy debate, and that work has 
culminated in the Christchurch Call. Twitter's Chief Executive Officer 
Jack Dorsey attended the launch of the Christchurch Call in Paris, 
meeting with the Prime Minister to express our support and partnership 
with the New Zealand Government.
    Because terrorism cannot be solved by the tech industry alone, the 
Christchurch Call is a landmark moment and an opportunity to convene 
governments, industry, and civil society to unite behind our mutual 
commitment to a safe, secure open, global internet. It is also a moment 
to recognize that however or wherever evil manifests itself, it affects 
us all.
    In fulfilling our commitments in the Call, we will take a wide 
range of actions. We continue to invest in technology to prioritize 
signals, including user reports, to ensure we can respond as quickly as 
possible to a potential incident, building on the work we have done to 
harness proprietary technology to detect and disrupt bad actors 
proactively.
    As part of our commitment to educate users about our rules and to 
further prohibit the promotion of terrorism or violent extremist 
groups, we have updated our rules and associated materials to be 
clearer on where these policies apply. This is accompanied by further 
data being provided in our transparency report, allowing public 
consideration of the actions we are taking under our rules, as well as 
how much content is detected by our proactive efforts.
    Twitter will take concrete steps to reduce the risk of 
livestreaming being abused by terrorists, while recognizing that during 
a crisis these tools are also used by news organizations, citizens, and 
governments. We are investing in technology and tools to ensure we can 
act even faster to remove video content and stop it spreading.
    Finally we are committed to continuing our partnership with 
industry peers, expanding on our URL-sharing efforts along with wider 
mentoring efforts, strengthening our new crisis protocol arrangements, 
and supporting the expansion of GIFCT membership.
                     d. a whole-of-society response
    The challenges we face as a society are complex, varied, and 
constantly evolving. These challenges are reflected and often magnified 
by technology. The push and pull factors influencing individuals vary 
widely and there is no one solution to prevent an individual turning to 
violence. This is a long-term problem requiring a long-term response, 
not just the removal of content.
    While we strictly enforce our policies, removing all discussion of 
particular viewpoints, no matter how uncomfortable our customers may 
find them, does not eliminate the ideology underpinning them. Quite 
often, it moves these views into darker corners of the internet where 
they cannot be challenged and held to account. As our peer companies 
improve in their efforts, this content continues to migrate to less-
governed platforms and services. We are committed to learning and 
improving, but every part of the on-line ecosystem has a part to play.
    We have a critical role. Tech companies and content removal on-line 
cannot alone, however, solve these issues. They are systemic and 
societal and so they require an whole-of-society approach. We welcome 
the opportunity to continue to work with our industry peers, 
Government, academics, and civil society to find the right solutions.
    Our goal is to protect the health of the public conversation and to 
take immediate action on those who seek to spread messages of terror 
and violent extremism. However, no solution is perfect, and no 
technology is capable of detecting every potential threat.
    Twitter's efforts around the globe to support civil society voices 
and promote positive messages have seen Twitter employees train groups 
on 5 continents and we have provided pro-bono advertising to groups to 
enable their messages to reach millions of people. When we at Twitter 
talk about the health of the public conversation, we see the principles 
of civility, empathy, and mutual respect as foundational to our work. 
We will not solve problems by removing content alone. We should not 
underestimate the power of open conversation to change minds, 
perspectives, and behaviors.
    We stand ready to assist the committee in its important work 
regarding the issue of the tools that internet companies can employ to 
stop the spread of terrorist content and misinformation on our 
services.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Slater to summarize his testimony for 5 
minutes.

   STATEMENT OF DEREK SLATER, GLOBAL DIRECTOR OF INFORMATION 
                         POLICY, GOOGLE

    Mr. Slater. Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of the committee, thank you for the 
opportunity to appear before you today. I appreciate your 
leadership on the important issues of radicalization and 
misinformation on-line and welcome the opportunity to discuss 
Google's work in these areas.
    My name is Derek Slater, and I am the global director of 
information policy at Google. In my role, I lead a team that 
advises the company on public policy frameworks for on-line 
content.
    At Google, we believe that the internet has been a force 
for creativity, learning, and access to information. Supporting 
the free flow of ideas is core to our mission: To organize and 
make the world's information universally accessible and useful.
    Yet there have always been legitimate limits, even where 
laws strongly protect free expression. This is true both on-
line and off, especially when it comes to issues of terrorism, 
hate speech, and misinformation. We take these issues seriously 
and want to be a part of the solution.
    In my testimony today, I will focus on two areas where we 
are making progress to help protect our users: First, on the 
enforcement of our policies around terrorism and hate speech; 
and, second, in combating misinformation broadly.
    On YouTube, we have rigorous policies and programs to 
defend against the use of our platform to spread hate or incite 
violence. Over the past 2 years, we have invested heavily in 
machines and people to quickly identify and remove content that 
violates our policies.
    First, YouTube's enforcement system starts from the point 
at which a user uploads a video. If it is somewhat similar to 
videos that already violate our policies, it is sent for humans 
to review. If they determine that it violates our policies, 
they remove it, and the system makes a digital fingerprint so 
it can't be uploaded again.
    In the first quarter of 2019, over 75 percent of the more 
than 8 million videos removed were first flagged by a machine, 
the majority of which were removed before a single view was 
received.
    Second, we also rely on experts to find videos that the 
algorithm might be missing. Some of these experts sit at our 
intel desk, which proactively looks for new trends in content 
that might violate our policies. We also allow expert NGO's and 
governments to notify us of bad content in bulk through our 
Trusted Flagger program.
    Finally, we go beyond enforcing our policies by creating 
programs to promote counter-speech. Examples of this work 
include our Creators for Change program, which supports YouTube 
creators that are acting as positive role models. In addition, 
Alphabet's Jigsaw group has deployed the redirect method, which 
uses targeted ads and videos to disrupt on-line radicalization.
    This broad and cross-sectional work has led to tangible 
results. In the first quarter of 2019, YouTube manually 
reviewed over 1 million suspected terrorist videos and found 
that only fewer than 10 percent, about 90,000, violated our 
terrorism policy. As a comparison point, we typically remove 
between 7 million and 9 million videos per quarter, which is a 
tiny fraction of a percent of YouTube's total views during this 
time period.
    Our efforts do not stop there. We are constantly taking 
input and reacting to new situations. For example, YouTube 
recently further updated its hate speech policy. The updated 
policy specifically prohibits videos alleging that a group is 
superior in order to justify discrimination, segregation, or 
exclusion based on qualities like age, gender, race, caste, 
religion, sexual orientation, or veteran status.
    Similarly, the recent tragic events in Christchurch 
presented some unprecedented challenges. In response, we took 
more drastic measures, such as automatically rejecting new 
uploads of videos without waiting for human review to check if 
it was news content. We are now reexamining our crisis 
protocols and have also signed the Christchurch Call to Action.
    Finally, we are deeply committed to working with 
Government, the tech industry, and experts from civil society 
and academia to protect our services from being exploited by 
bad actors, including during Google's chairmanship of the GIFCT 
over the last year and a half.
    On the topic of combating misinformation, we have a natural 
long-term incentive to prevent anyone from interfering with the 
integrity of our products. We also recognize that it is 
critically important to combat misinformation in the context of 
democratic elections, when our users seek accurate, trusted 
information that will help them make critical decisions.
    We have worked hard to curb misinformation in our products, 
and our efforts include designing better ranking algorithms, 
implementing tougher policies against monetization of 
misrepresentative content, and deploying multiple teams that 
identify and take action against malicious actors.
    At the same time, we have to be mindful that our platforms 
reflect a broad array of sources and information, and there are 
important free-speech considerations. There is no silver 
bullet, but we will continue to work to get it right.
    In conclusion, we want to do everything we can to ensure 
users are not exposed to harmful content. We understand these 
are difficult issues of serious interest to the committee. We 
take them seriously and want to be responsible actors who do 
our part.
    Thank you for your time, and I look forward to taking your 
questions.
    [The prepared statement of Mr. Slater follows:]
                   Prepared Statement of Derek Slater
                             June 26, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: Thank you for the opportunity to appear before you 
today. I appreciate your leadership on the important issues of 
radicalization and misinformation on-line, and welcome the opportunity 
to discuss Google's work in these areas.
    My name is Derek Slater, and I am the global director of 
information policy at Google. In my role, I lead a team that advises 
the company on public policy frameworks for on-line content--including 
hate speech, terrorism, and misinformation. Prior to my role at Google, 
I worked on internet policy at the Electronic Frontier Foundation and 
at the Berkman Center for Internet and Society.
    At Google, we believe that the internet has been a force for 
creativity, learning, and access to information. Supporting this free 
flow of ideas is core to our mission to organize and make the world's 
information universally accessible and useful. We build tools that 
empower users to access, create, and share information like never 
before giving them more choice, opportunity, and exposure to a 
diversity of opinions. Products like YouTube, for example, have 
expanded economic opportunity for small businesses to market and sell 
their goods; have given artists, creators, and journalists a platform 
to share their work, connect with an audience, and enrich civic 
discourse; and have enabled billions to benefit from a bigger, broader 
understanding of the world.
    While the free flow of information and ideas has important social, 
cultural, and economic benefits, there have always been legitimate 
limits, even where laws strongly protect free expression. This is true 
both on-line and off, especially when it comes to issues of terrorism, 
hate speech, and misinfomation. We are deeply troubled by the increase 
in hate and violence in the world, particularly by the acts of 
terrorism and violent extremism in New Zealand. We take these issues 
seriously and want to be a part of the solution.
    This is why, in addition to being guided by local law, we have 
Community Guidelines our users have to follow. We also work closely 
with Government, industry, and civil society to address these 
challenges in partnership within the United States and around the 
world. In my testimony today, I will focus on two key areas where we 
are making progress to help protect our users: (i) On the enforcement 
of our policies around terrorism and hate speech; and (ii) in 
combatting misinformation broadly.
          enforcement on youtube for terrorism and hate speech
    We have rigorous policies and programs to defend against the use of 
our platform to spread hate or incite violence. This includes: 
Terrorist recruitment, violent extremism, incitement to violence, 
glorification of violence, and videos that teach people how to commit 
terrorist attacks. We apply these policies to violent extremism of all 
kinds, whether inciting violence on the basis of race or religion or as 
part of an organized terrorist group.
    Tough policies have to be coupled with tough enforcement. Over the 
past 2 years, we have invested heavily in machines and people to 
quickly identify and remove content that violates our policies against 
incitement to violence and hate speech:
    (1) YouTube's enforcement system starts from the point at which a 
        user uploads a video. If it is somewhat similar to videos that 
        already violate our policies, it is sent for humans to review. 
        If they determine that it violates our policies, they remove it 
        and the system makes a ``digital fingerprint'' or hash of the 
        video so it can't be uploaded again. In the first quarter of 
        2019, over 75 percent of the more than 8 million videos removed 
        were first flagged by a machine, the majority of which were 
        removed before a single view was received.
    (2) Machine learning technology is what helps us find this content 
        and enforce our policies at scale. But hate and violent 
        extremism are nuanced and constantly evolving, which is why we 
        also rely on experts to find videos the algorithm might be 
        missing. Some of these experts sit at our intel desk, which 
        proactively looks for new trends in content that might violate 
        our policies. We also allow expert NGO's and governments to 
        notify us of bad content in bulk through our Trusted Flagger 
        program. We reserve the final decision on whether to remove 
        videos they flag, but we benefit immensely from their 
        expertise.
    (3) Finally, we go beyond enforcing our polices by creating 
        programs to promote counterspeech on our platforms to present 
        narratives and elevate the voices that are most credible in 
        speaking out against hate, violence, and terrorism.
    (a) For example, our Creators for Change program supports creators 
            who are tackling tough issues, including extremism and 
            hate, by building empathy and acting as positive role 
            models. There have been 59 million views of 2018 Creators 
            for Change videos so far; the creators involved have over 
            60 million subscribers and more than 8.5 billion lifetime 
            views of their channels; and through `Local chapters' of 
            Creators for Change, creators tackle challenges specific to 
            different markets.
    (b) Alphabet's Jigsaw group, an incubator to tackle some of the 
            toughest global security challenges, has deployed the 
            Redirect Method, which uses Adwords targeting tools and 
            curated YouTube playlists to disrupt on-line 
            radicalization. The method is open to anyone to use, and we 
            know that NGO's have sponsored campaigns against a wide 
            spectrum of ideologically-motivated terrorists.
    This broad and cross-sectional work has led to tangible results. In 
Q1 2019, YouTube manually reviewed over 1 million suspected terrorist 
videos and found that only fewer than 10 percent (90K videos) violated 
our terrorism policy. Even though the amount of content we remove for 
terrorism is low compared to the overall amount our users and 
algorithms flag, we invest in reviewing all of it out of an abundance 
of caution. As comparison point, we typically remove between 7 and 9 
million videos per quarter--a fraction of a percent of YouTube's total 
views during this time period. Most of these videos were first flagged 
for review by our automated systems. Over 90 percent of violent 
extremist videos that were uploaded and removed in the past 6 months 
(Q4 2018 & Q1 2019) were removed before receiving a single human flag, 
and of those, 88 percent had fewer than 10 views.
    Our efforts do not end there. We are constantly taking input and 
reacting to new situations. For example, YouTube recently further 
updated its Hate Speech policy. The updated policy specifically 
prohibits videos alleging that a group is superior in order to justify 
discrimination, segregation, or exclusion based on qualities like age, 
gender, race, caste, religion, sexual orientation, or veteran status. 
This would include, for example, videos that promote or glorify Nazi 
ideology, which is inherently discriminatory. It also prohibits content 
denying that well-documented violent events, like the Holocaust or the 
shooting at Sandy Hook Elementary, took place. We began enforcing the 
updated policy the day it launched; however, it will take time for our 
systems to fully ramp up and we'll be gradually expanding coverage over 
the next several months.
    Similarly, the recent tragic events in Christchurch presented some 
unprecedented challenges and we had to take some unprecedented steps to 
address the unprecedented volume of new videos related to the events--
tens of thousands, exponentially larger than we had ever seen before, 
at times coming in as fast as one per second. In response, we took more 
drastic measures, such as automatically rejecting new uploads of clips 
of the video without waiting for human review to check if it was news 
content. We are now reexamining our crisis protocols, and we've been 
giving a lot of thought to what additional steps we can take to further 
protect our platforms against misuse. Google and YouTube also signed 
the Christchurch Call to Action, a series of commitments to quickly and 
responsibly address terrorist content on-line. The effort was 
spearheaded by New Zealand's prime minister to ensure another misuse of 
on-line platforms like this cannot happen again.
    Finally, we are deeply committed to working with Government, the 
tech industry, and experts from civil society and academia to protect 
our services from being exploited by bad actors. During Google's 
chairmanship of the Global Internet Forum to Counter Terrorism over the 
last year-and-a-half, the Forum sought to expand its membership and to 
reach out to a wide variety of stakeholders to ensure we are 
responsibly addressing terrorist content on-line. For example, we 
hosted a summit in Sunnyvale so G7 security ministers could hear the 
concerns of smaller platforms We have also convened workshops with 
activists and civil society organizations to find ways to support their 
on-line counter-extremism campaigns, and sponsored workshops around the 
world to share good practices with other tech companies and platforms.
Combating Misinformation
    We have a natural, long-term incentive to prevent anyone from 
interfering with the integrity of our products. We also recognize that 
it is critically important to combat misinformation in the context of 
democratic elections, when our users seek accurate, trusted information 
that will help them make critical decisions. We have worked hard to 
curb misinformation in our products. Our efforts include designing 
better-ranking algorithms, implementing tougher policies against 
monetization of misrepresentative content, and deploying multiple teams 
that identify and take action against malicious actors. At the same 
time, we have to be mindful that our platforms reflect a broad array of 
sources and information and there are important free-speech 
considerations. There is no silver bullet, but we will continue to work 
to get it right, and we rely on a diverse set of tools, strategies, and 
transparency efforts to achieve our goals.
    We make quality count in our ranking systems in order to deliver 
quality information, especially in contexts that are prone to rumors 
and the propagation of false information (such as breaking news 
events). The ranking algorithms we develop to that end are geared 
toward ensuring the usefulness of our services, as measured by user 
testing. The systems are not designed to rank content based on its 
political perspective.
    Since the early days of Google and YouTube, some content creators 
have tried to deceive our ranking systems in order to increase their 
visibility, a set of practices we view as a form of spam. To prevent 
spam and other improper activity during elections, we have multiple 
internal teams that identify malicious actors wherever they originate, 
disable their accounts, and share threat information with other 
companies and law enforcement officials. We will continue to invest 
resources to address this issue and to work with law enforcement, 
Congress, and other companies.
    In addition to tackling spam, we invest in trust and safety efforts 
and automated tools to tackle a broad set of malicious behaviors. Our 
policies across Google Search, Google News, YouTube, and our 
advertising products clearly outline behaviors that are prohibited, 
such as misrepresentation of one's ownership or primary purpose on 
Google News and our advertising products, or impersonation of other 
channels or individuals on YouTube. We make these rules of the road 
clear to users and content creators, while being mindful not to 
disclose so much information about our systems and policies as to make 
it easier for malicious actors to circumvent our defenses.
    Finally, we strive to provide users with easy access to context and 
a diverse set of perspectives, which are key to providing users with 
the information they need to form their own views. Our products and 
services expose users to numerous links or videos from different 
sources in response to their searches, which maximizes exposure to 
diverse perspectives or viewpoints before deciding what to explore in 
depth. In addition, we develop many tools and features to provide 
additional information to users about their searches, such as knowledge 
or information panels in Google Search and YouTube.
                               conclusion
    We want to do everything we can to ensure users are not exposed to 
content that promotes or glorifies acts of terrorism. Similarly, we 
also recognize that it is critically important to combat misinformation 
in the context of democratic elections, when our users seek accurate, 
trusted information that will help them make critical decisions. 
Efforts to undermine the free-flow of information is antithetical to 
our mission. We understand these are difficult issues of serious 
interest to the committee. We take them seriously and want to be 
responsible actors who are a part of the solution.
    We know that our users will value our services only so long as they 
continue to trust them to work well and provide them with the most 
relevant and useful information. We believe we have developed a 
responsible approach to address the evolving and complex issues that 
manifest on our platform.
    We look forward to continued collaboration with the committee as it 
examines these issues. Thank you for your time. I look forward to 
taking your questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Ms. Strossen to summarize her statement for 
5 minutes.

STATEMENT OF NADINE STROSSEN, JOHN MARSHALL HARLAN II PROFESSOR 
                  OF LAW, NEW YORK LAW SCHOOL

    Ms. Strossen. Thank you so much, Chairman Thompson and 
Ranking Member Rogers and other Members of the committee.
    My name is Nadine Strossen. I am a professor of law at New 
York Law School and the immediate past president of the 
American Civil Liberties Union.
    Of great pertinence, last year, I wrote a book which is 
directly pertinent to the topic of this hearing called ``Hate: 
Why We Should Resist It with Free Speech, Not Censorship.''
    I note, Mr. Chairman, that you referred to hate speech as 
problematic content in addition with terror content and 
misinformation. All of these kinds of speech, while potentially 
harmful, present enormous dangers when we empower either 
government or private companies to censor and suppress the 
speech for this reason: The concepts of hate speech, terrorist 
content, and misinformation are all irreducibly vague and 
broad, therefore having to be enforced according to the 
subjective discretion of the enforcing authorities. The 
discretion has been enforced in ways that both under-suppress 
speech that does pose a serious danger, as the Chairman pointed 
out and the Ranking Member pointed out, but also do suppress 
very important speech, as also has been pointed out, speech 
that actually counters terrorism and other dangers.
    What is worse is that, in addition to violating free speech 
and democracy norms, these measures are not ineffective in 
dealing with the underlying problems. I thought that was 
something that was pointed out by comments by my co-panelists. 
In particular, Nick Pickles' testimony, written testimony, 
talked about the fact that, if somebody is driven off one of 
these platforms, they will then take refuge in darker corners 
of the web, where it is much harder to engage with them, to use 
them as sources of information for law enforcement and 
counterterrorism investigations.
    So we should emphasize other approaches that are consistent 
with free speech and democracy but have been lauded as at least 
as effective and perhaps even more so than suppression. I was 
very heartened that the written statements of my co-panelists 
all emphasize these other approaches. Monika Bickert's 
testimony talked about how essential it is to go after the root 
causes of terrorism. The testimony of Nick Pickles and Derek 
Slater also emphasize the importance of counter-speech, 
counter-narratives, and redirection.
    Now, I recognize that every single one of us in this room 
is completely committed to free speech and democracy, just as 
every single one of us is committed to countering terrorism and 
disinformation. After all, the reason we oppose terrorism and 
disinformation is precisely because of the harm that they do to 
democracy and liberty.
    Before I say anything further, I do have to stress 
something that I know everybody here knows but many members of 
the public do not, that these social media companies are not 
bound by the First Amendment free-speech guarantee. So none of 
us has a free-speech right to air any content on their 
platforms at all. Conversely, they have their own free-speech 
rights to choose what will be and what will not be on their 
platforms. So it would be unconstitutional, of course, for 
Congress to purport to tell them what they must put up and what 
they must take down, to the extent that the takedowns would go 
beyond First Amendment-unprotected speech.
    Chairman Thompson, you did completely accurately, of 
course, note that much of the content that is targeted as 
terrorist is unprotected, but much of it is protected under the 
Constitution, and much of it is very valuable, including human 
rights advocacy that has been suppressed under these 
necessarily overbroad and subjective standards.
    Although the social media companies do not have a 
Constitutional obligation to honor freedom of speech, given 
their enormous power, it is incredibly important that they be 
encouraged to do so.
    In closing, I am going to quote a statement from the 
written testimony of Nick Pickles which I could not agree with 
more, when he said that ``we will not solve the problems by 
removing content alone. We should not underestimate the power 
of open conversation to change minds, perspectives, and 
behaviors.''
    Thank you very much.
    [The prepared statement of Ms. Strossen follows:]
               Prepared Statement of Nadine Strossen \1\
---------------------------------------------------------------------------
    \1\ Nadine Strossen is the John Marshall Harlan II professor of law 
at New York Law School and the immediate past national president of the 
American Civil Liberties Union (1991-2008). She gratefully acknowledges 
the following NYLS students for providing valuable assistance with this 
testimony, including the preparation of end notes: Managing research 
assistant Marc D. Walkow, and research assistants Aaron Hansen and 
Serene Qandil.
---------------------------------------------------------------------------
                             June 26, 2019
                              introduction
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of this committee: I am honored to join my esteemed co-panelists in 
addressing this hearing's important topics. I appreciate the committee 
Members' and panelists' commitments to counter the potential * serious 
adverse impacts of the pertinent on-line expression: Expression that 
could promote terrorism; and misinformation, which could defraud 
individuals and distort elections and other democratic processes and 
institutions.
---------------------------------------------------------------------------
    * I deliberately refer to the ``potential'' adverse impacts of 
expression with terrorist content and misinformation because many 
experts have concluded that such expression will not necessarily 
contribute to the feared potential harms, and that non-censorial 
strategies such as the ones I discuss can significantly reduce that 
potential danger.
---------------------------------------------------------------------------
    I thank the committee for exercising its important oversight 
functions to examine the content moderation policies of the powerful 
social media companies that are represented today.** Even though any 
direct regulation of these policies would raise serious concerns about 
abridging the companies' First Amendment rights, it is essential to 
consider how the companies should exercise those rights in ways that 
promote the free speech and other rights of the rest of us--and in ways 
that promote democracy, security, and other important concerns.
---------------------------------------------------------------------------
    ** I am confining my focus to the dominant large companies, 
including the 3 that are represented at this hearing (Facebook, Google, 
and Twitter). They exercise outsize influence, thus as a practical 
matter requiring many people to use their services. Concerning smaller 
social media companies, potential users retain real choices about 
whether or not to participate. Accordingly, such smaller companies 
should (as a normative matter) have more latitude to choose content and 
define communities (again, as a legal matter, all of these companies 
have such latitude).
---------------------------------------------------------------------------
    I understand that I was invited to complement this panel of social 
media leaders, despite my relative lack of specific experience with 
social media in particular, because of my longstanding scholarship and 
advocacy about freedom of speech for potentially harmful speech in 
general (including speech with terror content and misinformation) in 
many contexts, including on-line media.\2\ For example, I was deeply 
involved in the developments leading to the historic 1997 Supreme Court 
case that first considered--and upheld--First Amendment free speech 
rights on-line: Reno v. ACLU.\3\ I was the national ACLU president 
throughout all the pertinent developments, including lobbying and 
litigating against Congress's first on-line censorship law (enacted in 
1996), which the high Court struck down, essentially unanimously. The 
Court celebrated the internet as ``a unique . . . medium of worldwide 
human communication,'' whose ``content . . . is as diverse as human 
thought.''\4\
---------------------------------------------------------------------------
    \2\ See, e.g., Nadine Strossen, HATE: Why We Should Resist It with 
Free Speech, Not Censorship (New York: Oxford University Press, 2018).
    \3\ Reno v. American Civil Liberties Union, 521 U.S. 844 (1997). 
Justice O'Connor authored a partial dissent, in which Justice Rehnquist 
joined, but this concerned only a narrow particular application of the 
statute (as applied to an on-line communication involving only one 
adult and one or more minors, such as when an adult knowingly sends an 
email to a minor); both of these Justices agreed with the majority's 
broad holdings about the law's general unconstitutionality, making the 
decision essentially unanimous. Reno, 521 U.S. at 886 (O'Connor, J., 
concurring in part and dissenting in part).
    \4\ Reno, 521 U.S. at 850, 852.
---------------------------------------------------------------------------
    Today's discussion can gain much from the teachings of this 
landmark case, and from other past efforts to restrict various media 
expression feared to potentially cause harm. Not only did the Court 
strike down Congress's first internet censorship law in Reno v. ACLU, 
but it also struck down Congress's revised version of that law in 
subsequent rulings.\5\ Likewise, in its most recent decision about on-
line expression, 2 years ago, the Court again unanimously struck down a 
law restricting such expression (in that case, a State law).\6\ 
Moreover, the Court again hailed the unique importance of on-line 
communications, declaring:
---------------------------------------------------------------------------
    \5\ Ashcroft v. American Civil Liberties Union, 535 U.S. 564 
(2002); Ashcroft v. American Civil Liberties Union, 542 U.S. 656 
(2004), cert. denied Mukasey v. American Civil Liberties Union, 2009 
U.S. LEXIS 598 (2009).
    \6\ Packingham v. North Carolina, 137 S. Ct. 1730 (2017).

``While in the past there may have been difficulty in identifying the 
most important places . . . for the exchange of views, today the answer 
is clear. It is cyber space--the `vast democratic forums of the 
internet' in general, . . . and social media in particular.''\7\
---------------------------------------------------------------------------
    \7\ Packingham, 137 S. Ct. at 1735.

    As the preceding outline of relevant Supreme Court rulings 
indicates, my support for on-line free expression is largely paralleled 
by the Court's speech-protective rulings, and those in turn reflect the 
views of Justices across the ideological spectrum. Despite all the 
polarization in our political system and society, these particular 
issues about on-line expression should garner broad consensus in the 
other branches of Government, as they have on the Court. 
Notwithstanding how divided our views might be on contested public 
policy issues, we all have the same stake in preserving the most robust 
freedom of speech for all such views--no matter how extreme, 
controversial, or generally feared such views might be. In fact, those 
of us who are engaged in public policy debates have the greatest stake 
in strong freedom of speech. As the Court consistently has held, speech 
on public policy issues is the most important expression in our 
political system, essential not only for individual freedom and 
equality, but also for our very democracy itself. In its words: 
``Speech concerning public affairs is more than self-expression; it is 
the essence of self-government.''\8\
---------------------------------------------------------------------------
    \8\ Garrison v. Louisiana, 379 U.S. 64, 74-75 (1964).
---------------------------------------------------------------------------
    The speech at issue in today's hearings--speech with terrorist *** 
content and misinformation--certainly concerns public affairs; indeed, 
that is precisely why it is potentially so harmful, as well as 
undeniably important. As the Court likewise has explained, such speech 
deserves the strongest protection not despite its potential serious 
harmful impact, but rather precisely because of such powerful 
potential. Let me quote a 2011 decision upholding freedom for extremely 
controversial, provocative speech (this decision was nearly unanimous, 
with only one dissenting vote):
---------------------------------------------------------------------------
    *** The committee's designated topic for this hearing uses the 
phrase ``terror content''; in this testimony, I also use the phrase 
``terrorist content'' interchangeably.

``Speech is powerful. It can stir people to action, move them to tears 
of both joy and sorrow, and--as it did here--inflict great pain. [W]e 
cannot react . . . by punishing the speaker. As a Nation we have chosen 
a different course--to protect . . . speech on public issues to ensure 
that we do not stifle public debate.''\9\
---------------------------------------------------------------------------
    \9\ Snyder v. Phelps, 562 U.S. 443, 460-61 (2011).
---------------------------------------------------------------------------
                                overview
    I will first set out my three major conclusions about the 
important, challenging issues raised by today's hearing. I will then 
lay out some more specific points that reinforce these conclusions.
                        three major conclusions
    FIRST.--Any effort to restrict on-line terror content and 
misinformation will be at best ineffective and at worst 
counterproductive in achieving the important goal of such efforts: To 
counter the expression's potential adverse impacts.
    As the Electronic Frontier Foundation [``EFF''] recently concluded:

``[C]ontent moderation was never meant to operate at the scale of 
billions of users . . . [A]s pressure from lawmakers and the public to 
restrict various types of speech--from terrorism to fake news--grows, 
companies are desperately looking for ways to moderate content at 
scale. They won't succeed--at least if they care about protecting on-
line expression.''\10\
---------------------------------------------------------------------------
    \10\ Jillian C. York and Corynne McSherry, ``Content Moderation is 
Broken. Let Us Count the Ways,'' Electronic Frontier Foundation, Apr. 
29, 2019, https://www.eff.org/deeplinks/2019/04/content-moderation-
broken-let-us-count-ways.

    EFF and others who have monitored content moderation efforts for 
years have consistently reached the same conclusion. For example, in a 
---------------------------------------------------------------------------
2017 report, EFF stated:

``Over the years, we've found that companies' efforts to moderate on-
line content almost always result in overbroad content takedowns or 
account deactivations. We therefore are justifiably skeptical [about] 
the latest efforts . . . to combat pro-terrorism content.''\11\
---------------------------------------------------------------------------
    \11\ Sophia Cope, Jillian C. York and Jeremy Gillula, ``Industry 
Efforts to Censor Pro-Terrorism Online Content Pose Risks to Free 
Speech,'' Electronic Frontier Foundation, July 12, 2017, https://
www.eff.org/deeplinks/2017/07/industry-efforts-censor-pro-terrorism-
online-content-pose-risks-free-speech.

    Concepts such as ``terror content'' and ``misinformation'' are 
inherently, inescapably vague and broad. Therefore, anyone who decides 
whether particular social media posts should be so classified, and 
hence restricted, inevitably exercises enormous discretion. Enforcers 
of any such concepts will necessarily exercise this discretion in 
accordance with subjective values--their own, or those of their social 
media employers, or those of powerful political and other established 
interests. As the old saying observes, ``One person's terrorist is 
another's freedom fighter.'' Likewise, one person's ``misinformation'' 
or ``fake news'' is someone else's cherished truth.
    The definitions of prohibited terrorist or extremist content that 
Twitter and Facebook have enforced were cited as examples of these 
inevitable definitional problems of vagueness and overbreadth, in an 
important 2018 Report by the United Nations Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression, David Kaye [``UN Special Rapporteur's Report''].\12\
---------------------------------------------------------------------------
    \12\ David Kaye, Report of the Special Rapporteur to the Human 
Rights Council on online content regulation,  26, U.N. Doc. A/HRC/38/
35 (April 6, 2018), https://documents-dds-ny.un.org/doc/UNDOC/GEN/G18/
096/72/PDF/G1809672.pdf.
---------------------------------------------------------------------------
    The unavoidable indeterminacy of these elastic concepts means that 
their enforcement will be arbitrary at best, discriminatory at worst. 
Predictably, these concepts will be disproportionately enforced against 
marginalized, unpopular, dissident individuals and groups, those that 
lack political power.
    I will now cite a few illustrations of the foregoing general, 
inevitable problems specifically concerning the particular expression 
at issue: Social media speech with terrorist content and 
misinformation.
When social media target speech with terrorist (or ``extremist'') 
        content, they inevitably suppress much valuable speech, 
        including human rights advocacy
    These problems were detailed, for example, in a May 30, 2019 joint 
report by the Electronic Frontier Foundation, Syrian Archive, and 
Witness.\13\ Syrian Archive engages in ``documentation related to human 
rights violations committed by all sides involved in the conflict in 
Syria,'' and Witness promotes effective video advocacy for human 
rights. Noting that social media ``companies have come under increasing 
pressure'' to restrict extremist or terrorist expression, the report 
explained that both algorithmic and human content moderation techniques 
have ``caught in the net'' ``not only content deemed extremist, but 
also . . . useful content like human rights documentation,'' with 
``mistakes at scale that are decimating human rights content.'' As the 
report elaborated:
---------------------------------------------------------------------------
    \13\ Jillian C. York, ``Caught in the Net: The Impact of 
`Extremist' Speech Regulations on Human Rights Content,'' Electronic 
Frontier Foundation, May 30, 2019, https://www.eff.org/wp/caught-net-
impact-extremist-speech-regulations-human-rights-content.

``[I]t is difficult for human reviewers--and impossible for machines--
to consistently differentiate activism, counter-speech, and satire 
about extremism from extremism itself. Blunt content moderation systems 
at scale inevitably make mistakes, and marginalized users are the ones 
---------------------------------------------------------------------------
who pay for those mistakes.

    The report documented multiple examples of such counterproductively 
suppressed marginalized speakers, including groups advocating for the 
independence of the Chechen Republic of Iskeria, groups advocating for 
an independent Kurdistan, satirical commentary, and conflict 
documentation by journalists and human rights defenders in Syria, 
Yemen, and Ukraine.
    In the same vein, a 2017 New York Times story described how 
YouTube's ``effort to purge extremist propaganda from its platform'' 
had led it to ``inadvertently remove[] thousands of videos that could 
be used to document atrocities in Syria, potentially jeopardizing 
future war crimes prosecutions.''\14\ Given the breakdown of 
independent media since the start of the Syrian conflict, individuals 
and civil society organizations have subsequently used YouTube to 
document the war, including atrocities and human rights violations. 
Since some of the ``disappeared'' videos cannot be restored, we are 
losing ``the history of this terrible war,'' and ``the richest source 
of information about human rights violations in closed societies,'' 
according to experts whom the Times quoted.
---------------------------------------------------------------------------
    \14\ Malachy Browne, ``YouTube Removes Videos Showing Atrocities in 
Syria,'' The New York Times, Aug. 22, 2017, https://www.nytimes.com/
2017/08/22/world/middleeast/syria-youtube-videos-isis.html.
---------------------------------------------------------------------------
    This persistent problem, inherent in the irreducibly vague, 
overbroad concepts of terrorist or extremist content (as well as 
misinformation), had previously been documented in a 2017 EFF report, 
which cited further illustrations, including that ``Facebook . . . 
deactivated the personal accounts of Palestinian journalists'' on the 
ground that ``they were involved in `terrorist activity,' '' and 
temporarily banned a journalist from the United Arab Emirates ``for 
posting a photograph of Hezbollah leader Hassan Nasrallah with an LGBTQ 
pride flag overlaid on it--a clear case of parody counter-speech that 
Facebook's content moderators failed to grasp.''\15\
---------------------------------------------------------------------------
    \15\ Cope, York, and Gillula, ``Industry Efforts.''
---------------------------------------------------------------------------
Suppressing speech with terrorist content may well not promote counter-
        terrorism efforts and could even undermine them
    The Electronic Frontier Foundation has assembled expert testimony 
about the strategic downsides of suppressing this expression, even 
beyond the adverse impact that such suppression has on free speech:

    ``[T]he question is not whether terrorists are using the internet 
to recruit new operatives--the question is whether taking down pro-
terrorism content and accounts will meaningfully contribute to the 
fight against global terrorism. Governments have not sufficiently 
demonstrated this to be the case. And some experts believe this 
absolutely not to be the case.''\16\
---------------------------------------------------------------------------
    \16\ Cope, York, and Gillula, ``Industry Efforts.''

    Let me quote just a few of the many experts who have reached this 
negative conclusion, for the multiple reasons indicated.
Censorship of terrorist content doesn't promote National security
    Michael German, a former FBI agent with counter-terrorism 
experience, who is now a fellow at the Brennan Center for Justice, 
stated: ``Censorship has never been an effective method of achieving 
security, and . . . suppressing on-line content will be as unhelpful as 
smashing printing presses.''\17\
---------------------------------------------------------------------------
    \17\ Jenna McLaughlin, ``The White House Asked Social Media 
Companies to Look for Terrorists. Here's Why They'd #Fail.,'' The 
Intercept, Jan. 20, 2016, https://theintercept.com/2016/01/20/the-
white-house-asked-social-media-companies-to-look-for-terrorists-heres-
why-theyd-fail.
---------------------------------------------------------------------------
Keeping terrorist content on-line may provide opportunities for 
        constructive engagement that could avert terrorist acts
    For example, a Kenyan government official opposed shutting down an 
al-Shabaab Twitter account, because ``al-Shabaab needs to be engaged 
positively and [T]witter is the only avenue.''\18\
---------------------------------------------------------------------------
    \18\ Jillian C. York and Trevor Timm, ``U.S. Government Threatens 
Free Speech With Calls for Twitter Censorship,'' Electronic Frontier 
Foundation, Jan. 6, 2012, https://www.eff.org/deeplinks/2012/01/us-
government-calls-censor-twitter-threaten-free-speech.
---------------------------------------------------------------------------
    More generally, this conclusion was reached by a United Nations 
report on ``The Use of the Internet for Terrorist Purposes'':

``On-line discussions provide an opportunity to present opposing 
viewpoints or to engage in constructive debate, which may have the 
effect of discouraging potential supporters. Counter-narratives with a 
strong factual foundation may be conveyed through on-line discussion 
forums, images, and videos. Successful messages may also demonstrate 
empathy with the underlying issues that contribute to radicalization, 
such as political and social conditions, and highlight alternatives to 
violent means of achieving the desired outcomes.''\19\
---------------------------------------------------------------------------
    \19\ United Nations Office on Drugs and Crime, The use of the 
Internet for terrorist purposes (Vienna: United Nations, 2012), 12.

    A powerful specific example of the effective use of social media 
platforms to counter on-line terrorist propaganda comes from the U.S. 
Center for Strategic Counterterrorism Communications. Noting that the 
Center uses Facebook and YouTube for such purposes, the U.N. report 
cited one illustration of the touted strategy of ``reducing 
radicalization and extremist violence by identifying in a timely manner 
extremist propaganda . . . on the internet and responding swiftly with 
---------------------------------------------------------------------------
targeted counter-narratives'':

``For instance, in May 2012, the Center . . . responded, within 48 
hours, to banner advertisements promoting extremist violence posted on 
various websites by al-Qaeda in the Arabian Peninsula, with counter-
advertisements on the same websites featuring an altered version of 
that same message that was intended to convey that the victims of the 
terrorist organization's activities were Yemeni nationals.''\20\
---------------------------------------------------------------------------
    \20\ UNODC, Use of the internet, 13.
---------------------------------------------------------------------------
Keeping terrorist content on-line facilitates intelligence gathering 
        and counter-terrorism efforts
    Let me again quote the above-cited U.N. report:

``While terrorists have developed many ways to use the internet in 
furtherance of illicit purposes, their use of the internet also 
provides opportunities for the gathering of intelligence and other 
activities to prevent and counter acts of terrorism, as well as for the 
gathering of evidence for the prosecution of such acts. A significant 
amount of knowledge about the functioning, activities and sometimes the 
targets of terrorist organizations is derived from . . . internet 
communications. Further, increased internet use for terrorist purposes 
provides a corresponding increase in the availability of electronic 
data which may be compiled and analysed for counter-terrorism purposes. 
Law enforcement, intelligence and other authorities are developing 
increasingly sophisticated tools to proactively prevent, detect and 
deter terrorist activity involving use of the internet.''\21\
---------------------------------------------------------------------------
    \21\ UNODC, Use of the internet, 12.

Social media companies' restrictions on misinformation likewise have 
        suppressed much valuable information, and also have reinforced 
        misinformation
    Efforts to clearly, consistently define and enforce prohibited 
``misinformation'' are at least as futile as those to define prohibited 
``terror content.'' The U.N. Special Rapporteur's Report stressed the 
inevitable vagueness and overbreadth of restrictions on 
``disinformation,'' warning that some such ``measures, particularly 
those that . . . restrict[] . . . news content, may threaten 
independent and alternative news sources or satirical content.''\22\ 
Likewise, EFF's May 1, 2019 report concluded that ``when tech companies 
ban an entire category of content'' such as ``disinformation,'' ``they 
have a history of overcorrecting and censoring accurate, useful 
speech--or, even worse, reinforcing misinformation.''\23\
---------------------------------------------------------------------------
    \22\ Kaye, Report of the Special Rapporteur,  31.
    \23\ Jillian C. York, David Greene, and Gennie Gebhart, 
``Censorship Can't be the Only Answer to Disinformation Online,'' 
Electronic Frontier Foundation (May 1, 2019), https://www.eff.org/
deeplinks/2019/05/censorship-cant-be-only-answer-disinformation-online.
---------------------------------------------------------------------------
    One especially ironic illustration of the latter problem is a 2018 
incident in which Facebook's training materials used an egregious 
example of disinformation that was incendiary to boot. It was a 
photograph that depicted dozens of Buddhist monks surrounded by piles 
of dead, barely-clothed bodies, which was captioned as ``The Bod[ies] 
of Muslims slaught[er]ed by Buddhist[s].'' Facebook's training 
materials described this image as ``a newsworthy exception'' to 
Facebook's general ban on nudity (another inherently vague, overbroad 
concept of restricted speech) because it depicted ``the victims of 
violence in Burma [Myanmar].'' In fact, though, this image actually 
depicted the aftermath of an earthquake in another country years 
earlier.\24\
---------------------------------------------------------------------------
    \24\ Joseph Cox, ``Facebook's Own Training Materials Fell for Fake 
News,'' Motherboard/Tech by Vice (Sep. 5, 2018), https://www.vice.com/
en_us/article/j5ny5d/facebook-training-manuals-documents-fell-fake-
news.
---------------------------------------------------------------------------
    SECOND.--Social media companies' most effective strategies for 
countering the potential adverse impact of terrorist content and 
misinformation are non-censorial, including: Altering the algorithmic 
curation that amplifies some potentially dangerous content; and 
empowering users with more individualized tools to understand and 
control the content they see, and to assess its credibility.
    As stated by Vera Eidelman, a staff attorney with the ACLU's 
Speech, Privacy, and Technology Project: ``Rather than focus[ing] their 
resources and innovation on how best to censor, [social media] 
companies should invest in user controls and enabling third party 
innovation re[garding] user controls and content moderation.''\25\
---------------------------------------------------------------------------
    \25\ Vera Eidelman, email message to Nadine Strossen, May 28, 2019.
---------------------------------------------------------------------------
    Likewise, in a May 1, 2019 report critiquing social media 
restrictions on ``disinformation,'' the EFF endorsed two interrelated 
technological approaches that social media should pursue to empower all 
of us to make our own voluntary, informed choices about what on-line 
material to view, and what not to view, consistent with our own 
interests and values: ``addressing the algorithmic `megaphone' at the 
heart of the problem and giving users control over their own 
feeds.''\26\ Although this particular report focused on disinformation, 
its conclusions apply fully to other potentially problematic on-line 
content, including terrorist material:
---------------------------------------------------------------------------
    \26\ York, Greene, and Gebhart, ``Censorship Can't be the Only 
Answer.''

``Algorithms like Facebook's Newsfeed or Twitter's timeline make 
decisions about which . . . content to promote and which to hide. That 
kind of curation can play an amplifying role for some types of 
incendiary content, despite the efforts of platforms like Facebook to 
tweak their algorithms to `disincentivize' or `downrank' it. Features 
designed to help people find content they'll like can too easily funnel 
them into a rabbit hole of disinformation. That's why platforms should 
examine the parts of their infrastructure that are acting as a 
megaphone for dangerous content and address the root cause of the 
problem rather than censoring users.
``Transparency about how a platform's algorithms work, and tools to 
allow users to . . . create their own feeds, are critical . . . 
[Facebook's] [r]ecent transparency improvements in this area are 
encouraging, but don't go far enough . . . .
``Users shouldn't be held hostage to a platform's proprietary 
algorithm. Instead of . . . giving users just a few opportunities to 
tweak it, platforms should open up their APIs **** to allow users to 
create their own filtering rules for their own algorithms. News 
outlets, educational institutions, community groups, and individuals 
should all be able to create their own feeds, allowing users to choose 
who they trust to curate their information and share their preferences 
with their communities.''
---------------------------------------------------------------------------
    **** ``API'' is an abbreviation for ``application program 
interface,'' which is a set of routines, protocols, and tools for 
building software applications.
---------------------------------------------------------------------------
Additional non-censorial approaches
    In addition to the foregoing essential user empowerment strategies, 
other non-censorial approaches can also curb the potential adverse 
impact of terrorist content and misinformation more effectively than 
restricting such expression. These include:
  <bullet> enforcing the many existing laws against actual terrorist 
        and fraudulent conduct; and
  <bullet> increasing media literacy, so consumers of on-line 
        expression learn how to avoid terrorist and fraudulent 
        communications, and how to find and generate effective 
        ``counterspeech,'' refuting and responding to such problematic 
        communications, dissuading other people from accepting their 
        messages, and perhaps even dissuading those who issued the 
        communications (as has happened in significant instances).
    PEN America, which advocates for writers and free speech, has 
issued two recent reports about fraudulent news and disinformation (in 
March 2019 and October 2017),\27\ which strongly endorse media literacy 
skills as the ultimate antidote to the potential serious adverse impact 
of such expression. As its 2019 report concluded: ``[T]he most 
effective proactive tactic against fraudulent news is a citizenry that 
is well-equipped to detect, and reject, fraudulent claims.''\28\ 
Correspondingly, that report concluded that ``the spread of fraudulent 
news must not become a mandate for Government or corporate 
censorship.''\29\ Non-censorial steps that social media companies 
should take, according to PEN America, include ``empower[ing] consumers 
with easy-to-use tools . . . to gauge the credibility of information 
disseminated through the platform.''\30\
---------------------------------------------------------------------------
    \27\ ``Truth on the Ballot: Fraudulent News, the Midterm Elections, 
and Prospects for 2020,'' PEN America (Mar. 13, 2019), https://pen.org/
wp-content/uploads/2019/03/Truth-on-the-Ballot-report.pdf; ``Faking 
News: Fraudulent News and the Fight for Truth,'' PEN America (Oct. 12, 
2017), https://pen.org/wp-content/uploads/2017/11/2017-Faking-News-
11.2.pdf.
    \28\ PEN America, ``Truth on the Ballot,'' 7.
    \29\ PEN America, ``Truth on the Ballot,'' 48.
    \30\ PEN America, ``Faking News,'' 27.
---------------------------------------------------------------------------
    THIRD.--While social media companies have the legal right to engage 
in content moderation--including efforts to restrict terrorist content 
and misinformation--they should do so in ways that are consistent with 
universal human rights norms, including those governing freedom of 
expression. At a minimum, they should follow procedural standards that 
promote accountability, fundamental fairness/due process, and 
transparency.
    The Guiding Principles on Business and Human Rights, adopted by the 
United Nations Human Rights Council in 2011, urge companies to adhere 
to international human rights standards throughout their operations and 
wherever they operate.\31\ Although these Principles are non-binding, 
the ``overwhelming role'' that the giant social media companies play 
``in public life globally argues strongly for their . . . 
implementation'' of these Principles, according to the U.N. Special 
Rapporteur's Report.\32\
---------------------------------------------------------------------------
    \31\ Kaye, Report of the Special Rapporteur,  6.
    \32\ Kaye, Report of the Special Rapporteur,  5.
---------------------------------------------------------------------------
    In terms of free speech norms, the U.N. Special Rapporteur's Report 
maintained that these companies should permit ``users to develop 
opinions, express themselves freely and access information of all kinds 
in a manner consistent with human rights law.''\33\ The applicable 
human rights law substantially overlaps with core U.S. free speech 
principles; it requires that any speech restriction should be clearly 
and narrowly defined, and demonstrated to be both necessary and 
proportionate to avert specific, serious harm that the speech would 
directly cause. For speech that is feared to have a more indirect, 
speculative harmful potential, we should respond with non-censorial 
measures, as outlined above.
---------------------------------------------------------------------------
    \33\ Kaye, Report of the Special Rapporteur,  15.
---------------------------------------------------------------------------
    Concerning minimal procedural standards, a starting point is the 
``Santa Clara Principles On Transparency and Accountability in Content 
Moderation,'' which were adopted in 2018 by a group of civil liberties 
organizations and individual experts.\34\ These minimum procedural 
principles have also been endorsed by the U.N. Special Rapporteur's 
Report, and at least their general ``spirit'' has been endorsed by many 
major social media companies, including all three companies represented 
at this hearing.\35\
---------------------------------------------------------------------------
    \34\ ``Santa Clara Principles on Transparency and Accountability in 
Content Moderation,'' The Santa Clara Principles (May 2018), https://
santaclaraprinciples.org. The authors of the Principles were the ACLU 
of Northern California, The Center for Democracy & Technology, 
Electronic Frontier Foundation, New America's Open Technology 
Institute, Irina Raicu, Nicolas Suzor, Sarah T. Roberts, and Sarah 
Myers West.
    \35\ Gennie Gebhart, ``Who Has Your Back? Censorship Edition 
2019,'' Electronic Frontier Foundation (June 12, 2019), https://
www.eff.org/wp/who-has-your-back-2019.
---------------------------------------------------------------------------
    The Santa Clara Principles spell out detailed steps that social 
media companies should take to pursue the following broader 
initiatives:
    (1) Publishing the numbers of posts removed and accounts 
permanently or temporarily suspended due to violations of their content 
guidelines;
    (2) Providing notice to each user whose content is taken down or 
whose account is suspended about the reason for such action; and
    (3) Providing a meaningful opportunity for timely appeal of any 
content removal or account suspension.
      more specific points that reinforce these major conclusions
    First.--Throughout history, we have seen a constant impulse to 
disproportionately blame expression for societal problems, which is 
understandable but misguided.
    Correspondingly, it seems to be intuitively appealing to seek to 
suppress expression of ideas that one disfavors or fears to be 
potentially dangerous. As former Supreme Court Justice Oliver Wendell 
Holmes memorably put it:

``Persecution for the expression of opinions seems to me perfectly 
logical. If you have no doubt of your premises or your power, and want 
a certain result with all your heart, you naturally express your wishes 
in law, and sweep away all opposition.''\36\
---------------------------------------------------------------------------
    \36\ Abrams v. United States, 250 U.S. 616, 630 (1919) (Holmes, J., 
dissenting).

    Nonetheless, Holmes even more memorably explained why that tempting 
speech-blaming/speech-suppressive instinct is inconsistent with 
individual liberty and democracy, setting out the ``emergency 
---------------------------------------------------------------------------
principle'' that all modern Justices have embraced:

``[W]e should be eternally vigilant against attempts to check the 
expression of opinions that we loathe and believe to be fraught with 
death, unless they so imminently threaten immediate interference with 
the lawful and pressing purposes of the law that an immediate check is 
required to save the country.''\37\
---------------------------------------------------------------------------
    \37\ Ibid.

    The general pattern of scapegoating expression for allegedly 
fostering societal problems is especially pronounced concerning 
expression that is conveyed by any new media. Each new, powerful 
communications medium raises concerns about its ability to transmit 
controversial expression to vulnerable individuals and groups, 
provoking fear--even panic--about potential ensuing harm. Accordingly, 
throughout history, censorial efforts have greeted each new 
communications medium: From the printing press to the internet.
    Let me list some examples of media-blaming for a range of serious 
social problems, just within my adult lifetime:
  <bullet> Sexual expression in all media, including on-line, has been 
        blamed for undermining everything from women's equality and 
        safety to the ``traditional American family.''
  <bullet> So-called ``hate radio'' has been blamed for fomenting 
        domestic extremism and terrorism.
  <bullet> Violent videos have been blamed for instigating school 
        shootings.
  <bullet> Rap and rock lyrics have been blamed for instigating sexual 
        assaults against women and also shootings of police officers.
    Second.--With 20/20 hindsight, we have consistently come to realize 
that this scapegoating of expression as a purported major cause of 
social ills--and the associated calls for censorship as a purported 
solution--have multiple interrelated flaws.
  <bullet> This approach wrongly regards individuals as passive 
        automatons who lack autonomy to make our own choices about what 
        expression to view and what not to, and to avoid being 
        passively ``brainwashed'' by what we do view.
    <bullet> To be sure, as discussed above, social media companies and 
            others should take affirmative steps to maximize individual 
            freedom of choice in this sphere. We should ensure that all 
            media consumers have the educational and technological 
            resources to make truly independent, informed, voluntary 
            decisions about our communications. In the social media 
            context, this means not directing users to increasingly 
            extreme content, unbeknownst to them. It does mean 
            developing and deploying technology that will empower each 
            user to make maximally individualized choices about what 
            content to view and to communicate, and what to avoid or 
            block.
  <bullet> Scapegoating expression also diverts attention and resources 
        from the real problems: Underlying attitudes and actual 
        conduct. Suppressing expression is a superficial, cheap ``quick 
        fix'' for complex, deep-rooted problems, which actually fixes 
        nothing. To the contrary, pushing the feared ideas underground 
        may well make it harder to counter those ideas, and also harder 
        to prevent those who hold them from engaging in harmful 
        conduct.
  <bullet> This censorial approach may not only make it harder to 
        recruit advocates of the feared ideas/actions away from their 
        ideologies, but it may well also increase attention, sympathy, 
        and support for such ideologies among members of the broader 
        public. This pattern is so common that several terms have been 
        coined to describe it, including ``the forbidden fruits 
        effect,'' ``the boomerang effect,'' and ``the Streisand 
        effect'' (the latter term was coined when Barbra Streisand 
        sought to block on-line photographs of her Malibu home, thus 
        increasing exponentially the viewing of such photographs). We 
        should focus instead on persuading people to reject dangerous 
        ideas, and preventing people from engaging in harmful conduct.
    Third.--Social media companies are not constrained by the First 
Amendment's Free Speech Clause, which limits only Government actors, 
not private-sector actors. To the contrary, social media companies have 
their own First Amendment rights, including the right to decide which 
speakers and expression to permit--or not to permit--on their 
platforms. However, these platforms should provide the same free speech 
opportunities that Government is required to provide, consistent with 
both compelling policy concerns and global human rights norms 
applicable to business.
    As I noted at the outset of this testimony, social media companies 
have their own First Amendment rights to adopt and enforce content 
moderation policies they choose, and any Government regulation of such 
policies--whether prescribing or proscribing--any such policies--would 
raise serious concerns about abridging the companies' freedom of 
speech. However, it is eminently appropriate for Congress and other 
Government actors, as well as civil society groups and users, to 
encourage these companies to implement content moderation policies, and 
to take other actions, that promote their users' free speech, as well 
as promoting other essential concerns, including National security and 
democracy.
    As a practical matter, social media platforms now constitute the 
most important forums for exchanging information and ideas, including 
between ``We the People'' (to quote the Constitution's opening words) 
and the political candidates and officials who are accountable to us. 
In a 2017 Supreme Court decision that unanimously struck down a State 
law that restricted access to social media by convicted sex offenders 
who had served their prison terms, Justice Anthony Kennedy's majority 
opinion stressed the social media's stature as the preeminent platform 
for expression. If we do not have equal, open access to these forums, 
to convey and receive communications, then for all practical purposes, 
our freedom of speech--and, accordingly, our equal stature as sovereign 
citizens--is curtailed. As Justice Kennedy declared:

``A fundamental principle of the First Amendment is that all persons 
have access to places where they can speak and listen, and then, after 
reflection, speak and listen once more. The Court has sought to protect 
the right to speak in this spatial context. A basic rule, for example, 
is that a street or a park is a quintessential forum for the exercise 
of First Amendment rights . . . While in the past there may have been 
difficulty in identifying the most important places (in a spatial 
sense) for the exchange of views, today the answer is clear. It is 
cyber space . . . and social media in particular.''\38\
---------------------------------------------------------------------------
    \38\ Packingham, 137 S. Ct. at 1735.

    Moreover, as discussed above, social media companies should adhere 
to the U.N. Human Rights Council's Guiding Principles on Business and 
Human Rights, which include respect for free speech. As the U.N. 
Special Rapporteur urged, social media companies should engage in 
content moderation that permits ``users to express themselves freely 
and access information of all kinds in a manner consistent with human 
rights law.''\39\
---------------------------------------------------------------------------
    \39\ Kaye, Report of the Special Rapporteur,  39.
---------------------------------------------------------------------------
    Fourth.--A core free speech principle that social media companies 
should honor, consistent with both U.S. and human rights law, is 
``content neutrality'' or ``viewpoint neutrality'': That speech should 
not be restricted solely due its disfavored content--i.e., its 
viewpoint, message, or ideas.
    No matter how loathed or feared such content may be, by no matter 
how many of us, we must respond to it with non-censorial counter 
measures, including education and persuasion. Measures that 
discriminate against speech based solely on its disfavored content or 
viewpoint are almost automatically un-Constitutional. The Supreme Court 
has hailed content neutrality as ``the bedrock principle'' undergirding 
Constitutional freedom of speech.\40\
---------------------------------------------------------------------------
    \40\ Texas v. Johnson, 491 U.S. 397, 414 (1988).
---------------------------------------------------------------------------
    This fundamental free speech principle is reflected in 
international human rights norms. Accordingly, the U.N. Special 
Rapporteur's Report expressly urges social media companies to enforce 
their content moderation policies consistent with a ``non-
discrimination'' standard, rather than through ``heavy-handed 
viewpoint-based regulation.''\41\
---------------------------------------------------------------------------
    \41\ Kaye, Report of the Special Rapporteur,  48, 66.
---------------------------------------------------------------------------
    Fifth.--Social media companies should additionally honor the 
complementary ``emergency'' principle, which is also integral to both 
U.S. and human rights law.
    When we move beyond the content of speech and consider its context, 
speech may be restricted if it satisfies the emergency test: When, 
under all the facts and circumstances, the speech directly causes 
certain specific, imminent, serious harm, which cannot effectively be 
countered through non-censorial measures.
    This key principle is also reflected in the global human rights 
requirements of ``necessity'' and ``proportionality.'' As the U.N. 
Special Rapporteur's Report explained, proponents of any speech 
restriction ``must demonstrate that the restriction imposes the least 
burden on the exercise of'' free speech, ``and actually protects, or is 
likely to protect, the legitimate . . . interest at issue.'' Proponents 
of the restriction ``may not merely assert necessity but must 
demonstrate it, in the restriction of specific expression.'' Moreover, 
social media ``[c]ompanies should . . . demonstrate the necessity and 
proportionality of any content actions (such as removals or account 
suspensions).''\42\
---------------------------------------------------------------------------
    \42\ Kaye, Report of the Special Rapporteur,  7, 28, 66
---------------------------------------------------------------------------
    Applying these standards to terror content and misinformation, 
social media companies should not restrict such expression unless they 
could demonstrate that the restriction was ``necessary'' and 
``proportional'' for averting the potential harms of such expression. 
This showing would be hard to make concerning either terror content or 
misinformation, in light of the evidence discussed above, which 
demonstrated the inherent overbreadth of such speech restrictions, and 
called into question whether they are even effective in averting the 
potential harms, let alone necessary.
    Sixth.--The Supreme Court has designated several narrowly-defined 
categories of speech that may be restricted consistent with the content 
neutrality and emergency principles, including two that are pertinent 
to the two types of speech at issue in these hearings: Speech with 
terrorist content and misinformation. It would be appropriate for 
social media companies to restrict these narrowly-defined subcategories 
of speech with terrorist content and misinformation: Speech that 
satisfies the standards for punishable incitement, fraud, or 
defamation.
  <bullet> The Court has barred Government from restricting speech that 
        contains terrorist content or speech that is feared to 
        potentially contribute to terrorism unless, in context, it 
        satisfies the following, appropriately strict, standards: It 
        intentionally incites imminent violent or criminal conduct, and 
        it is actually likely to do so imminently. Accordingly, the 
        Court has struck down even restrictions on explicit advocacy of 
        violent or criminal conduct, including terrorism, when it falls 
        short of the foregoing strict intentional incitement 
        standard.\43\
---------------------------------------------------------------------------
    \43\ Brandenburg v. Ohio, 395 U.S. 444 (1969).
---------------------------------------------------------------------------
  <bullet> The Court has barred Government from punishing many kinds of 
        ``misinformation'' and even outright lies, except in certain 
        situations when intentional falsehoods directly cause certain 
        specific imminent serious harms, including by defrauding an 
        individual who has reasonably relied on the falsehood in a way 
        that causes demonstrable tangible injury; or by defaming an 
        individual about a matter of private concern in a way that 
        injures her reputation and causes demonstrable tangible injury. 
        When the defamatory falsehood pertains to a public official or 
        public figure, it may not be punished unless the complainant 
        can establish, by ``clear and convincing evidence,'' that the 
        speaker knowingly or recklessly lied.\44\
---------------------------------------------------------------------------
    \44\ New York Times Co. v. Sullivan, 376 U.S. 254 (1964).
---------------------------------------------------------------------------
    Seventh.--Speech that does not satisfy the emergency test may still 
cause serious harm; that is true for speech with terrorist content and 
misinformation. However, the modern Court has consistently enforced the 
content neutrality and emergency principles because it is even more 
harmful to grant enforcing authorities latitude to punish speech that 
does not satisfy the emergency test. This is true regardless of who the 
enforcing authorities are, including social media companies.
    As Supreme Court Justice Oliver Wendell Holmes famously recognized, 
``Every idea is an incitement.''\45\ He did not mean that Government 
may therefore suppress every idea, but rather the opposite: If every 
idea that could potentially incite harmful conduct or consequences 
could be suppressed, all ideas could be suppressed. Accordingly, to 
shield freedom to express ideas--potentially inciting and potentially 
dangerous as they are--we should confine censorial power only to ideas 
and expression that satisfy the emergency test: Directly causing 
specific, imminent, serious harm.
---------------------------------------------------------------------------
    \45\ Gitlow v. New York, 268 U.S. 652, 673 (1925) (Holmes, J., 
dissenting).
---------------------------------------------------------------------------
    If censorial power could be exercised under a looser, broader 
standard, the resulting discretion would inevitably lead to suppressing 
valuable speech, and would disproportionately target speech by 
relatively disempowered, marginalized individuals and groups, including 
those who challenge the status quo.
  <bullet> For example, before the Supreme Court adopted the strict 
        ``intentional incitement'' test, Government regularly enforced 
        legal restrictions on ``terrorist'' and other feared expression 
        against politically unpopular, relatively powerless speakers, 
        including abolitionists, socialists, women's suffragists, 
        pacifists, anti-war and anti-draft demonstrators, and civil 
        rights advocates.
  <bullet> Likewise, before the Supreme Court adopted strict standards 
        limiting punishable defamation, National media outlets and 
        civil rights leaders and organizations were regularly targeted 
        with defamation lawsuits that (absent the Court's invalidation) 
        would have led to speech-suppressive damage awards, preventing 
        information and advocacy about the civil rights movement from 
        reaching the critically important Nation-wide audience.
  <bullet> When expression may be restricted short of the emergency 
        standard, the restrictions are often counterproductive: 
        Suppressing expression that would actually promote the 
        countervailing goals at issue.
  <bullet> As detailed above, these general, inevitable problems have--
        predictably--specifically afflicted social media companies' 
        enforcement of their standards that restrict terrorist content 
        and misinformation.
                               conclusion
    In closing, I would like to invoke an apt observation by the famed 
twentieth-century journalist H.L. Mencken: ``For every complex problem, 
there is a solution that is clear, simple--and wrong.''
    How to effectively counter the serious potential adverse impact of 
terror content and misinformation is certainly a complex problem. While 
restricting such expression might appear to be a clear, simple 
solution, it is in fact neither--and, moreover, it is wrong. We must 
focus on the non-censorial strategies I have discussed, including user 
empowering education and technology. Although these approaches are also 
not simple, they are far more promising than censorship.

    Chairman Thompson. I thank all the witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for questions.
    Misinformation is some of this committee's challenges as it 
relates to this hearing, as well as the terrorist content. 
Let's take, for instance, the recent doctored video of Speaker 
Nancy Pelosi that made her appear to be drunk or slurring her 
words. Facebook and Twitter left up the video, but YouTube took 
it down. Everybody agreed that something was wrong with it. 
Facebook, again, took a different approach.
    So I want Ms. Bickert and Mr. Pickles to explain how you 
decided the process for leaving this video up on Facebook and 
Twitter.
    Then, Mr. Slater, I want you to explain to me why YouTube 
decided to take it down.
    Ms. Bickert.
    Ms. Bickert. Thank you, Mr. Chairman.
    Let me first say, misinformation is a top concern for us, 
especially as we are getting ready for the 2020 elections. We 
know this is something that we have to get right. We are 
especially focused on what we should be doing with increasingly 
sophisticated manipulated media.
    So let me first speak to our general approach with 
misinformation, which is: We remove content when it violates 
our community standards. Beyond that, if we see somebody that 
is sharing misinformation, we want to make sure that we are 
reducing the distribution and also providing accurate 
information from independent fact-checking organizations so 
that people can put in context what they see.
    To do that, we work with 45 independent fact-checking 
organizations from around the world, each of which is certified 
by Poynter as being independent and meeting certain principles. 
As soon as we find something that those fact-checking 
organizations rate ``false'' on our platform, we dramatically 
reduce the distribution, and we put next to it related articles 
so that anybody who shares that gets a warning that this has 
been rated ``false.'' Anybody who did share it before we got 
the fact-checkers's rating gets a notification that the content 
has now been rated ``false'' by a fact-checker, and we are 
putting next to it those related articles from the fact-
checking organizations.
    Chairman Thompson. I understand. How long did it take you 
to do that for the Pelosi video?
    Ms. Bickert. The Pelosi video was uploaded to Facebook on 
Wednesday, May 22, around late morning. On Thursday around 6:30 
p.m., a fact-checking organization rated it as ``false,'' and 
we immediately downranked it and put information next to it.
    That is something where we think we need to get faster. We 
need to make sure that we are getting this information to 
people as soon as we can. It is also a reason that at 6:30 
p.m.----
    Chairman Thompson. So it took you about a day-and-a-half.
    Ms. Bickert. Yes, it did, Mr. Chairman.
    Chairman Thompson. Thank you.
    Mr. Pickles.
    Mr. Pickles. So, as Monika said, the process for us is we 
review this against our rules; any content that breaks our 
rules we will remove. We are also very aware that people use 
manipulated tactics to spread this content--fake accounts, 
automation. So we will take action on the distribution as well 
as the content.
    This is a policy area we are looking at right now not just 
in the case of where videos might be manipulated but also where 
the videos are fabricated, where the whole process of creating 
media may be artificial.
    We think that the best way to approach this is with a 
policy and a product approach that covers in some cases 
removing----
    Chairman Thompson. I understand, but just get to why you 
left it up.
    Mr. Pickles. So, at present, the video doesn't break our 
rules, and then the account posting it doesn't break our rules. 
But it is absolutely a policy area we are looking at right now, 
about whether our rules and our products are the correct 
framework for dealing with this challenge, which----
    Chairman Thompson. So if it is false or misinformation, 
that doesn't break your rules.
    Mr. Pickles. Not at present, no.
    Chairman Thompson. Thank you.
    Mr. Slater.
    Mr. Slater. So, on YouTube, we have tough community 
guidelines that lay out the rules of the road, what is inbounds 
to be up on the platform and what is out. Violative content, 
when it is identified to us via machines or users, we will 
review and remove.
    In this case, the video in question violated our policies 
around deceptive practices, and we removed it.
    Chairman Thompson. So, again, our committee is tasked with 
looking at misinformation and some other things. We are not 
trying to regulate companies, but terrorist content can also be 
a manipulated document.
    So, Ms. Strossen, talk to us about your position with that.
    Ms. Strossen. The difficulty in--the inherent subjectivity 
of these concepts, Chairman Thompson, is illustrated by the 
fact that we have three companies that have subscribed to 
essentially the same general commitments and yet are 
interpreting the details very differently with respect to 
specific content. We see that over and over again.
    Ultimately, the only protection that we are going to have 
in this society against disinformation is training and 
education starting at the earliest levels of a child's 
education in media literacy.
    Because Congress could never protect against misinformation 
in traditional media--right?--unless it meets the very strict 
standards of defamation that is punishable and fraud that is 
punishable, content, including the Pelosi video, is completely 
Constitutionally protected in other media.
    Chairman Thompson. Thank you.
    I yield to the Ranking Member for his questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Slater, the video I referenced in my comments with Ms. 
Gennai and your employee, would you like to take this 
opportunity--have you seen it?
    Mr. Slater. Congressman, I have not seen the full video, 
but I am broadly aware of what you are talking about, yes.
    Mr. Rogers. OK. Would you like to take an opportunity to 
respond to the comments that I offered about what was said?
    Mr. Slater. Could you be specific, Congressman? What would 
you like me to respond to?
    Mr. Rogers. When she basically, for example, said that we 
can't let Google be broken up because these smaller companies 
won't have the same resources we have to stop Trump from 
getting reelected.
    Mr. Slater. Thank you for the clarification.
    So let me be clear, this employee was recorded without her 
consent. I believe these statements were taken out of context.
    But stepping back to our policies, how we address the issue 
you are talking about, no employee, whether in the lower ranks, 
up to senior executives, has the ability to manipulate our 
search results or our products or our services based on their 
political ideology.
    We design and develop our products for everyone. We mean 
everyone. We do that to provide relevant results, authoritative 
results. We are in the trust business. We have a long-term 
incentive to get that right.
    We do that in a transparent fashion. You can read more on 
our How Search Works site. We have search rater guidelines that 
are public on the web that describe how we look at rating. We 
have robust systems and checks and balances in place to make 
sure those are rigorously adhered to as we set up our systems.
    Mr. Rogers. OK. I recognize that she was being videotaped 
without her knowledge, but the statements that I quoted from 
were full, complete statements that were not edited.
    So it is concerning when you see somebody who is an 
executive at Google--and there were more than one in that 
video, by the way--making statements that indicate that it is 
management's policy within Google to try to manipulate 
information to cause one or another candidate for President of 
the United States--or, for that matter, any other office--to be 
successful or not be successful.
    So that is what gave rise to my concern. Do we have reason 
to be concerned that Google has a pervasive nature in the 
company to try to push one political party over another in the 
way it conducts its business?
    Mr. Slater. Congressman, I appreciate the concern, but let 
me be clear again: In terms of what our policy is, from the 
highest levels on down, and what our practices and structures 
and checks and balances are about, we do not allow anyone--
lower level, higher level--to manipulate our products in that 
way.
    Mr. Rogers. OK. I hope it is not the culture at any of your 
platforms, because you are very powerful in our country.
    Ms. Strossen, you raised concerns in your testimony that, 
while social media companies legally can decide what content to 
allow on their platforms, such censorship stifles free speech 
and results in biased coverage.
    What are your recommendations to these companies regarding 
content moderation without censorship?
    Ms. Strossen. Thank you so much, Ranking Member Rogers.
    I would, first of all, endorse at least the transparency 
that both you and Chairman Thompson stressed in your opening 
remarks and, in addition, other process-related guarantees, 
such as due process, the right to appeal, and a clear statement 
of standards.
    I would also recommend standards that respect the free-
speech guarantees not only in the United States Constitution 
but of international human rights that the United Nations Human 
Rights Council has recommended in a nonbinding way that 
powerful companies adopt. That would mean that content could 
not be suppressed unless it posed an emergency, that it 
directly caused certain specific, serious, imminent harm that 
can't be prevented other than through suppression.
    Short of that, as you indicated, for example, Ranking 
Member Rogers, politically controversial, even repugnant, 
speech should be protected. We may very much disagree with the 
message, but the most effective as well as principled way to 
oppose it is through more speech.
    I would certainly recommend, as I did in my written 
testimony, that these companies adopt user-empowering 
technology that would allow us users to make truly informed, 
voluntary decisions about what we see and what we don't see, 
and not manipulate us, as has been reported many times, into 
increasing rabbit holes and echo chambers, but give us the 
opportunity to make our own choices and to choose our own 
communities.
    Mr. Rogers. Thank you.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the Chair, and I thank the Ranking 
Member, the committee Members for this hearing.
    Let me indicate that there is known to the public the 
fourth estate, and I might say that we have a fifth estate, 
which is all of you and others that represent the social media 
empire.
    I believe it is important that we work together to find the 
right pathway for how America will be a leader in how we 
balance the responsibilities and rights of such a giant entity 
and the rights and privileges of the American people and the 
sanctity and security of the American people.
    Social media statistics from 2019 show that there are 3.2 
billion social media users world-wide, and this number is only 
growing. That equates to about 42 percent of the current world 
population. That is enormous. Certainly, I know the numbers are 
just as daunting in the United States.
    So let me ask a few questions, and I would appreciate 
brevity because of the necessity to try to get as much in as 
possible.
    On March 15, 2019, worshipers were slaughtered in the midst 
of their prayers in Christchurch, New Zealand. The gunman live-
streamed the first attack on Facebook Live.
    So my question to you, Ms. Bickert, is, can you today 
assure the committee that there will never be another attack of 
this nature that will be streamed as it is happening over 
Facebook Live?
    You mentioned 30,000 and 300, and so I hope they may 
contribute to your answer. But I yield to you for your answer.
    Ms. Bickert. Congresswoman, thank you.
    The video was appalling. The attack, of course, is an 
unspeakable tragedy. We want to make sure we are doing 
everything to make sure it doesn't happen again and it is not 
live-streamed again.
    One of the things we have done is we have changed access to 
Facebook Live so that people who have a serious content policy 
violation are restricted from using it. So the person who live-
streamed the New Zealand attack will not----
    Ms. Jackson Lee. What is the likelihood of you being able 
to commit that that would not happen again, in terms of the new 
structures that you have put in place?
    Ms. Bickert. Well, the technology we are working to 
develop--the technology is not perfect. So artificial 
intelligence is a key component of us recognizing videos before 
they are reported to us. This video was not--about fewer than 
200 people saw it while it was live on Facebook. Nobody 
reported it.
    Ms. Jackson Lee. So can you give me--my time is short. Do 
you have a percentage? Fifty percent? Sixty percent?
    Ms. Bickert. With the technology, I can't give a 
percentage. I can say that we are working with governments and 
others to try to improve that technology so that we will be 
able to better recognize----
    Ms. Jackson Lee. Mr. Pickles and Mr. Slater, if you would, 
Ms. Bickert did raise the question about artificial 
intelligence. So, if you would respond as to the utilization of 
AI and individuals, as briefly as possible, please.
    Mr. Pickles. So one of the challenges Twitter has is that 
there is not a lot of content--280 characters, a maximum of 2-
minutes-20 video. So one of the challenges in Christchurch was, 
we didn't see the same video uploaded. We saw different 
snippets that took different lengths.
    So we are investing in technology to make sure that people 
can't re-upload content once it has been removed previously. We 
are also making changes to make sure that, for example, where 
people manipulate media we can move quicker. But this is an----
    Ms. Jackson Lee. So you are using human subjects and AI?
    Mr. Pickles. It is machine learning and humans, yes.
    Ms. Jackson Lee. All right.
    Mr. Slater.
    Mr. Slater. Thank you, Congresswoman.
    We use, similarly, a combination of machine learning and 
people to review. Speaking overall, in the first quarter of 
2019, 75 percent of the 8 million videos we removed, they were 
first flagged by a machine, and the majority were removed 
before a single view.
    When it comes to violent extremism, it is even stronger. So 
over 90 percent of the violent extremist videos that were 
uploaded and removed in the past 6 months were removed before a 
single human flag, and 88 percent with less than 10 views. That 
is----
    Ms. Jackson Lee. Thank you.
    Let me ask a question about deepfakes--because my time is 
going--for each of you, in the 2020 election, what you will do 
to recognize the fact that deepfakes can be a distortion of an 
election that is really the premise of our democracy. Can you 
quickly answer that question?
    At the same time, I just want to make mention of the fact 
that free speech does not allow incitement, fighting words, 
threats, and otherwise.
    Could you just answer that, please----
    Ms. Bickert. Yes, Congresswoman.
    Ms. Jackson Lee [continuing]. The deepfakes? As briefly as 
you can.
    Ms. Bickert. Absolutely.
    We are working with experts outside the company and others 
to make sure that we understand how deepfakes can be used and 
come up with a comprehensive policy to address them.
    In the mean time, we are focused on removing fake accounts, 
which are disproportionately responsible for this sort of 
content, and also making sure that we are improving the speed 
at which we counter misinformation with actual factual articles 
and reduce the distribution.
    Ms. Jackson Lee. Mr. Pickles.
    Mr. Pickles. So, similarly, we are working on a product and 
policy solution. But one of the things that we already have in 
place is, if anyone presents any misinformation about how to 
vote that lends to voter suppression, we will remove that now. 
That policy has been in place for some time.
    Ms. Jackson Lee. Mr. Slater.
    Mr. Slater. Similarly, we are investing significantly in 
working with researchers and others to build capacities in this 
space. We have an intel desk that scans the horizon for new 
threats and constantly is looking at this sort of issue.
    Ms. Jackson Lee. Thank you for your courtesy. I yield back, 
Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentleman from 
North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    While we were sitting here today, I just looked up on the 
internet, put in ``Facebook apologizes,'' ``Google 
apologizes,'' ``Twitter apologizes,'' and there were more pages 
than I could count, going through those apologies there.
    I listened closely to the words or how you framed it, both 
Mr. Pickles and Mr. Slater, when you talked about--one of you 
used ``hateful content''--Mr. Pickles. Mr. Slater, you used the 
expression ``hate speech.'' You listed several different people 
that were protected. What I did not hear you say in that group 
of people that you listed were those that were wanting to 
express their faith.
    In April--one of the larger apologies I think that you guys 
have made--in April, Kelsey Harkness brought us to the 
attention of Abby Johnson's life story in a movie called 
``Unplanned.'' That movie has gone on to make $20 million at 
the box office. But Google listed that as propaganda.
    My question for you today: Was that a machine that listed 
that, or was that an individual?
    Mr. Slater. Congressman, I am not familiar with the 
specific video in question. I would have to--I would be happy 
to go back----
    Mr. Walker. This isn't a video. It is a movie. It was one 
of the larger stories in April this year, a major motion 
picture. You are not familiar with that? It didn't come across 
your radar?
    Mr. Slater. No, sir, I am not familiar with that specific 
video.
    Mr. Walker. OK. All right.
    When we talk about the difference between hateful content 
and hate speech, I know, Mr. Pickles, in June, just earlier 
this year, Marco Rubio brought the attention that Twitter was 
banning any kind of language that was maybe offensive to China. 
You later came back and apologized.
    The question for you is: How does Twitter use their 
discretion to block information without discriminating against 
different individuals or groups?
    Mr. Pickles. Well, first, as you say, our rules identify 
hateful conduct. So we focus on behavior first. So how do two 
accounts interact? We look at that before we look at the speech 
that they are sharing.
    So there are offensive views on Twitter, and there are 
views that people will disagree with strongly on Twitter. The 
difference between that and targeting somebody else is a 
difference between content and conduct. So our rules don't have 
ideology in them. They are enforced without ideology and 
impartially. Where we do make mistakes, I think it is important 
for us to recognize.
    I know one of the challenges we have is that, where we 
remove someone from Twitter and they come back for a different 
purpose, our technology will recognize that person trying to 
come back on Twitter, and we don't want people to come back to 
the platform that we have removed. Sometimes that does catch 
people who are having a different purpose.
    So there is both a value to technology, but we should 
recognize where we have made a mistake.
    Mr. Walker. Mr. Slater, how does Google audit their content 
moderation policies to ensure that they are being followed and 
that they are not being driven by bias?
    Mr. Slater. Thank you, Congressman, for that question.
    Speaking broadly, we have a robust system of both the 
development and the enforcement of our policies. We are 
constantly reviewing and analyzing the policies themselves to 
understand whether they are fit for purpose, whether they are 
drawing the right lines.
    Our reviewers go through extensive training to make sure we 
have a consistent approach. We draw those reviewers from around 
the country, around the world, and, again, train them very 
deeply and are constantly reviewing----
    Mr. Walker. Yes, and I appreciate it. I need to keep 
moving.
    What type of training, if any, do you provide for your 
human content moderators regarding subjectivity and avoiding 
bias, Mr. Slater?
    Mr. Slater. Again, we provide robust training to make sure 
that we are applying a consistent rule.
    Mr. Walker. ``Robust training,'' what does that mean? What 
is robust training?
    Mr. Slater. So, when reviewers are brought on board, before 
they are allowed to review, we provide them with a set of 
educational materials and detailed steps. In addition, they are 
reviewed by managers and others to make sure that they can 
correct mistakes, then learn from those mistakes, and so on.
    Mr. Walker. All right.
    Ms. Bickert, do you think that AI will ever get to the 
point where you can rely solely on it to moderate content, or 
do you think human moderation will always play a role?
    Ms. Bickert. Thank you for the question, Congressman.
    At least for the near future, human moderation is very 
important to this. Technology is good at some things. It is 
good at, for instance, matching known images of terror 
propaganda or child sexual abuse. It is not as good at making 
the contextual calls around something like hate speech or 
bullying.
    Mr. Walker. Uh-huh.
    Final couple questions as I wind down my time.
    Mr. Pickles, do you have any idea how many times Twitter 
apologizes per month for missing it on content?
    Mr. Pickles. Well, I know that we take action on appeals 
regularly. Every decision we have made----
    Mr. Walker. Do you have a number on that?
    Mr. Pickles. I don't have a number off-hand, but I can 
happily follow up.
    Mr. Walker. Mr. Slater, do you have any idea how many times 
Google apologizes for mismanaging the content per month?
    Mr. Slater. Congressman, similarly, we have an appeals 
process, so there are times where we don't get it right----
    Mr. Walker. Do you have a number?
    Mr. Slater. I do not today, but I would be happy to come 
back to you.
    Mr. Walker. Yes, I think you guys have apologized more than 
Kanye West has to Taylor Swift at some point.
    With that, I yield back.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Illinois, Ms. Underwood, for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman.
    In March, 2 weeks after the Christchurch terror attack, 
Facebook announced it would start directing users searching for 
white supremacist terms to Life After Hate, an organization 
that works to rehabilitate extremists.
    Life After Hate is based in Chicago, so I met with them 
last month when I was at home in Illinois. They told me since 
Facebook's announcement they have seen, ``a large bump in 
activity that hasn't slowed down.''
    Facebook and Instagram have 3 billion users combined. Life 
After Hate is a tiny organization whose Federal funding was 
pulled by this administration. They do great work and simply 
don't have the resources to handle every single neo-Nazi on the 
internet on their own.
    Ms. Bickert, has Facebook considered providing continuous 
funding to Life After Hate for the duration of this 
partnership?
    Ms. Bickert. Congresswoman, thank you for that question.
    Life After Hate is doing great work with us. For those who 
don't know, basically, we are redirecting people who are 
searching for these terms to this content. We do this in some 
other areas as well, like, for instance, with self-harm support 
groups.
    We do see that sometimes they are under-resourced. So this 
is something that we can come back to you on, but we are 
definitely committed to making sure this works.
    Ms. Underwood. OK. So right now there is no long-term 
funding commitment, but you will consider it.
    Ms. Bickert. I am not sure what the details are, but I will 
follow up with you on them.
    Ms. Underwood. OK. So Facebook has made Life After Hate a 
significant component of its strategy against on-line 
extremism, and so we really would appreciate that follow-up 
with exact information.
    Ms. Bickert. I would be happy to.
    Ms. Underwood. Mr. Slater, over the years, YouTube has put 
forward various policy changes in an attempt to limit how 
easily dangerous conspiracy-theory videos spread. For example, 
YouTube announced over a year ago that it would display, 
``information cues'' in the form of links to Wikipedia next to 
the conspiracy videos.
    Mr. Slater, in the 15 months since this policy was 
announced, what percentage of users who view videos with 
information cues actually click on the link for more 
information?
    Mr. Slater. Thank you for the question, and I think this is 
a very important issue. We do both display these sort of 
contextual cues to Wikipedia and Encyclopedia Britannica as 
well as take a number of other steps.
    Ms. Underwood. Right.
    Mr. Slater. I don't have a specific percentage on how many 
have clicked through but would be happy to come back to you.
    Ms. Underwood. OK. If you can follow up in writing, that 
would be appreciated.
    Most Wikipedia articles can be edited by anyone on the 
internet. We have all seen some with questionable content. Does 
YouTube vet the Wikipedia articles that it links to on 
information cues to ensure their accuracy? Or do you all work 
with Wikipedia to ensure that the articles are locked against 
malicious edits?
    Mr. Slater. We work to raise up authoritative information 
and ensure that what we are displaying is trustworthy and 
correct any mistakes that we may make.
    Ms. Underwood. So you all have corrected the YouTube--I'm 
sorry, the Wikipedia pages if it is incorrect?
    Mr. Slater. No. I am sorry. Before we display such things, 
we look to ensure that we have a robust process to make sure 
that we are displaying accurate information.
    Ms. Underwood. The question is about what you are linking 
to.
    Mr. Slater. Yes.
    Ms. Underwood. OK. So can you just follow up with us in 
writing on that one?
    Mr. Slater. Yes.
    Ms. Underwood. Great.
    Ms. Bickert, Facebook has displayed links to additional 
reporting next to content that contains disinformation. What 
percentage of users click through to read that additional 
reporting?
    Ms. Bickert. I don't have that percentage for you, 
Congresswoman. I am sorry about that. But I will follow up in 
writing quickly.
    Ms. Underwood. Thank you.
    Mr. Chairman, at this point, I would like to ask the clerk 
to display the two screenshots my staff provided earlier on the 
TV screens.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Underwood. Last month, Instagram announced that it 
would hide search results for hashtags that displayed vaccine 
disinformation. So, yesterday, I did a simple search for 
``vaccine'' on Instagram from two different accounts. These are 
the top results. As you can see, the majority of these 
responses display anti-vax hashtags and popular accounts with 
titles like ``CorruptVaccines,'' ``VaccinesUncovered,'' and 
``Vaccine Injury Awareness.''
    These are not niche terms. This content is not hard to 
find, and vaccine disinformation is not a new issue.
    Ms. Bickert, clearly, Instagram's efforts here have some 
gaps. Anti-vax content is a deadly threat to public health. 
What additional steps can Instagram commit to taking to ensure 
that this content is not promoted?
    Ms. Bickert. Congresswoman, thank you for that question. 
Vaccine hoaxes and misinformation are really top of mind for 
us. We have launched some recent measures, but I want to tell 
you how we are working to get better on those.
    One thing we are doing is, when accounts are sharing 
misinformation, we are trying to downrank them and downrank 
them in the search results as well. That is something that is 
on-going. It requires some manual review for us to make sure 
that we are doing that right. But we are getting better at 
that.
    Another thing is actually surfacing educational content, 
and we are working with major health organizations to provide 
that. So, when people go searching for this, at the top of the 
search results they will see that informational content. We are 
working with those health organizations right now, and we 
should have that content up and running soon. I can follow up 
with you with the details on that.
    Ms. Underwood. Please. While this is a new initiative for 
your organization, it is critically important that that 
information is shared with users at the time that they search 
for it, which we know is on-going.
    Look, everyone in this room appreciates that on-line 
extremism and disinformation are extremely difficult problems 
that require broad, coordinated solutions. But these aren't new 
challenges, and failing to respond seriously to them is 
dangerous. The research is clear: Social media helps extremists 
find each other, helps make their opinions more extreme, and 
helps them hurt our communities.
    My constituents and I want strong policies from your 
companies that keep us safe. While I truly believe that your 
current policies are well-intentioned, there is a lot more that 
needs to be done. Frankly, some of it should have been done 
already. I am looking forward to working with your companies 
and my colleagues in Congress on broad, real solutions.
    Thank you, and I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from New York, Mr. 
Katko, for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you all for being here today.
    It is obvious from this conversation that this is a very 
difficult area to maneuver in.
    Ms. Strossen, I understand your concerns about First 
Amendment infringement, but I also understand and I applaud the 
companies' desire to try and find that delicate balance. Quite 
frankly, since you are not a Government entity, you have more 
flexibility in how you do that, and it is kind of up to you, as 
the stewards of that flexibility, to do the best job you 
possibly can. So I am going to get back to you in a minute with 
a couple of questions.
    But I just want to follow up with Mr. Slater to make sure I 
am perfectly clear with what you are saying here. I am well 
aware from your testimony previously of what the policies and 
practices are at Google. But that video that Mr. Rogers did 
reference did show that people were--looked like they were 
talking about a very serious political bias and their intent to 
implement that bias in their job. Whether or not that happened, 
I don't know.
    I am not asking about the policies and practices. I am 
asking you if you personally have ever been made aware of 
anyone that has done that, used political bias at Google to 
alter content, or whether they--first of all, have you ever 
heard that within Google? I know what your policy and practices 
are, so I don't want a long answer. I just want to know if you 
have heard that.
    Mr. Slater. Congressman, I am not aware of any situation. 
Our robust checks and balances and processes would prevent 
that.
    Mr. Katko. OK. So you personally have not ever heard of 
that, ever, since your time at Google.
    Mr. Slater. Correct.
    Mr. Katko. OK. The allegation that Congressman Walker 
referenced about the abortion movie, you have heard nothing 
about people limiting contact with respect to that, as well--
context--excuse me--content?
    Mr. Slater. Congressman, I am not familiar with that video, 
no.
    Mr. Katko. OK. All right. You have never heard anybody 
limiting content in that regard for any sort of issue-oriented 
things?
    Mr. Slater. Again, we would remove content where it 
violates our policies, but not--but our policies with regard to 
ranking----
    Mr. Katko. I am aware of your policy and practices. I'm 
just saying, have you ever heard that yourself? There is a 
difference. You understand the difference? It is not what your 
policy and practices are; it is what you are personally aware 
of.
    Mr. Slater. Yes, Congressman, I believe I understand. I am 
not aware of any situation like that.
    Mr. Katko. OK. Thank you.
    Now, I want to talk to Mr. Slater--all of you here today. 
This internet forum, G-I-F-C-T, GIFCT--which is the lamest 
acronym ever, by the way--Global Internet Forum to Counter 
Terrorism.
    Can someone just--Mr. Pickles, perhaps, could you just give 
me a little detail of what exactly the goal is of this forum?
    Mr. Pickles. Sure. Equally, as Facebook and Google have 
both chaired the organization, happy for them to add.
    I think the critical thing is, GIFCT is about bringing 
together 4 companies who have expertise and investment on 
countering terrorism but recognizing that the challenge is far 
bigger.
    So the 3 strands. Support small companies. As we remove 
content, it goes across the internet, and we need to help those 
small companies. Fund research, so we can better understand, so 
we have a research network. Then, finally, sharing technical 
tools. So you have heard people reference these digital 
fingerprints to make sure that, whether it is a fingerprint 
or--in Twitter's case, we share the URL. So, if we take down an 
account for spreading a terrorist manual and we see it is 
linked to a company, we will tell the other company, ``Hey, a 
terrorist account is linked to something on your service. You 
should check it out.''
    Mr. Katko. It is similar to what you do in the malware 
arena, correct?
    Mr. Pickles. Yes. So industry collaboration is really at 
the heart of it.
    Mr. Katko. OK. Now, what companies are members of this? Is 
there a whole bunch, or is there just a limited number?
    Mr. Pickles. So, when we founded it, it was Google, 
Twitter--sorry--YouTube, Twitter, Microsoft, and Facebook. 
Dropbox has now joined.
    One of the things we have is a partnership with Tech 
Against Terrorism, which allows small companies to go through a 
training process, so they learn things like how to write their 
terms of service, how to enforce their terms of service. By 
mentoring them, that is where--we are hopeful that we will have 
more companies joining and growing this, but the hash-sharing 
consortium has many members, 15 members. We share URLs with 13 
companies.
    So it is broad, but we want it to have a high standard. We 
want membership to be the companies who are doing the best, and 
that is why we want to keep a high bar and bring people in.
    Mr. Katko. I understand.
    Now, as far as the encrypted messaging platforms, I take it 
they are not all members of this, they are not all participants 
on this, are they?
    Mr. Pickles. I am probably not the best person to answer 
that question.
    Mr. Katko. Would you know, Ms. Bickert?
    Ms. Bickert. Sure. Thank you for the question, Congressman. 
So the main members are, as Mr. Pickles mentioned, those 5 
companies. Now, in terms----
    Mr. Katko. I understand.
    Ms. Bickert [continuing]. Of the smaller companies who have 
been trained, that does include some of the encrypted messaging 
services. Because some of this is about just understanding what 
are the right lines to draw, how to work with law enforcement 
authorities, which encrypted communication services can 
definitely do.
    Mr. Katko. Some of the--my biggest concern is that, while 
the big players in this field, all of you at the table, seem to 
be endeavoring to try and do the right thing, especially with 
respect to counterterrorism, that the encrypted messaging 
platforms, by and large, have a much broader field to play in, 
and there doesn't seem to be much we can do to stop their 
content from spreading their filth and their violence.
    So I would love to hear any suggestions--I know my time is 
up, so perhaps in writing--as to how we could try and entice 
some of them to be part of this effort. The encryption is 
obviously a breeding ground for white supremacists, violence of 
all sorts. Trying to get the companies to be more responsible 
and just not worried about their bottom-line profit-making 
would be--would be great to hear from you guys. So thank you.
    I yield back.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Michigan, Ms. Slotkin, for 5 minutes.
    Ms. Slotkin. Good morning. Thanks for being here.
    I wanted to switch gears for just a second and talk about 
the influence and the spread of foreign-based information, 
foreign-based political ads in particular, in our political 
process.
    Many of us read the Mueller report page by page, and I was 
interested, Ms. Bickert, that the Facebook general counsel 
stated for the record that, for the low, low price of $100,000, 
the Russian-associated Internet Research Agency got to 126 
million American eyeballs.
    I am interested in this because the political ads that they 
put forward were specifically targeted to swing States, and 
Michigan is one of those States, so we saw an overabundance of 
these ads. They were specifically paid for by foreign entities, 
and they were advocating for or against a candidate in our 
political process. I have a serious problem with that.
    So, separate from the issues of speech and what an American 
does or does not have the right to say, can you speak 
specifically to Facebook's reaction to the fact that they 
spread foreign, purchased information--and it doesn't matter to 
me that it was Russian; it could be Chinese or Iranian--and 
what steps you have taken since 2016 to prevent the spread of 
foreign information?
    Ms. Bickert. Absolutely, Congresswoman. Thank you for the 
question. Where we were in 2016--I mean, we are in a much, much 
better place. So let me share with you some of the steps we 
have taken.
    First of all, all of those ads came from fake accounts. We 
have a policy against fake accounts, but we have gotten much 
better--and we had it then, but we have gotten much better at 
enforcing it. Now we are actually stopping more than a million 
accounts, fake accounts, per day at the time of upload. We 
publish stats on how many fake accounts we are removing every 
quarter, and you can see how much better we have gotten in the 
past 2 years.
    Another thing that we are doing with political ads 
specifically is we are requiring unprecedented levels of 
transparency. Now, if you want to run a political or political 
issue ad in the United States, you have to first verify your 
identity. You have to show you are an American, which means we 
actually send you something--because we have seen fake IDs 
uploaded from advertisers--we send you something through the 
mail, and you actually then get a code, and you upload for us 
the government ID. So we verify that you are a real American.
    Then we also put a ``paid for'' disclaimer on the political 
ad, and we put it in an ads library we have created that is 
visible to everybody. So, even if you don't have a Facebook 
account, you can go and see this ads library. You can search 
what type of political ads are appearing, who is paying for 
them, and other information about how they are being targeted 
and so forth.
    Ms. Slotkin. That is good to hear. I am glad to hear it. I 
would love to see--if there are reports, I would love to just 
be directed to them so I can see them.
    For the others at the table, can you talk about your 
specific--and brief, please--your specific policy on the spread 
of foreign political ads for or against a candidate running for 
office in the United States?
    Mr. Pickles. So the first thing we did was to ban Russia 
Today and all of its associated entities from using any of our 
advertising products going forward.
    We took all of the revenue from Russia Today and their 
associated entities and are funding research and partnerships 
with organizations like the Atlantic Council, like the 
DisinfoLab in Brussels, to research better how we can prevent 
against this.
    We then took the unprecedented step of publishing every 
tweet, not just the paid-for ones, every tweet that was 
produced by a foreign influence operation in a public archive. 
So you can now access more than 30 million tweets that runs to 
more than a terabyte of videos and photographs in a public 
archive. Those include operations from Russia, Iran, Venezuela, 
and other countries.
    Ms. Slotkin. Mr. Slater.
    Mr. Slater. Thank you for the question.
    Looking backward at 2016, we found very limited improper 
activity on our platforms. That is a product of our threat 
analysis group and our other tools to root out that sort of 
behavior.
    Looking forward, we continue to invest in that, as well as 
our election transparency efforts, requiring verification of 
advertisers for Federal candidates, disclosure in the ads, and 
then a transparency report.
    Ms. Slotkin. Great.
    What about the spread of information through bots? What 
kind of disclosure requirement so that when someone is 
receiving or viewing something they have some way of knowing 
who produced it, who is spreading it, whether it is a human 
being, a machine?
    Why don't we start with Facebook.
    Ms. Bickert. Thank you, Congresswoman.
    One of our policies is that you have to have your real name 
and be using an account authentically. So, when we are removing 
bot accounts, we are removing them for being fake accounts. 
Those are all numbers that we publish.
    Mr. Pickles. Every week, we challenge between 8 million and 
10 million accounts for breaking our rules on suspicious 
activity, including malicious automation. So we are removing 
those accounts. About 75 percent of those 8 million to 10 
million challenge, fail those challenges, and they are removed 
every week.
    Mr. Slater. Congresswoman, for our part, we have strict 
policies about misrepresentation in ads, impersonation. We are 
looking out, again, through our threat analysis group, for 
coordinated, inauthentic behavior and will take action where 
appropriate.
    Ms. Slotkin. Thank you.
    I know my time has expired. Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Slater, are you ready? Get your scripted answers ready, 
sir.
    Google and YouTube are developing quite a poor reputation 
in our Nation. A clear history of repetitively silencing and 
banning voices. Conservatives or liberal, doesn't concern me 
right now. We are talking about freedom of speech and access to 
open communications.
    We are here today to discuss extremist content, violent 
threats, terrorist recruiting tactics, and instigation of 
violence. To get the same justification your platform uses to 
quell true extremism is often used to silence and restrict the 
voices that you disagree with, and we don't like it.
    For example, Prager University, a series of 5-minute videos 
which discuss political issues, religion, economic topics from 
a conservative perspective, has had over 50 of their videos 
restricted.
    Some of their restricted videos include ``Why America Must 
Lead.'' Perhaps that is a question that should be directed to 
the mirror. America leads because of our stance for freedom, 
for all voices to be heard. ``The Ten Commandments/Do Not 
Murder'' video--pulled by your people. What is wrong with the 
10 commandments, might I ask? ``Why Did America Fight the 
Korean War?'', a legitimate reflection on a significant part of 
the history of our Nation--pulled.
    Additionally, YouTube removed a video from Project Veritas 
which appears to show a senior Google executive acknowledging 
politically-motivated search manipulation with an intent to 
influence election outcomes. None of us here want that, on 
either side of this aisle. I don't know a man or woman present 
that is not a true patriot and loves their country. We have 
varying ideological perspectives, yes, but we love our country, 
and we will stand for freedom, including against Google.
    A frequent reason provided by YouTube is that the content 
in question harmed the broader community. What could be more 
harmful to the broader community than the restriction of our 
free speech and open communications, regardless of our 
ideological stance?
    Please define for America, what do you mean by ``harmed the 
broader community'' as it is used to justify restricting the 
content on Google or YouTube? And point out, is harm limited to 
physical threats and the incitement of violence, as it should 
be, or is it a convenient justification to restrict the content 
that you deem needs to be restricted?
    Please explain to America how you determine what is 
``harmed the broader community,'' what does that mean. Let's 
have your scripted answer.
    Mr. Slater. Congressman, thank you for the question. I 
appreciate the concern and the desire to foster robust debate. 
We want YouTube to be a place where everyone can share their 
voice and get a view of the world.
    Mr. Higgins. But you don't allow everyone to share their 
voice. I have given examples in my brief time--and thank you, 
Mr. Chairman, for recognizing my time.
    The First Amendment protects Americans' right to express 
their viewpoints on-line. Is something that offends an 
individual or something an individual agrees with, does that 
meet your company's definition of extreme?
    Mr. Slater. We have community guidelines that lay out the 
rules of the road about what is not permitted on the platform, 
including incitement to violence, hate speech, harassment, and 
so on. If you can clarify what you are asking about 
specifically, I would be happy to try and answer.
    Mr. Higgins. Mr. Slater, God bless you, sir. Google is in a 
bind. Today, America is watching. Today, America is taking a 
step back. We are looking at the services, we are looking at 
the platforms that we use, and we are finding, to our horror, 
that they can't be trusted.
    Today, America is looking carefully at Google, and a word 
reverberates through the minds of America: Freedom. Shall it be 
protected, shall it be preserved, or shall it be persecuted and 
subject to the will and whim of massive tech companies?
    Mr. Chairman, thank you for recognizing my time, and I 
yield the balance. Thank you for holding this hearing today.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank our panelists for appearing before us today.
    I want to go into the issue of deepfakes, because I have 
recently introduced legislation, the first ever in a House 
bill, to regulate the technology. If my bill passes, what it 
would do is it would make sure that deepfake videos include a 
prominent, unambiguous disclosure as well as a digital 
watermark that can't be removed.
    The question I have is, when it comes to your attention 
that a video has been substantially altered or entirely 
fabricated, how your companies decide whether to do nothing, 
label it, or remove it? That is for the panel.
    Ms. Bickert. Thank you for the question, Congresswoman.
    Ms. Clarke. Sure.
    Ms. Bickert. So, when it comes to deepfakes, this is a real 
top priority, especially because of the coming elections.
    Right now, our approach is, we try to use our third-party 
fact-checking organizations. There are 45 of them world-wide. 
If they rate something as being false--they can also tell us 
that something has been manipulated. At that point, we will put 
the information from the fact-checking organization next to it. 
So, much like the label approach, this is a way of actually 
letting people understand that this is something that is, in 
fact, false. We also reduce the distribution of it.
    We are also looking to see if there is something we should 
do specifically in the area of deepfakes. We don't want to do 
something in a one-off way; we want to have a comprehensive 
solution. Part of that means we have to get a comprehensive 
definition of what it means to actually have a deepfake. Those 
are conversations that we look forward to having with you.
    Ms. Clarke. Yes. My bill would require that there is a 
digital watermark and that it shows how--similar to how your 
companies do sort of a hash of terrorist content. If there was 
a central database of deceptive deepfake hashes, would you 
agree to utilize that?
    Mr. Pickles.
    Mr. Pickles. I am happy to pick up on that and the previous 
question.
    I was at a conference in London a few weeks ago hosted by 
the BBC and an NGO called Digital Witness, and they actually 
work on issues around verifying media from war zones of war 
crimes. So I think, actually, as Monika says, this policy goes 
from a whole spectrum of content, from synthetic to edited to 
manipulated. So I think, certainly, from our point of view, 
every partnership is one we want to explore to make sure that 
we have all the information.
    I think your framing of how in some circumstances there may 
be situations to remove content, in other circumstances it is 
about providing context to the user and giving them more 
information, that is the best balance, I think, of making sure 
that we have all the tools available to us. That is the 
approach that we are developing now.
    Ms. Clarke. Yes. Time is not your friend here. What we are 
trying to find is something universal that creates 
transparency, respects the First Amendment, but also makes sure 
that, you know, it is something that, you know, as Americans 
whose eyes are constantly on video, something you can identify 
right away. If you have to go through all of these sources to 
determine--and each platform has a different way of 
indicating--it almost nullifies that.
    So I wanted to put that on your radar, because I think that 
there needs to be some sort of a universal way in which 
Americans can detect immediately that what they are seeing is 
altered in some form or fashion. That is what my bill seeks to 
do.
    Imagine if Russia, just days before the 2020 election, 
released a fake video of a Presidential candidate accepting a 
bribe or committing a crime.
    If your companies learn of a deepfake video being promoted 
by a foreign government to influence our election, will you 
commit to removing it? How would you handle such a scenario?
    Have you thought about it? Give us your thoughts. I don't 
have a whole lot of time.
    Ms. Bickert. Congresswoman, we do have a real name 
requirement on Facebook, and we also have various transparency 
requirements that we enforce. So if it is shared by somebody 
not in a real name or otherwise violating our transparency 
requirements, we would simply remove it.
    Mr. Pickles. We have a clear policy on affiliated behavior, 
so activity affiliated with an entity we have already removed. 
As I said, we have removed millions of tweets connected with 
the Internet Research Agency. We would remove any activity 
affiliated with that organization.
    Mr. Slater. Thank you for the question. It is a critical 
issue. I think we would evaluate such a video under our 
policies, including our deceptive practices policies, and look 
as we would at any sort of foreign interference.
    Ms. Clarke. Thank you very much.
    Mr. Chairman, I yield back.
    I look forward to talking to you further about this, 
because we have to get to that sweet spot, and we are not 
there, it is very clear from your testimony.
    Chairman Thompson. Thank you.
    The Chair recognizes----
    Ms. Clarke. Thank you, Mr. Chairman.
    Chairman Thompson [continuing]. The gentlelady from 
Arizona, Mrs. Lesko, for 5 minutes.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Years ago, required reading I had was the book ``1984.'' 
This committee hearing is scaring the heck out of me, I have to 
tell you. It really is. Because here we are talking about, you 
know, if somebody googles ``vaccines,'' the answer was, ``Oh, 
we are going to put above what the person is actually looking 
for what we think is best.'' Who are the people judging what is 
best, what is accurate?
    This is really scary stuff and really goes to the heart of 
our First Amendment rights. So I don't always agree with the 
ACLU--and you are the past president of ACLU, Ms. Strossen, but 
I agree with you wholly on this.
    We have to be very careful, my colleagues, on this. Because 
what you deem as inaccurate I do not deem as inaccurate or 
other people may not deem. In a previous briefing on this 
issue, one of the Members said, ``Well, I think President 
Trump's tweets incite terrorism.'' Well, are we now going to 
ban what President Trump says because somebody thinks that it 
incites terrorism?
    This is some really scary stuff, and I am very concerned. I 
am glad I am part of this, because, boy, we need more of us 
standing up for our rights, whether it is what you believe or 
what I believe.
    I have a specific question, and this is to Mr. Slater.
    In this Project Veritas video, which I did watch last 
night, they allege that there are internal Google documents, 
which they put on the video, and this is what it said:
    ``For example, imagine that a Google image query for `CEOs' 
shows predominantly men. Even if it were a factually accurate 
representation of the world, it would be algorithmic 
unfairness. In some cases, it may be appropriate to take no 
action if the system accurately reflects current reality, while 
in other cases it may be desirable to consider how we might 
help society reach a more fair and equitable state via product 
intervention.''
    What does that mean, Mr. Slater?
    Mr. Slater. Thank you, Congresswoman, for the question.
    I am not familiar with the specific slide, but I think what 
we are getting at there is, when we are designing our products, 
again, we are designing for everyone. We have a robust set of 
guidelines to ensure we are providing relevant, trustworthy 
information. We work with a set of raters around the world, 
around the country, to make sure that those search rater 
guidelines are followed. Those are transparent and available 
for you to read on the web.
    Mrs. Lesko. All right. Well, I personally don't think that 
answered the question at all, but let me go to the next one.
    You asked, Mr. Clay Higgins, a specific example. So, Mr. 
Slater, he was talking about Prager University. I just 
googled--and I used Google--on ``Prager University,'' and it 
came up. On the Prager University website, it says, 
``Conservative ideas are under attack. YouTube does not want 
young people to hear conservative ideas. Over 10 percent of our 
entire library is under `restricted mode.' ''
    Why are you putting Prager University videos about liberty 
and those type of things on restricted mode?
    Mr. Slater. Thank you, Congresswoman. I appreciate the 
question.
    To my knowledge, Prager University is a huge success story 
on YouTube, with millions of views, millions of subscribers, 
and so on. Remains so to this day.
    There is a mode that users can choose to use called 
``restricted mode,'' where they might restrict the sorts of 
videos that they see. That is something that is applied to many 
different types of videos from across the board, consistent not 
with respect to political viewpoints but applied to, for 
instance, ``The Daily Show,'' other sorts of channels as well.
    To my knowledge, it has been applied to a very small 
percentage of those videos on Prager University. Again, that 
channel has been a huge success story, I think, with a huge 
audience on YouTube.
    Mrs. Lesko. Mr. Pickles, regarding Twitter, President Trump 
has said, I think on multiple occasions, that--he has accused 
Twitter of, you know, people having a hard time--being deleted 
from followers. This actually happened to my husband. He 
followed Donald Trump, and then, all of a sudden, it was gone.
    So can you explain that? What is happening there? Why does 
that happen? Because I tell you, a lot of conservatives really 
think there is some conspiracy going on here.
    Mr. Pickles. Well, I can certainly look into the case of 
your husband to make sure there wasn't an issue there.
    What I can say is that President Trump is the most followed 
head of state anywhere in the world. He is the most talked-
about politician anywhere in the world on Twitter. Although he 
did lose some followers when we recently undertook an exercise 
to clean up compromised accounts, President Obama lost far more 
followers in the same exercise.
    So I think people can look at the way that people are 
seeing President Trump's tweets widely and be reassured that 
the issues that you are outlining there are not representative 
in Twitter's approach.
    Mrs. Lesko. Mr. Chairman, I ran out of time, but if we have 
another round, I really want to hear from Ms. Strossen. I want 
to hear her views, because she hasn't had a lot of time to 
speak, so I hope some of my fellow colleagues ask her.
    Thank you.
    Ms. Strossen. Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan, for 5 minutes.
    Ms. Barragan. Thank you very much, Mr. Chairman.
    This is for Ms. Bickert, Mr. Pickles, and Mr. Slater. I 
want to talk a little bit about your relationship with civil 
society groups that represent communities targeted by terrorist 
content, including white supremacist content. I am specifically 
referring to content that targets religious minorities, ethnic 
minorities, immigrants, LGBTQ, and others.
    Can you help by describing your engagement with civil 
society groups in the United States to understand the issues of 
such content and develop standards for combating this content?
    Ms. Bickert. Thank you for the question, Congresswoman.
    Yes, any time that we are evolving our policies, which we 
are doing constantly, we are reaching out to civil society 
groups, not just in the United States but around the world. I 
have a specific team under me, actually, called Stakeholder 
Engagement. That is what they do.
    When they are doing this, one of their jobs is to make 
sure--let's say we are looking at our hate speech policies. One 
of their jobs is to make sure that we are talking to people 
across the spectrum, so different groups that might be affected 
by the change, people who will have different opinions. All of 
those people are brought into the conversation.
    Mr. Pickles. Well, similarly, we have teams around the 
world who are speaking to civil society groups every day. 
Something we are also doing is training them, and I think it is 
really important. Because Twitter is a unique public platform 
and a public conversation, when people actually challenge 
hatred and offer a counternarrative, offer a positive 
narrative, their views can be seen all over the world.
    So, you know, ``Je Suis Charlie'' was seen all over the 
world after an attack in Paris. Similarly, after Christchurch, 
``Hello Brother,'' or even ``Hello Salam,'' which was a 
gentleman in Kenya who challenged a terrorist who was trying to 
separate Christians and Muslims.
    So we talk to civil society groups both about our policies 
but also how they can use our platform more to reach more 
people with their messages.
    Ms. Barragan. OK.
    Then, Mr. Slater, before you start, because I want to make 
sure you incorporate this, one of my concerns is the onus to 
report the hateful content is placed on the very communities 
that are targeted by the hateful content. That can make social 
media platforms hostile places for people in targeted 
communities. So can you also tell us what your companies are 
doing to alleviate this burden?
    So Mr. Slater, and then I would like to hear from the two 
of you on that.
    Mr. Slater. Sure.
    Speaking of how we enforce our community guidelines, 
including against hate speech, including, again, as we said, we 
have updated our hate speech policies to deal with people 
expressing superiority to justify discrimination and so on. We 
use a combination of machines and people--machines to scan 
across for broad patterns and so on, compared to previous 
violative content.
    So we do take our responsibility here very seriously, our 
ability to detect that first, review it before it has been 
flagged. You know, we are making great strides in that.
    We also do rely on flags from users, as well as flags from 
trusted flaggers--that is, civil society groups, other experts, 
who we work with very closely both in the development of our 
policies and then again in flagging those sorts of videos.
    Ms. Barragan. Yes.
    So, just to the two of you, about the burden?
    Mr. Pickles. This is something that we have said 
previously; there was too much burden on victims. A year ago, 
20 percent of the abuse we removed was surfaced proactively. 
That is now 40 percent. So, in a year, we have been able to 
double the amount of content that we find proactively without 
waiting for a victim to review it. We are continuing to invest 
to raise that number further.
    Ms. Barragan. Can the three of you provide an example where 
you had community engagement and, because of that feedback, 
there was a policy change that you made?
    Mr. Pickles. Let me share a slightly different example, 
which is how we write a better policy to prevent that.
    So, when we were crafting a policy on nonconsensual 
intimate imagery, that covers not just media shared by an ex-
partner, but it might share creep shots, which I think have 
been--so various countries start asking, do you have a policy 
on creep shots? Because we had spoken to those very civil 
society groups, our policy from the beginning was reaching 
broadly enough to capture not just the original problem but all 
those different issues.
    Ms. Barragan. Ms. Bickert.
    Ms. Bickert. Yes. Let me address the second question that 
you asked about, putting the burden on the victims.
    We have invested a lot in artificial intelligence. So there 
are certain times when artificial intelligence has really 
helped us and other areas where it is very much in its infancy. 
With hate speech, over the past few years, we have gone from 
zero proactive detection to now, in the first quarter of this 
year, the majority of content that we are removing for 
violating our hate speech policies we are finding using 
artificial intelligence and other technology.
    So huge gains there. There is still a long way to go 
because all of those posts, after they are flagged by 
technology, have to be reviewed by real people who can 
understand the context.
    Ms. Barragan. Right.
    Ms. Bickert. In terms of where our engagement has led to 
concrete changes, one thing I would point to is the use of hate 
speech in imagery. The way that we originally had our policies 
on hate speech, it was really focused on what people were 
saying in text. It was only through working with civil society 
partners that we were able to see how we needed to refine those 
policies to cover images too.
    Another thing I would point to is, a lot of groups told us 
it was hard to know exactly how we defined hate speech and 
where we drew the line. That was a contributing factor, among 
many others, in why a couple years ago we published a very 
detailed version of our community standards, where now people 
can see exactly how we define hate speech and how we implement 
it.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you for some of the thoughtful discussion on how you 
combat terrorism on-line. I think there are worthy debates to 
be had there. There are good questions on whether, you know, 
some of this content provides education so that we know of the 
bad things out there or whether it is radicalizing people. 
Those are hard discussions to have, and I don't know that we 
are going to solve them today.
    But the problem is that the testimony doesn't stop there; 
the policies at your social media companies do not stop there. 
It doesn't stop with the clear-cut lines of terrorism and 
terrorist videos and terrorist propaganda. Unfortunately, that 
is not exactly what we are talking about. It goes much further 
than that. It goes down the slippery slope of what speech is 
appropriate for your platform and the vague standards that you 
employ in order to decide what is appropriate.
    This is especially concerning given the recent news and the 
recent leaked emails from Google. They show that labeling 
mainstream conservative media as ``Nazis'' is a premise upon 
which you operate. It is not even a question, according to 
those emails. The emails say, given that Ben Shapiro, Jordan 
Peterson, and Dennis Prager are Nazis, given that that is a 
premise, what do we do about it?
    Two of three of these people are Jewish, very religious 
Jews, and yet you think they are Nazis. It begs the question, 
what kind of education do people at Google have so they think 
that religious Jews are Nazis?
    Three of these people had family members killed in the 
Holocaust. Ben Shapiro is the No. 1 target of the alt-right, 
and yet you people operate off the premise that he is a Nazi. 
It is pretty disturbing.
    It gets to the question, do you believe in hate speech--how 
do you define that? Can you give me a quick definition right 
now? Is it written down somewhere at Google? Can you give me a 
definition of hate speech?
    Mr. Slater. Congressman, yes. So hate speech, again, as 
updated in our guidelines, now extends to superiority over 
protected groups that justify discrimination, violence, and so 
on based on a number of defining characteristics, whether that 
is race, sexual orientation, veteran status----
    Mr. Crenshaw. Do you have an example of Ben Shapiro or 
Jordan Peterson or Dennis Prager engaging in hate speech? Do 
you have one example off the top of your head?
    Mr. Slater. So, Congressman, we evaluate individual pieces 
of content based on that content rather than based on the 
speaker.
    Mr. Crenshaw. OK. Let's get to the next question. Do you 
believe speech can be violence? All right, now, not can you 
incite violence; that is very clearly not protected. But can 
speech just be violence? Do you believe that speech that isn't 
specifically calling for violence can be labeled violence and, 
therefore, harmful to people? Is that possible?
    Mr. Slater. Congressman, I am not sure I fully understand 
the distinction you are drawing. Certainly, again, incitement 
to violence or things that are----
    Mr. Crenshaw. Right.
    Mr. Slater [continuing]. Encouraging dangerous behavior, 
those are things that would be against our policies.
    Mr. Crenshaw. Here is the thing. When you call somebody a 
Nazi, you can make the argument that you are inciting violence, 
and here is how. As a country, we all agree that Nazis are bad. 
We actually invaded an entire continent to defeat the Nazis. It 
is normal to say hashtag-punch-a-Nazi, because there is this 
common thread in this country that they are bad and that they 
are evil and that they should be destroyed.
    So, when you are operating off of that premise--and, 
frankly, it is a good premise to operate on--well, what you are 
implying, then, is that it is OK to use violence against them. 
When you label them, one of the most powerful social media 
companies in the world, labels people as Nazis, you can make 
the argument that is inciting violence. What you are doing is 
wholly irresponsible.
    It doesn't stop there. A year ago, it was also made clear 
that your fact-check system is blatantly targeting conservative 
newspapers. Do you have any comments on that? Are you aware of 
the story I am talking about?
    Mr. Slater. I am not familiar with necessarily the specific 
story, Congressman. I am aware that, from all political 
viewpoints, we sometimes get questions of this sort. I can say 
that our fact-check labels generally are done algorithmically 
based on a markup and follow our policies----
    Mr. Crenshaw. For the record, they specifically target 
conservative news media. Oftentimes they don't even--they have 
a fact-check on there that doesn't even reference the actual 
article, but Google makes sure that it is right next to it so 
as to make people understand that that one is questionable, 
even though, when you actually read through it, it has nothing 
to do with it.
    You know, a few days ago--and this goes to you, Ms. 
Bickert--one of my constituents posted photos on Facebook of 
Republican women daring to say that there are women for Trump. 
Facebook took down that post right away, with no explanation. 
Is there any explanation for that?
    Ms. Bickert. Without seeing it, it is hard for me to opine. 
That doesn't violate our policies. But I am happy to follow up 
on the specific example with you.
    Mr. Crenshaw. Thank you.
    Listen, here is what it comes down to. If we don't share 
the values of free speech, I am not sure where we go from here. 
You know, this practice of silencing millions and millions of 
people, it will create wounds and divisions in this country 
that we cannot heal from.
    This is extremely worrisome. You have created amazing 
platforms; we can do amazing things with what these companies 
have created. But if we continue down this path, it will tear 
us apart.
    You do not have a Constitutional obligation to enforce the 
First Amendment, but I would say that you absolutely have an 
obligation to enforce American values. The First Amendment is 
an underpinning of American values that we should be protecting 
until the day we die.
    Thank you.
    Thank you for indulging me, Mr. Chairman.
    Chairman Thompson. Thank you.
    Ms. Strossen, the Chair is going to take prerogative and 
allow you to make a comment if you would like.
    Ms. Strossen. Oh, thank you so much for protecting my free-
speech rights, Mr. Chairman.
    The main point that I wanted to make is that, even if we 
have content moderation that is enforced with the noblest 
principles and people are striving to be fair and impartial, it 
is impossible. These so-called standards are irreducibly 
subjective. What one person's hate speech is--and an example 
was given by Congressman Higgins--is somebody else's cherished, 
loving speech.
    For example, in European countries, Canada, Australia, New 
Zealand, which generally share our values, people who are 
preaching religious texts that they deeply believe in and are 
preaching out of motivations of love are prosecuted and 
convicted for engaging in hate speech against LGBTQ people. 
Now, I obviously happen to disagree with those viewpoints, but 
I absolutely defend their freedom to express those viewpoints.
    At best, these so-called standards--and I did read every 
single word of Facebook's standards. The more you read them, 
the more complicated it is. No two Facebook enforcers agree 
with each other, and none of us would either.
    So that means that we are entrusting to some other 
authority the power to make decisions that should reside in 
each of us as individuals, as to what we choose to see and what 
we choose not to see and what we choose to use our own free-
speech rights to respond to.
    On that, I think these platforms have--I cannot agree more 
about the positive potential, but we have to maximize that 
positive potential through user empowerment tools, through 
radically increased transparency.
    One of the problems of this----
    Chairman Thompson. I am not going to limit your speech; I 
am going to limit your time.
    Ms. Strossen. Thank you.
    Chairman Thompson. Congressman Correa for 5 minutes.
    Mr. Correa. Thank you, Chairman Thompson and the Ranking 
Member, for holding this very critical hearing on very 
interesting, very important issues.
    I want to turn a little bit to the Russian interference in 
2016. The Mueller report outlines indictment of 13 Russians, 3 
companies for conspiring to subvert our election system. In 
2018, we saw indications that, again, Russians were at it 
again. In 2020, former Secretary of Homeland Security Nielsen, 
before she was resigned--she resigned--brought up the fact that 
the Russians were at it for 2020 again. There are other 
countries also trying to affect our election system.
    So I am hearing your testimony, and my question, of course, 
Ms. Strossen, addressing the issue of First Amendment: Does the 
First Amendment cover fake videos on-line?
    We talked a little bit about the Pelosi fake video, and 
maybe you say ``yes.'' I probably say ``probably not.'' I will 
tell you why. Because that is a damaging video with false 
content. Although you may be private companies, when I hear my 
children tell me, I saw it on this platform, the assumption is 
that it is factual.
    Ms. Bickert, it took you 24 hours to take that video down. 
The others didn't take it down.
    You are essentially a messenger, and when your information 
shows up on-line, this population believes that you are 
credible and that the information on there is probably credible 
too. That is what is damaging to our country, to our democracy.
    Moving forward, we have another election happening now, and 
if this information continues to be promulgated through your 
social media, through your companies, we have a First Amendment 
issue, but we have an issue, also, of democracy and keeping it 
whole.
    Any thoughts?
    Ms. Bickert.
    Ms. Bickert. Thank you for the question, Congressman.
    We share the focus on making sure that we are ready----
    Mr. Correa. Twenty-four hours is not fast enough. So are we 
playing here defense or offense? Are we reacting? Are you being 
proactive so the next Nancy Pelosi video is something you can 
take down essentially faster than 24 hours?
    Ms. Bickert. Congressman, we are being proactive. I do 
agree that there is a lot that we can do to get faster.
    Our approach when there is misinformation is making sure 
that people have the context to understand it. We don't want 
people seeing it in the abstract. We want to make sure we are 
informing people, and we have to do so quickly. So that is 
something that we are focused on getting better at.
    Mr. Correa. So let me ask you something. On the Pelosi 
video, who put it up?
    Ms. Bickert. It was uploaded by a regular person with a 
regular account.
    Mr. Correa. So somebody at home with some very smart 
software and a good platform was able to put together a fake 
video and put it up.
    Ms. Bickert. Congressman, the technique that was used was 
to slow down the audio, which is the same thing we see a lot of 
comedy shows, frankly, do----
    Mr. Correa. OK.
    Ms. Bickert [continuing]. With a lot of politicians----
    Mr. Correa. So what were the consequences to this 
individual for putting up essentially a video of somebody, 
defaming, you know, hurting her reputation?
    Ms. Bickert. Congressman, that video--our approach to 
misinformation is we reduce the distribution, and then we put 
content from fact-checkers next to it so that people can 
understand that the content is false or has been manipulated.
    Mr. Correa. Mr. Pickles.
    Mr. Pickles. Well, one of the things we talked about 
earlier was how to provide context to users. So our focus now 
is developing----
    Mr. Correa. Well, are your policies changing so that you 
will be able to take it down next time, or are you just going 
to let it ride?
    Mr. Pickles. Well, we are looking at all of our policies in 
this area.
    Mr. Correa. Are you going to look at taking it down, or are 
you going to let it ride? A ``yes'' or a ``no.''
    Mr. Pickles. Well, I think we are looking at both how do 
you give more----
    Mr. Correa. Mr. Slater, what are you going to do?
    I didn't get an answer.
    Mr. Slater, what are you going to do next time you see a 
video like this?
    Mr. Slater. With respect to that video, to be clear, we 
took it down, under our deceptive practices policy.
    Mr. Correa. Ms. Strossen, not to, you know, violate your 
freedom of speech here, do you think these false videos on-line 
are Constitutionally protected?
    Ms. Strossen. There is a very strict definition of false 
speech that is Constitutionally unprotected. The Supreme Court 
has repeatedly said that blatant, outright lies are 
Constitutionally protected unless----
    Mr. Correa. So let me switch in my 7 seconds I have left. 
Will you write policy so outright lies do not have the 
devastating effect on our voters that they had in the 2016 
election?
    Mr. Pickles. As I said, we are looking at the whole issue.
    Mr. Correa. Thank you.
    Ms. Bickert, Mr. Slater, any thoughts?
    Ms. Bickert. We, too, Congressman, are making sure that we 
have the right approach for the election.
    Mr. Correa. Thank you.
    Mr. Slater.
    Mr. Slater. Absolutely. We want to raise up authoritative 
content, reward it, and then demote borderline content, harmful 
misinformation, and remove violative content.
    Ms. Strossen. If I may say, this is exactly the reason why 
President Trump wants to change the libel laws, because it is 
now legal to lie about politicians and Government officials.
    Mr. Correa. Maybe there is an area we will work together on 
some issues, huh?
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Thank you for being here. This has been very informative.
    Let me ask you a really quick question, ``yes'' or ``no.'' 
The GIFCT--is that right?--GIFCT, your collaboration, does 
keeping your trade secrets secret interfere with your sharing 
standards and, you know, working together to----
    Mr. Pickles. I don't----
    Mrs. Watson Coleman. ``Yes'' or ``no''?
    Mr. Pickles. I don't think it has to, no.
    Mrs. Watson Coleman. OK.
    I know you use this platform for terrorism. Do you use that 
platform at all for, sort-of, hate groups?
    Mr. Pickles. Not at present, but, certainly, after New 
Zealand, that highlighted that we do need to broaden our 
approach to different issues.
    Mrs. Watson Coleman. Uh-huh.
    So, in my briefing, dog whistling has been mentioned as a 
certain kind of political messaging strategy that employs coded 
language to send a message to certain groups that flies under 
the radar. It is used by white supremacist groups often. It is 
rapidly evolving on social media platforms and has its--a space 
and targeting of racism and other sort-of -isms that we find 
abhorrent in this country.
    How do you solve the challenge of moderating dog-whistle 
content on your platform, especially when it is being used to 
encourage these -isms that we abhor so much?
    Mr. Pickles. I am happy to start and then let others 
finish.
    Mrs. Watson Coleman. I would--yes. I will take 1, 2, 3.
    Mr. Pickles. Well, first, we enforce our rules, and one of 
the things that our rules are is about behavior. So, if you are 
targeting somebody because of their membership of a protected 
characteristic, that is the important factor. The words come 
secondary.
    GIFCT has an entire stream of research, and one of the 
reasons for having that research stream is so that we can 
investigate what are the latest trends, what are the things we 
need to be learning about those kind of terms.
    Then, finally, when we see, whether it is different kinds 
of extremist groups, speaking for Twitter, we have banned more 
than 180 groups from our platform for violent extremism across 
the spectrum, both in the United States and globally.
    So we have a policy framework and also the industry 
sharing.
    Mrs. Watson Coleman. Thank you.
    Ms. Bickert. Thank you, Congresswoman.
    I would echo that a lot of this is about getting to the 
groups. We do have a hate speech policy, but, beyond that, we 
know that sometimes there are groups that are just engaging in 
bad behavior. So we ban not only violent groups but also white 
supremacist groups and other hate groups. We have removed more 
than 200 of them from our platform to date.
    Mr. Slater. Thank you for the question.
    We do, as I said, remove hate speech on our platform. The 
sort of concerns you are talking about is what motivated the 
more recent changes.
    We also recognize that things may brush up against those 
policies, be borderline, but not quite cross them. For those, 
we do work to reduce, demote them in the frequency and 
recommendations and so on.
    Ms. Strossen. Congresswoman, if I could have just 10 
seconds----
    Mrs. Watson Coleman. I am going to ask you a question, so 
you can have a little bit more than that.
    Ms. Strossen. Thank you.
    Mrs. Watson Coleman. This is a very quick question. Ms. 
Bickert, did you bring any staff here with you today, any 
employees from your----
    Ms. Bickert. Yes, we did.
    Mrs. Watson Coleman. Could you please have them stand up?
    For those that have accompanied Ms. Bickert, could you 
please stand up?
    Two.
    Thank you very much.
    Mr. Pickles, you?
    Mr. Pickles. Yes.
    Mrs. Watson Coleman. Thank you.
    Mr. Slater.
    Thank you very much.
    A couple of things that you mentioned. You talked about 
making sure that the people are real and that they are American 
when they are going to do advertising. You said we are going to 
send information to you, you have to send it back, and it just 
simply proves that you are maybe pretending to be an American 
living--and really living here or having a domicile here, an 
address here, still doesn't necessarily guarantee that they are 
legitimate. So that is a challenge, I think, that we might 
have.
    Is that understandable, Mr. Slater, or am I confusing you?
    Mr. Slater. If you could clarify the question, I would 
appreciate it.
    Mrs. Watson Coleman. It is not a question; it is a 
statement. We were talking earlier about making sure that 
people who are doing political advertising, et cetera, are not 
foreign nationals, that they are Americans. Did we not have 
this discussion about this advertising? It was stated by 
somebody there--thank you.
    Ms. Bickert. That's right.
    Mrs. Watson Coleman [continuing]. That you do verification 
to make sure that the person is an American, does live in 
America, and isn't this false whatever coming from another 
nation. I said, that really doesn't necessarily prove that, as 
far as I am concerned.
    Ms. Bickert. Congresswoman, just to clarify, that is 
Facebook's approach. We do verify----
    Mrs. Watson Coleman. Right. I have to give her the 10 
percent. I have to give her the----
    Ms. Bickert. Oh, sorry. We also--we look at a Government 
ID.
    Mrs. Watson Coleman. Because my question to you is, are 
there trigger words that come out of some of this speech that 
you think should be protected that needs to be taken down 
because it incites?
    Ms. Strossen. All of them, it is a problem.
    I wanted to give an example from a story in Bloomberg News 
today that talked about YouTube's recent new policy of 
broadening the definition of unprotected hate speech. On the 
very first day that it went into effect, one of the people that 
was suppressed was an on-line activist in the United Kingdom 
against anti-Semitism. But, in condemning anti-Semitism, he 
was, of course, referring to Nazi expression and Nazi insignia, 
and, hence, he was kicked off.
    Mrs. Watson Coleman. So there are no trigger words. It 
seems to me that--I think it was Mr. Pickles. Did you do the 
definition of hate speech for us earlier?
    Mr. Pickles. That was the hateful conduct under Twitter's--
--
    Mrs. Watson Coleman. Yes. I think that that probably covers 
the President of the United States of America, unfortunately.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
New York, Mr. Rose, for 5 minutes.
    Mr. Rose. Mr. Chairman, thank you.
    Thank you all for being here.
    Two months ago, in the immediate aftermath of the 
Christchurch incident, we sent out a letter to you all, asking, 
how much money are you spending on counterterrorist screening, 
and how many people do you have allocated to it? We have had 
interesting conversations over those ensuing months.
    The 3 basic problems that you have brought to me are that, 
No. 1, that oversimplifies it because there is also an AI 
component to this. Well, yesterday, we did a hearing that 
showed AI alone cannot solve this, impossible, and not into the 
future. You all agree with that.
    The second thing, though, that you have all said to me is 
that this is a collective action problem, we are all in this 
together, and we have the GIFCT. So I have some very basic 
questions about the GIFCT. I would appreciate it if you could 
just immediately answer ``yes'' or ``no,'' and then we can get 
into the details.
    First question: Does the GIFCT have any full-time 
employees?
    Ms. Bickert. Does the GIFCT have a full-time employee 
dedicated to it to run it?
    Ms. Bickert. No. We have people at Facebook full-time 
dedicated to GIFCT.
    Mr. Rose. OK.
    Mr. Pickles. The same. We have people at Twitter working 
with GIFCT, but we don't have--GIFCT doesn't have staff.
    Mr. Rose. OK.
    Mr. Slater. Yes, our answer is the same.
    Mr. Rose. Does the GIFCT have a brick-and-mortar structure? 
If I want to go visit the GIFCT, could I do so?
    Ms. Bickert.
    Ms. Bickert. No, Congressman.
    Mr. Rose. OK.
    Ms. Bickert. We do host the database physically at 
Facebook.
    Mr. Rose. OK.
    Mr. Pickles.
    Mr. Pickles. No. Our collaboration is 4 companies working 
together. We meet in person; we have virtual meetings. It is 
about collaboration, not about a physical building.
    Mr. Rose. OK.
    Mr. Slater.
    Mr. Slater. That is right. Nothing further to add.
    Mr. Rose. So no brick-and-mortar structure, but I presume 
you have a Google Hangout or maybe a Facebook hangout. I don't 
know how you would decide that.
    But Adhesive and Sealant Council, an association located in 
Bethesda, Maryland, at the Adhesive and Sealant Council, it has 
5 full-time staff, it has a brick-and-mortar structure. You all 
cannot get your act together enough to dedicate enough 
resources to put full-time staff under a building dealing with 
this problem.
    I think it speaks to the ways in which we are addressing 
this with this technocratic, libertarian elitism. All the 
while, people are being killed. All the while, there are things 
happening that are highly preventable.
    AI. Are there any AI systems that any of you all have that 
are not available to the GIFCT?
    Ms. Bickert. Congressman, yes, depending on how our 
products work. They all work differently, so artificial 
intelligence works differently.
    What we have--and we actually worked for some time on doing 
this. We had to come up with one common technical solution that 
everybody could use. We now have that for videos, and we do 
give it for free to smaller companies. But that is but one 
technique we have.
    Mr. Rose. OK.
    Please, just keep it--I just want to know if you have any 
AI not--that the GIFCT doesn't have, though.
    Mr. Pickles. Well, I would also say that this isn't just 
AI. That is why we share URLs--very low-tech, lo-fi. But if you 
are a small company and someone gives you a URL to content, you 
don't need AI to look at that. So I think that is why it is a 
combination solution.
    Mr. Rose. Uh-huh.
    Mr. Slater. Nothing further to add to those comments.
    Mr. Rose. OK.
    My understanding is that there were no officially declared 
POCs for the GIFCT that were made public from each company 
until after the Christchurch shooting. I know that they were 
there, but they were not declared established POCs at each of 
your companies until after the Christchurch shooting 2 months 
ago. Is this the case?
    Ms. Bickert. Congressman, we have a channel that people can 
use that gets routed to whoever is on-call from our team.
    Mr. Rose. But is that the case, that there were no 
established POCs--and this is the information you all have 
given me already; I am just asking you to put it on the 
record--no established POCs at the GIFCT until after the 
Christchurch shooting? Is that correct?
    Ms. Bickert. Perhaps not publicly listed, but certainly 
people know who to call----
    Mr. Rose. No established public POCs until after the 
Christchurch shooting.
    Mr. Pickles. Well, I would draw a distinction between the 
POCs and the companies. We work together every week, every day. 
I think the point you are getting at is crisis response is----
    Mr. Rose. I am getting to the fact that you are not taking 
it seriously, because there is no public building, there is no 
full-time staff, there were no public POCs until after the 
Christchurch shooting.
    Mr. Pickles. Well, I think----
    Mr. Rose. That is what I am speaking to. How is anyone 
supposed to think that you all take this collective action 
problem seriously if you have no one working on it full-time?
    This is not something that technology alone can solve. This 
is a problem that we are blaming the entire industry for, 
rightfully so. There are the smallest of associations in this 
town and throughout the country that do so much more than you 
do.
    It is insulting--it is insulting that you would not at 
least apologize for saying that there were no established POCs 
prior to the Christchurch shooting. It was a joke of an 
association, it remains a joke of an association, and we have 
got to see this thing dramatically improved.
    Last, if there were terrorist content shown to be on your 
platforms by a public entity, would you take it down?
    So, Ms. Bickert, why when the whistleblower association 
reveals that you Facebook is establishing through its AI 
platform al-Qaeda community groups, such as this one, a local 
business, al-Qaeda in the Arabian Peninsula, with 217 
followers--I have it right here on my phone--by the 
whistleblower association. It is considered the most active of 
al-Qaeda's branches, or franchises, that emerged due to 
weakening central leadership. It is a militant Islamist 
organization primarily active in Yemen and Saudi Arabia. Why is 
this still up?
    We have every right right now to feel as if you are not 
taking this seriously. By ``we,'' I do not mean Congress; I 
mean the American people.
    Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Demings, for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    We have already talked about the massacre at Christchurch, 
and we also know that it was law enforcement who notified 
Facebook about what was going on.
    Ms. Bickert, I would like to know if you could talk a 
little bit about your working relationship with law enforcement 
and share some of the specific things that you are doing to 
further enhance your ability to work with law enforcement to 
continue to work to prevent incidents like this from happening 
again.
    Ms. Bickert. Thank you, Congresswoman.
    We have a special point of contact from our law enforcement 
engagement team, so people from within our company, usually 
former law enforcement, who are assigned to each company. Those 
relationships are well-functioning and are the reason that New 
Zealand law enforcement were able to reach out to us. Once they 
did, within minutes----
    Mrs. Demings. You surely believe that they would have been 
able to reach out to you if you didn't have a law enforcement 
team, right? Wouldn't that have been part of their 
responsibility, any law enforcement agency that saw what was 
happening live on your platform, to notify you?
    Ms. Bickert. Congresswoman, we want to make it very easy, 
if they see something, that they know exactly where to go.
    It is also a reason--so, here, with New Zealand, when they 
reached out to us, we responded within minutes. We also have an 
on-line portal through which they can reach us, and that is 
manned 24 hours a day. So if there is any kind of an emergency, 
we are on it.
    Finally, if we see that there is an imminent risk of harm, 
we proactively reach out to them.
    I will also tell you, any time that there is a terror 
attack or some sort of mass violence in the world, we 
proactively reach out to law enforcement to make sure that if 
there are accounts we should know about or names of victims, 
any sort of action that we should be taking, that we are on it 
immediately.
    Mrs. Demings. OK.
    Moving right along, Mr. Pickles, you said that we will not 
solve the problems by moving content alone. Is that correct, 
what you said?
    Mr. Pickles. Yes.
    Mrs. Demings. OK. I know that most companies do a pretty 
good job in terms of combating or fighting child exploitation 
or pornography. I would just like to hear you talk a little bit 
about your efforts to combat terrorism and share some of the 
similarities. Because we can't solve the problems by just 
taking down the content alone.
    So if you could just show some of the similarities in terms 
of your efforts of combating terrorism along with your efforts 
to combat child pornography. I know you put a lot of resources 
in combating child pornography, rightfully so. But could you 
talk about the similarities in the two goals?
    Mr. Pickles. Absolutely. There are similarities and 
differences. In the similarities space, we are able to use 
similar technology to look for an image we have seen before. If 
that appears again, we can proactively detect that image and 
stop it being distributed and then, critically, work with law 
enforcement to bring that person to--so we work with the 
National Center for Missing and Exploited Children, who work 
with law enforcement around the world.
    So that process of discovering content, working with law 
enforcement is seamless. Because I think, particularly for 
child sexual exploitation but also for violent threats, we----
    Mrs. Demings. So what about for----
    Mr. Pickles [continuing]. We need people----
    Mrs. Demings [continuing]. Combating terrorism?
    Mr. Pickles. So I think, in either case, if someone is 
posting that content, removing the content is our response, but 
there is a law enforcement response there, as well, which holds 
people to account, potentially prosecutes them for criminal 
offenses. And that working in tandem between the two is very 
important.
    We have a similar industry body that shares information. We 
also work with governments to share threat intelligence and 
analysis of trends so that we can make sure we are staying 
ahead of bad actors.
    But the biggest area of similarity is, the bad actors never 
stay the same. They are constantly evolving. So we have to 
constantly be looking for the next opportunity to improve----
    Mrs. Demings. OK. All right. Thank you.
    At the beginning of this conversation, the Chairman asked a 
question about--or referenced the video of the Speaker and why 
some of you removed it and some did not.
    Mr. Slater, I was so pleased to hear your answer, which 
was--you look for deceptive practices? If it was deceptive, you 
removed it, correct?
    Could you just talk a little bit more about--it seemed like 
such a--and, Ms. Strossen, I believe you said that the social 
media platforms' free-speech right is their ability to decide 
what is posted and what is not posted.
    Ms. Strossen. Exactly.
    Mrs. Demings. It is just that simple, right? They can 
decide what is posted and what is not posted.
    So, Mr. Slater, if you could just talk a little bit about 
your process, and it was deceptive, you took it down.
    Mr. Slater. I would be happy to, Congresswoman. It is an 
important question.
    We have community guidelines. One of those guidelines is 
about deceptive practices. We review each bit of content 
thoroughly to make sure whether it is violative or whether it 
may fit into an exception--education, documentary, and so on 
and so forth--and do that on an individualized basis to see if 
the context has been met.
    We present those guidelines publicly on our website for 
anyone to read.
    Mrs. Demings. Thank you very much.
    Mr. Chair, I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Taylor, 
for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    Just a quick question. So is Google an American company?
    Mr. Slater. Congressman, we are headquartered in 
California, yes.
    Mr. Taylor. Are you loyal to the American Republic? I mean, 
is that something you think about? Or do you think of 
yourselves as an international company?
    Mr. Slater. We build products for everyone. We have offices 
all across this country, have invested heavily in this country, 
and are proud to be founded and headquartered in this country.
    Mr. Taylor. So, if you found out that a terrorist 
organization was using Google products, would you stop that? 
Would you end that?
    Mr. Slater. We have a policy, Congressman, of addressing 
content from designated terrorist organizations, to prohibit 
it, make sure it is taken down.
    Mr. Taylor. I am not asking about content. I am saying, if 
you found that al-Nusrah terrorist organization was using Gmail 
to communicate inside that terrorist organization, would you 
stop that? Do you have a policy on that?
    If you don't have a policy, that is fine. I am just trying 
to--where are you on this?
    Mr. Slater. Certainly. Where appropriate, we will work with 
law enforcement to provide information about relevant threats, 
illegal behavior, and so on. Similarly, we will respond to 
valid requests for information from law enforcement.
    Mr. Taylor. I am not asking if you respond to subpoenas. I 
appreciate that. It is good to hear that you deign to be legal.
    What I am asking is, if a terrorist organization uses a 
Google product and you know about that, do you allow that to 
continue? Or do you have a policy?
    Mr. Slater. Under the appropriate circumstances and where 
we have knowledge, we would terminate a user and provide 
information to law enforcement.
    Mr. Taylor. OK. So you will forgive me for not--your answer 
is a little opaque. I am still trying to figure this out.
    So, if a terrorist organization is using a Google product, 
do you have a policy about what to do about that?
    Mr. Slater. Thank you, Congressman. I am attempting to 
articulate that policy. I would be happy to come back to you 
with further information if it is unclear.
    Mr. Taylor. OK. Do----
    Mrs. Demings. Would the gentleman yield?
    Mr. Taylor. Sure.
    Mrs. Demings. Listen to the answer about referring it to 
law enforcement. I think that is an appropriate response, 
because if there is a suspicion that criminal activity is 
afoot, you would want to refer it to law enforcement and law 
enforcement make the call on that.
    Mr. Taylor. Sure.
    Mrs. Demings. So just to kind-of----
    Mr. Taylor. OK.
    Mrs. Demings [continuing]. Maybe help you a little bit with 
that particular portion of it. But----
    Mr. Taylor. Thanks, Chief.
    Mrs. Demings [continuing]. Back to the policy. Thank you.
    Mr. Taylor. Appreciate it.
    Just to kind-of follow up with that, so the Islamic 
Republic of Iran is the largest state sponsor of terrorism in 
the world, right? They are a terrorist--and, you know, pieces 
of the Islamic Republic are terrorist organizations. Do you 
have a specific ban on that terrorist organization and their 
ability to use your Google products?
    Mr. Slater. Congressman, we have prohibitions on designated 
terrorist organizations using products, uploading content, and 
so on.
    Mr. Taylor. OK. So you seek to ban terrorist organizations 
from using Google products?
    I am not trying to put words in your mouth. I am just 
trying to understand your position on this.
    Mr. Slater. Designated terrorist organizations, we have 
prohibitions on that sort of organization, correct?
    Mr. Taylor. I am not just asking about content. I am asking 
about the services you provide. Right? You provide Gmail, you 
provide iCalendar, you provide a whole host of different 
services that people can use. I am trying to ask about the 
services, not the content. I realize that the focus of this 
hearing is about content, which is why you are here, but I am 
asking about the actual services.
    Mr. Slater. To the best of my knowledge, if we were to have 
knowledge--and, again, as my colleagues have said, these bad 
actors are constantly changing their approaches, trying to game 
the system, and so on. But we do everything we can to prohibit 
that sort of illegal behavior from those sorts of 
organizations.
    Mr. Taylor. Do you have screens set up to try to figure out 
who the users are, to try to, you know, pierce the veil, so to 
speak, into an anonymous account, figure out where that is or 
who that might be, where it is sourcing from? Are you looking 
at that? Is that something, a part of how you operate as an 
organization, that Google does?
    Mr. Slater. Absolutely, Congressman. We use a combination 
of automated systems, threat analysis to try and ferret out 
behaviors that may be indicative in that way.
    Mr. Taylor. All right. Thank you. I appreciate your 
answers.
    With that, Mr. Chairman--and I appreciate the panel for 
being here. This is an important, important topic, and thank 
you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from Nevada, Ms. 
Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    We have heard a lot about incidents, but we haven't 
mentioned much about one that occurred in my district of Las 
Vegas. This was the deadliest shooting in the United States in 
modern history. October 1, 2017, a gunman opened fire on a 
music concert, a festival. After that attack, there was a large 
volume of hoaxes, conspiracy theories, misinformation that 
popped up all across your platforms, including about the 
misidentity of the gunman, his religious affiliation, and some 
of the fake missing victims. Some individuals even called it a 
false flag.
    In addition, when you put up a search Safety Check site on 
Facebook, where loved ones could check in to see who was safe 
and who wasn't, there were all kind of things that popped up, 
like links to spam websites that solicited Bitcoin donations, 
they pedaled false information, claiming that the shooter was 
associated with some anti-Trump army--just a lot of mess there, 
where people were trying to make contact.
    I wonder if you have any specific policy or protocols or 
algorithms to deal with the immediate aftermath of a mass 
shooting like this. All three of you.
    Ms. Bickert. Thank you, Congresswoman.
    Let me say that the Las Vegas attack was a horrible 
tragedy. We think we have improved since then, but I want to 
explain what our policies were even then and how we have gotten 
better.
    So, with the Las Vegas attack, we remove any information 
that is praising that attack or the shooter, and we also took 
steps to protect the accounts of the victims. Sometimes in the 
aftermath of these things, we will see people try to hack into 
accounts or do other things like that, so we take steps to 
protect the victims. We also worked very closely with law 
enforcement.
    Since then, one area where we have gotten better is crisis 
response in the wake of a violent tragedy. So, for instance, 
with Christchurch, you had these companies at the table and 
others communicating real-time, sharing with one another URLs, 
new versions of the video of the attack, and so forth to make 
sure--and it was literally a real-time, for the first 24 hours, 
operation where we were sharing. In that first 24 hours, on 
Facebook alone, we were able to stop 1.2 million versions of 
the video from hitting our site.
    So we have gotten a lot better technically, but this is an 
area where we will continue to invest.
    Mr. Pickles. Thank you.
    As you have just heard, I think one of the challenges we 
have in this space is different actors will change their 
behavior to try and get around our rules.
    One of the things that we saw after Christchurch which was 
concerning was people uploading content to prove the event had 
happened. So the suggestion that because companies like us were 
removing content at scale, people were calling that censorship, 
so there were people uploading content to prove the attack had 
happened.
    That is a challenge that we haven't had to deal with 
before, and it is something we are very mindful of. We need to 
figure out what is the best way to combat that challenge.
    We have policies against the abuse and harassment of the 
survivors and victims and their families. So if someone is 
targeting someone who has been a victim or a survivor and is 
denying the event took place or is harassing them because of 
another factor, like political ideology, we would take action 
for the harassment in that space.
    Then, finally, the question of how we work with 
organizations to spread the positive message going forward. So 
that is where, you know, if there are groups in your 
communities who are affected by this and working with the 
victims to show the kind of positivity of your community, then 
we would be keen to work with those organizations, wherever 
they are in the United States, to spread that message of 
positivity.
    Ms. Titus. Mr. Slater.
    Mr. Slater. Yes. Thank you, Congresswoman. This is of the 
utmost seriousness. It was a tragic event, I think, for our 
country, for society. Personally, as someone who lived in both 
Las Vegas and New Zealand, both of these events I hold deeply 
in my heart.
    We take a threefold approach to the sort of misinformation 
and other conduct that you were talking about:
    We try and, on YouTube, raise up authoritative sources of 
information, particularly in those breaking news events, to 
make sure that authoritative sources outpace those who might 
wish to misinform and so on.
    We will strike, remove denials of well-documented violent 
events or people who are spreading hate speech toward the 
survivors of that event.
    We will also seek to reduce exposure to content that is 
harmful misinformation, including conspiracies and the like.
    Ms. Titus. Well, these people have already been victimized 
in the worst sort of way. You hate to see them then become 
victims of something that occurs over the internet.
    One thing we heard from law enforcement was that you might 
think about--and I think this relates to kind-of what you were 
saying, Mr. Slater--using your algorithms to elevate posts that 
come from law enforcement, so people seeking help go to those 
first as opposed to some of this other information just that 
comes in randomly.
    In your work with law enforcement, have you considered 
that? I know you were addressing the chief's questions earlier. 
Ms. Bickert.
    Ms. Bickert. Thank you, Congresswoman.
    That is something that we can explore with law enforcement. 
We certainly try to make sure that people have accurate 
information after attacks. Our systems didn't work the way we 
wanted them to after Las Vegas. We learned from that, and I 
think we are in a better place today.
    Ms. Titus. I would appreciate it if you would look into 
that. I think law enforcement would too.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Mississippi for 5 
minutes.
    Mr. Guest. Thank you, Mr. Chairman.
    First of all, to our representatives from Facebook, Google, 
and Twitter, I want to thank you for being here today. I want 
to thank you for previously appearing for a closed briefing 
that we had earlier this year.
    So we seek to continue to examine this complex issue of 
balancing First Amendment rights against making sure that 
content that is on social media does not promote terroristic 
activity.
    Professor Strossen, you were not here during that closed 
briefing, so I want to ask a couple questions to you.
    During your testimony, your written testimony, you 
highlight the potential dangers associated with content 
moderation, even when done by private companies in accordance 
with their First Amendment rights. You make a case for social 
media companies to provide free-speech protections to users.
    You even state in the conclusion of your written 
testimony--you say, ``How to effectively counter the serious 
potential adverse impact of terror content and misinformation 
is certainly a complex problem. While restricting such 
expressions might appear to be a clear, simple solution, it is, 
in fact, neither, and, moreover, it is wrong.''
    Now, I know that was the conclusion of an 11-page report 
that you provided, but could you just briefly summarize that 
for the purpose of this hearing?
    Ms. Strossen. Thank you so much, Congressman Guest.
    Yes, the problem is the inherent subjectivity of these 
standards. No matter how much you articulate them--and I think 
it is wonderful that Facebook and the other companies have now, 
fairly recently, shared their standards with us--you can see 
that it is impossible to apply them consistently to any 
particular content.
    Reasonable people will disagree. The concept of ``hate,'' 
the concept of ``terror,'' the concept of ``misinformation'' 
are strongly debated. One person's fake news is somebody else's 
cherished truth.
    Now, a lot of attention has been given to the reports about 
discrimination against conservative viewpoints in how these 
policies are implemented. I want to point out that there also 
have been a lot of complaints from progressives and civil 
rights activists and social justice activists complaining that 
their speech is being suppressed.
    What I am saying is that, no matter how good the intentions 
are, no matter who is enforcing it, whether it be a Government 
authority or whether it be a private company, there is going to 
be, at best, unpredictable and arbitrary enforcement and, at 
worst, discriminatory enforcement.
    Mr. Guest. Let me ask you, as an expert in the First 
Amendment, do you feel that content moderation by social media 
companies has gone too far?
    Ms. Strossen. I think that, you know, first of all, they 
have a First Amendment right. I think that is really important 
to stress.
    But given the enormous power of these platforms--which, as 
the Supreme Court said in a unanimous decision 2 years ago, 
that this is now the most important forum for the exchange of 
information and ideas, including with elected officials, those 
who should be accountable to we, the people.
    So if we do not have free and unfettered exchange of ideas 
on these platforms for all practical purposes, we don't have 
it. That is a threat to our democratic republic as well as it 
is to individual liberty.
    There is a lot that these platforms can do in terms of user 
empowerment so that we can make our own choices about what to 
see and what not to see and, also, information that will help 
us evaluate the credibility of the information that is being 
put out there.
    Mr. Guest. Finally, Ms. Strossen, do you have any 
recommendations that you feel would help balance individuals' 
First Amendment rights versus trying to protect social media 
from terrorists being able to use that as a platform that you 
would recommend, first, to the social media companies? Then are 
there any recommendations that you would have of this body, 
things that Congress should consider, that would help us as we 
navigate this very difficult situation?
    Ms. Strossen. I think that Congress's oversight, as you are 
exercising very vigorously, is extremely important. I think 
encouraging, but not requiring, the companies to be respectful 
of all of the concerns--human-rights concerns of fairness and 
transparency and due process, as well as free speech, but also 
concerns about potential terrorism and dangerous speech.
    I actually think that the U.S. Supreme Court and 
international human rights norms, which largely overlap, have 
gotten it right. They restrict discretion to enforce standards 
by insisting that, before speech can be punished or suppressed, 
that there has to be a specific and direct, tight causal 
connection between the speech in that particular context which 
causes an imminent danger.
    We can never look at words alone in isolation, to get back 
to the question that I was asked by the Congresswoman, because 
you have to look at context. If in a particular context there 
is a true threat, there is intentional incitement of imminent 
violence, there is material support of terrorism, there is 
defamatory statements, there is fraudulent statements, all of 
that can be punished by the Government, and, therefore, those 
standards should be enforced by social media as well. That 
would give us--in my view, that is exactly the right way to 
strike the balance here.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Missouri, Reverend 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I am going to have a little different approach than my 
colleagues.
    Ms. Strossen, in 1989, I was a member of the city council 
in Kansas City, and the Klan had planned a big march in Swope 
Park. All this is still on-line; you can look at it. I fought 
against them. The ACLU supported their right to march and that, 
if I had passed an ordinance--I was also vice mayor at the 
time--if I passed an ordinance, they would challenge it in 
court.
    I am not mad. I am not upset. I am a former board member of 
the ACLU. So I think that free speech has to be practiced even 
when it is abhorrent.
    Now, for everybody else--and, in some ways, I kind-of feel 
sorry for you, not enough to let you out without, you know, 
beating up on you a little bit. But, you know, we--I am afraid 
for our country. I mean, we have entered an age where people 
respect an alternative truth. It is just so painful for me to 
watch it. I don't think I am watching it in isolation. 
Alternative truths, where people just will say something that 
is not true and continue to say it. It doesn't matter.
    I saw it last night, where the President said, ``Barack 
Obama started this border policy, and I am correcting it.'' 
What they did--and this is what I want you to consider. What 
one of the TV networks did is put up people making statements 
about what was happening. They showed Jeff Sessions, when he 
had first announced the separation policy and so forth.
    You know, the problem is that--Churchill said that a lie 
can travel halfway around the world before the truth puts on 
its shoes. That is true. If we started a 20th-Century new 
bible, that should be one of the scriptures, because it is a 
fact. The truth cannot always be uncontaminated with sprinkles 
of deceit.
    So you guys have a tough job. I don't want to make it seem 
like it is something that you can do easily.
    Our system of government, I think, even beyond that, our 
moral connections are dependent a lot more--and I didn't 
realize this. I spent 3\1/2\ years in the seminary. I didn't 
even realize this until recently. But we depend significantly 
on shame. I mean, there are some things that laws can't touch, 
and so our society functions on shame. So, when shame is 
dismembered, I am not sure what else we have left.
    But what I would like for you to react to and maybe even 
consider is, you know, instead of taking something down in some 
instances, why not just put up the truth next to it? I mean, 
the truth. I am not talking about somebody else's response. I 
am talking about the truth, where you, you know, like the 
video--I wish I could have brought it to you, where they said, 
here is the lie, and here is the truth.
    Can anybody help me?
    OK. All right.
    Anybody else?
    Mr. Slater. So this is a very important issue, Congressman. 
And----
    Mr. Cleaver. Yes, that is why--yes.
    Mr. Slater. Absolutely. So one of the things we have been 
trying to do is two-fold with respect to harmful 
misinformation.
    So one is, where there is a video that says, say, the moon 
landing didn't happen----
    Mr. Cleaver. My grandmother says that.
    Mr. Slater [continuing]. Or the Earth is flat, the video 
may be up, but you will see a box underneath it that says, here 
is a link to the Wikipedia page about the moon landing, or the 
Encyclopedia Britannica page, where you can go learn more. I 
think that speaks to----
    Mr. Cleaver. Yes, that is what I am talking about. Yes.
    Mr. Slater [continuing]. The sort of feature that you are 
talking about.
    The other thing we try and do----
    Mr. Cleaver. You do that now?
    Mr. Slater. We do that today, yes, sir.
    The other thing we try and do is reduce the exposure of the 
frequency of the recommendations to information that might be 
harmful misinformation, such as those sorts of conspiracies.
    Mr. Cleaver. Thank you.
    Mr. Pickles. Well, I think you rightly highlighted the 
interplay between what is on social media companies, the news 
media, what is on TV. How that cycle of information works 
together is a critical part of solving this.
    I think the one thing that, for Twitter, because we are a 
public platform, very, very quickly people are able to 
challenge, to expose, to say, ``That is not true. Here is the 
evidence. Here is the data.''
    There is something incredibly important about these 
conversations taking place in public. That, I think, is 
something, as we move into the information century, we need to 
bear in mind.
    Mr. Cleaver. Thank you.
    Ms. Bickert. Congressman, thank you.
    Similar to what my colleague referenced, if there is 
something like misinformation that a third-party fact-checking 
organization has debunked--and we work with 45 of these 
organizations world-wide. They all meet objective criteria; 
they are all Poynter-certified. What we do is we actually take 
the articles from those fact-checkers and put it right next to 
the false content so that people have that context. If you go 
to share some of that content, we say, ``This content has been 
rated false by a fact-checker,'' and we link them to it.
    Similarly, when it comes to things like misinformation 
about vaccines, we are working with organizations like the CDC 
and the World Health Organization to get content from them that 
we can actually put next to vaccine-related misinformation on 
our site.
    We do think this is a really important approach. It 
obviously takes a lot of resources.
    Another thing we are trying to do is--I guess what I would 
say is empower those--and this is similar to what Mr. Pickles 
mentioned--empower those who have the best voices to reach the 
right audience on this. So we invest heavily in promoting 
counterspeech and truthful speech.
    Mr. Cleaver. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Before we close, I would like to insert into the record a 
number of documents.
    The first is several letters from stakeholders, addressed 
to Facebook as well as Twitter and YouTube, about hateful 
content on their platform.
    The second is a joint report from the Center for European 
Policy Studies and the Counter Extremism Project.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at https://www.ceps.eu/ceps-publications/germanys-netzdg-key-
test-combatting-online-hate/.
---------------------------------------------------------------------------
    The third is a statement for the record from the Anti-
Defamation League.
    The fourth are copies of community standards as of this day 
for Facebook, Twitter, and Google.**
---------------------------------------------------------------------------
    ** The information has been retained in committee files and is 
available at https://www.facebook.com/communitystandards/, https://
help.twitter.com/en/rules-and-policies/twitter-rules, and https://
www.youtube.com/about/policies/#community-guidelines, respectively.
---------------------------------------------------------------------------
    Without objection, so ordered.
    [The information referred to follows:]
                                  October 30, 2017.
Mr. Mark Zuckerberg, Chief Executive Officer,
Ms. Sheryl Sandberg, Chief Operating Officer,
Facebook, Inc., 1 Hacker Way, Menlo Park, CA 94025.
    Dear Mr. Zuckerberg and Ms. Sandberg:
    We, the undersigned civil rights, interfaith, and advocacy 
organizations write to express our deep concern regarding ads, pages, 
and hateful contenton your platform used to divide our country, and in 
particular, to promote anti-Muslim, anti-Black, anti-immigrant, and 
anti-LGBTQ animus. We thank you for recent meetings with some of our 
organizations representing communities that were directly affected by 
the material on your platform. We appreciate that senior members of 
your team--including you, Ms. Sandberg--have facilitated these 
meetings, and we hope that these conversations are the beginning of a 
serious and ongoing dialog. Now, it is necessary for Facebook to take 
critical steps to address the bigotry and discrimination generated on 
your platform.
    As you know, we do not yet have access to all the divisive content 
targeting communities we represent; therefore, we are only able to cite 
to the few examples that were leaked to the media.
    For example, Russian operatives set up misleading accounts 
impersonating or posing as American individuals and groups on Facebook 
to promote Russian propaganda during the American election season. 
Reports indicate that a Russian Facebook account called ``Secured 
Borders'' posed as a group of US citizens concerned about the increased 
number of refugees in America. This fake account not only promoted 
anti-immigrant messaging online, but also managed to organize an in-
person anti-refugee rally in Twin Falls, Idaho in August 2016.\1\
---------------------------------------------------------------------------
    \1\ Geoffrey Smith, ``Russia Orchestrated Anti-Immigrant Rallies in 
the U.S. via Facebook Last Year,'' Fortune, Sept. 12, 2017, available 
at http://fortune.com/2017/09/12/russia-orchestrated-anti-immigrant-
rallies-in-the-u-s-via-facebook-last-year/.
---------------------------------------------------------------------------
    In addition, a Facebook page entitled ``United Muslims of America'' 
was an imposter account traced back to Russia \2\--the real United 
Muslims of America is a California-based interfaith organization 
working at the local level to promote dialog and political 
participation.\3\ The imposter account smeared political candidates and 
promoted political rallies aimed at Muslim audiences.\4\ In another 
example, the Internet Research Agency in Russia promoted an anti-Muslim 
rally thousands of miles away in Houston, Texas where individuals 
protested outside of a mosque.\5\ Additional reports indicate that 
Facebook offered its expertise to a bigoted advocacy group by creating 
a case study testing different video formats, and advising on how to 
enhance the reach of the group's anti-refugee campaign in swing States 
during the final weeks of the 2016 election.\6\ These examples of 
content on Facebook were not only harmful, but also used to rile up 
supporters of President Trump.
---------------------------------------------------------------------------
    \2\ Dean Obeidallah, ``How Russian Hackers Used My Face to Sabotage 
Our Politics and Elect Trump,'' The Daily Beast, Sept. 27, 2017, 
available at https://www.thedailybeast.com/how-russian-hackers-used-my-
face-to-sabotage-our-politics-and-elect-trump.
    \3\ United Muslims of America ``About'' page, available at http://
www.umanet.org/about-us.
    \4\ Obeiallah, supra note 1.
    \5\ Tim Lister & Clare Sebastian,``Stoking Islamophobia and 
secession in Texas--from an office in Russia,'' CNNPolitics, Oct. 6, 
2017, available at http://www.cnn.com/2017/10/05/politics/heart-of-
texas-russia-event/index.html.
    \6\ Melanie Ehrenkranz, ``Facebook Reportedly Used Anti-Muslim Ad 
as Test Case in Video Formats,'' Gizmodo, Oct. 18, 2017, available at 
https://gizmodo.com/facebook-reportedly-used-anti-muslim-ad-as-test-
case-in-1819645900.
---------------------------------------------------------------------------
    Furthermore, it has been reported that Russian operatives purchased 
Facebook ads about Black Lives Matter--some impersonating the group and 
others describing it as a threat.\7\ This included ads that were 
directly targeted to reach audiences in Ferguson, Missouri and 
Baltimore, Maryland. CNN reports that the Russian Internet Research 
Agency used these ads in an attempt to amplify political discord and 
create a general atmosphere of incivility and chaos.\8\ This included a 
fake ad containing an image of an African-American woman dry-firing a 
rifle, playing on the worst stereotypes regarding African-Americans as 
threatening or violent.\9\
---------------------------------------------------------------------------
    \7\ Adam Entous, Craig Timberg, & Elizabeth Dwoskin,``Russian 
operatives used Facebook ads to exploit America's racial and religious 
divisions,'' The Washington Post, Sept. 25, 2017, available at https://
www.washingtonpost.com/business/technology/russian-operatives-used-
facebook-ads-to-exploit-divisions-over-black-political-activism-and-
muslims/2017/09/25/4a011242-a21b-11e7-ade1-
76d061d56efa_story.html?tid=sm_tw&utm_term=.e49cecc1a834.
    \8\ Dylan Byers, ``Exclusive: Russian-bought Black Lives Matter ad 
on Facebook targeted Baltimore and Ferguson,'' CNN Media, Sept. 28, 
2017, available at http://money.cnn.com/2017/09/27/media/facebook-
black-lives-matter-targeting/index.html.
    \9\ Adam Entous, Craig Timberg, & Elizabeth Dwoskin, ``Russian 
Facebook ads showed a black woman firing a rifle, amid efforts to stoke 
racial strife,'' The Washington Post, Oct. 2, 2017, available at 
https://www.washingtonpost.com/business/technology/russian-facebook-
ads-showed-a-black-woman-firing-a-rifle-amid-efforts-to-stoke-racial-
strife/2017/10/02/e4e78312-a785-11e7-b3aa-
c0e2e1d41e38_story.html?utm_term=.aa2267a2f46c.
---------------------------------------------------------------------------
    We were alarmed to see your platform being abused to promote 
bigotry, and especially disappointed that it has taken media exposure 
and Congressional oversight to give a degree of transparency into your 
practices. It is important to keep in mind that pervasive bigotry has 
long existed on your platform, and the Russian operatives simply 
exploited the hateful content and activity already present. We are 
concerned about how a platform like Facebook's could operate without 
appropriate safeguards that take into account how it could be 
manipulated to further sow divisions in our society.
    As a company and social network platform whose mission is ``to give 
people the power to build community and bring the world closer 
together,''\10\ we hope that you understand the gravity of this hateful 
rhetoric and behavior. During a time when anti-Muslim, anti-Black, 
anti-LGBTQ, and anti-immigrant sentiment has swept the nation, it is 
more important than ever for companies like yours to take an 
unequivocal stance against bigotry.
---------------------------------------------------------------------------
    \10\ Facebook ``About'' page, February 4, 2004, available at 
https://www.facebook.com/pg/facebook/about/?ref=page_internal.
---------------------------------------------------------------------------
    Over the years, many of us have raised concerns about how your 
platform may have a negative impact on our communities, with 
disappointing results. For example, we have requested that you address 
attacks on African Americans and Muslims, organizing by hate groups, 
and the censorship of Black, Arab, Muslim, and other marginalized 
voices. As a result of the pervasive presence and organizing by hate 
groups on your platform--some could not exist as national level 
entities without it--we have repeatedly requested that you convene a 
gathering with civil rights organizations to discuss appropriate and 
strategic responses. While you were unable to sufficiently respond to 
the concerns raised above, Facebook participated in and organized 
events that stigmatized Muslims and other communities such as a recent 
convening called ``Tech Against Terrorism.''
    Though in the past you have displayed a willingness to listen to 
our concerns, we have yet to see meaningful change. It is our hope that 
recent developments will mark a new chapter in Facebook's commitment to 
protecting the rights of all who use your platform.
    As we continue this important dialog, we urge you to:
    1. Fully disclose to the public all of the ads, pages, events, 
        accounts, and posts you have traced back to Russian operatives 
        targeting African American, LGBTQ, and Muslim communities. In 
        particular, we believe that Facebook has a special 
        responsibility to notify those individuals and organizations 
        who have been impersonated or misrepresented.
    2. Bring on an independent third-party team to conduct a thorough 
        and public audit of the civil rights impact of your policies 
        and programs, as well as how the platform has been used by hate 
        groups, political entities, and others to stoke racial or 
        religious resentment or violence. Other leading companies in 
        the industry like Airbnb have made the decision to conduct such 
        an assessment, and we hope you will follow their lead.
    3. Regularly convene a new working group of a diverse group of 
        civil rights organizations working to counter bigotry, and 
        solicit input on policies and processes from this group. And, 
        integrate addressing hate into Facebook's corporate structure 
        by:
        a. Assigning a board committee with responsibility for 
            assessing management efforts to stop hate groups, State 
            actors, and individuals engaged in hate from using your 
            platform and tools;
        b. Assigning a senior manager who is a member of Facebook's 
            Executive Team with authority to oversee addressing hate 
            company-wide and name that person publicly and employing 
            staff with expertise in this area to vet advertisements and 
            develop process and procedures the address this issue; and,
        c. Creating a committee of outside advisors with expertise in 
            identifying and tracking hate who will be responsible for 
            producing an annual report on the effectiveness of steps 
            taken by Facebook.
    4. Develop, with input from diverse civil rights groups and 
        experts, and make public a clear process for how Facebook:
        a. Reviews content constituting hate speech;
        b. Reviews efforts to use Facebook as a platform to stoke 
            identity-based, racial, or religious resentment or violent 
            actions; and,
        c. Responds to complaints about content that reasonably creates 
            fear and chills speech on Facebook.
    5. Make public detailed information regarding training and support 
        for anti-immigrant, anti-Muslim, anti-black, and anti-LGBTQ 
        organizations, including the monetary value of these services; 
        and establish a fund to provide grants to organizations 
        combating hatred and bigotry.
    Thank you in advance for your consideration.
    Please contact Naheed Qureshiat [sic] with any questions.
    We look forward to your reply.
            Sincerely,
                              Arab American Institute (AAI)
                     Asian Americans Advancing Justice/AAJC
                                   Center for Media Justice
                                   Center for New Community
                                            Color of Change
                                                      CREDO
                                Human Rights Campaign (HRC)
        The Leadership Conference on Civil and Human Rights
           League of United Latin American Citizens (LULAC)
                                                 MoveOn.org
                                           Muslim Advocates
                                                      NAACP
       NAACP Legal Defense and Educational Fund, Inc. (LDF)
                         National Center for Lesbian Rights
                          National Hispanic Media Coalition
                                  National LGBTQ Task Force
                                     National Sikh Campaign
                                             Sikh Coalition
                                Southern Poverty Law Center
                                 ______
                                 
                                 February 22, 2018.
Ms. Monica Bickert,
Head of Product Policy and Counterterrorism, Facebook, 1 Hacker Way, 
        Menlo Park, CA 94025.
Ms. Juniper Downs,
Director, Public Policy and Government Relations, YouTube, 901 Cherry 
        Ave., San Bruno, CA 94066.
Mr. Carlos Monje, Jr.,
Director, Public Policy and Philanthropy, U.S. & Canada, Twitter, 1355 
        Market Street, San Francisco, CA 94103.
    Ms. Bickert, Ms. Downs, and Mr. Monje: The undersigned civil rights 
and advocacy organizations write to share our concerns regarding your 
recent testimony at the United States Senate Committee on Commerce, 
Science, and Transportation hearing titled, ``Terrorism and Social 
Media: #IsBigTechDoingEnough?'' Many of the undersigned organizations 
have had on-going conversations with your companies regarding the 
spread of hateful and dangerous content online, and in light of this, 
we watched your testimony regarding extremist content online with great 
interest. We were alarmed by the continuous conflation of Muslims and 
violent extremism at the hearing and the extent to which testimony 
focused on conduct by Muslims, with comparatively almost no mention 
about violent actions by white supremacists who target members of the 
African American, LGBTQ, immigrant, Latino, Asian, Jewish, Sikh and 
Muslim communities. These omissions are particularly striking in light 
of the recent tragic attacks in New Mexico, Portland, and 
Charlottesville.
    To no avail, several of the signatories below reached out to you 
prior to the hearing to request that your companies avoid stigmatizing 
and singling out the Muslim community by failing to address other forms 
of extremism in your testimony. All three of your statements for the 
record failed to do so; they referenced only violent extremism 
committed by those claiming to be acting in the name of Islam and 
highlighted efforts at countering extremism that focus on Muslim 
communities. Facebook's written testimony, for example, did not mention 
white supremacist violence, but repeatedly cited ISIS and al-Qaeda.\1\ 
And, in response to questioning from Senator John Thune (R-SD), the 
Facebook representative volunteered Boko Haram--another group claiming 
to act in the name of Islam--as an example of a group whose content has 
been banned by their company.\2\ Later, when Senator Tom Udall (D-NM) 
directly asked the Facebook witness what the company is doing to 
curtail the explosion of white supremacists online, once again, 
Facebook failed to mention white supremacy in the response. In fact, in 
response to questioning regarding domestic extremism--specifically 
violence by white nationalists and white supremacists--the Google 
witness was the only panelist to specifically mention ``white 
supremacy,'' albeit briefly.\3\ It is striking that such complex 
questions seem to consistently elicit simple, and near-uniform answers.
---------------------------------------------------------------------------
    \1\ Bickert, M. (2018, January 17). Hearing before the United 
States Senate Committee on Commerce, Science, and Transportation. 
Retrieved January 22, 2018, from https://www.commerce.senate.gov/
public/_cache/files/a9daccb8-5f07-42a6-b4c3-20ad0b9ba26d/
FC0A5B87F787273A7FA793B458C03E41.bickert-testimony-final.pdf.
    \2\ Terrorism and Social Media: #IsBigTechDoingEnough. (2018, 
January 17). Retrieved January 22, 2018, from https://www.c-span.org/
video/?c4709695%2Fbickert-response.
    \3\ Terrorism and Social Media: #IsBigTechDoingEnough. (2018, 
January 17). Retrieved January 22, 2018, from https://www.c-span.org/
video/?c4709693%2Fms-bickert-response.
---------------------------------------------------------------------------
    Furthermore, it was very unhelpful that each of your companies 
chose to highlight your support or participation in violent extremism 
initiatives designed to target Muslims and others as examples of the 
work you are doing to fight extremism. For example, Twitter's testimony 
stated that the company has participated in more than 100 CVE trainings 
over the last few years including summits at the White House. We are 
concerned that most of these events were focused primarily on 
activities by Muslims. In addition, all three companies continue to 
emphasize their sponsorship of Tech Against Terrorism events, one of 
which, in the San Francisco Bay Area, focused exclusively on extremism 
by Muslims. Other Tech Against Terrorism events have given some 
attention to white supremacy, but not nearly enough and not on a par 
with the attention given to Muslims and extremism. In one example, the 
Southern Poverty Law Center (SPLC), one of our Nation's leading experts 
on hate groups and white supremacy, was invited to a Tech Against 
Terrorism conference in Brussels and given less than a week's notice of 
the event. When SPLC requested to participate via video conference due 
to the short notice, they received no response. If there is a true 
commitment by the companies to address white supremacy and other forms 
of violent extremism unrelated to Islam through this initiative, more 
lead time is necessary to appropriately engage relevant experts and 
stakeholders. Additionally, as recently as last week, presentations by 
Facebook, Google, and Twitter at an event organized by the Department 
of Homeland Security focused heavily on activities designed to address 
extremism by those claiming to act in the name of Islam.
    At a time when anti-Muslim, anti-Black, anti-LGBTQ, anti-immigrant 
and anti-Jewish sentiment have fueled a marked increase in violent 
attacks on individuals in each of these communities, a responsible 
discussion regarding violent extremism must include a focus on white 
supremacists and other non-Muslim violent extremists. On far too many 
occasions, discussions about terror do not acknowledge that no ideology 
owns violent extremism. The failure to recognize white supremacy and 
other forms of violent extremism unrelated to Islam in discussions 
regarding extremism is irresponsible and reckless, and your failure to 
adequately address this publicly during the Senate hearing stigmatizes 
Muslims and other affected communities when the facts on this issue are 
clear. In their 2017 annual report on extremism in the United States, 
the Anti-Defamation League (ADL) concluded that the number of murders 
committed by white supremacists in the United States doubled from the 
previous year, nothing 71 percent of extremist-related murders in the 
past decade have been carried out by right-wing extremists, a majority 
of whom were born in the United States.\4\ And in 2017, 53 percent of 
extremist-related murders in the United States were perpetrated by 
white supremacists.\5\
---------------------------------------------------------------------------
    \4\ ADL Report: White Supremacist Murders More Than Doubled in 
2017. (2018, January 17). Retrieved January 22, 2018, from https://
www.adl.org/news/press-releases/adl-report-white-supremacist-murders-
more-than-doubled-in-2017.
    \5\ Williams, J. (2017, October 02). White American men are a 
bigger domestic terrorist threat than Muslim foreigners. Retrieved 
January 22, 2018, from https://www.vox.com/world/2017/10/2/16396612/
las-vegas-mass-shooting-terrorism-islam.
---------------------------------------------------------------------------
    We have raised at least some of our concerns either with your 
parent companies, or with your companies directly. One recent example, 
is the letter sent on October 31st, 2017, by 19 civil rights groups to 
Facebook citing the company's inadequate response to hate speech and 
bigotry directed toward members of the African-American, LGBTQ, and 
Muslim community on its platform, as well as problematic CVE 
activities.\6\ Given your companies' size, influence, and role in all 
discussions of hateful and violent content on-line, we again call on 
you to join us in a comprehensive and inclusive dialog on extremism and 
extremist violence.
---------------------------------------------------------------------------
    \6\ Simpson, S. (2017, October 31). Civil Rights Groups Urge 
Facebook to Address Longstanding Issues with Hate Speech and Bigotry. 
Retrieved January 22, 2018, from https://www.muslimadvocates.org/
19civilrightsgroupslettertofacebook/.
---------------------------------------------------------------------------
    As we continue this important dialog, we urge each of your 
companies to:
  <bullet> Submit amended testimony for the hearing regarding the 
        dangers posed by white supremacist groups and the measures your 
        organization will be taking as a result;
  <bullet> Bring on an independent third-party team to conduct a 
        thorough and public audit of the civil rights impact of your 
        policies and programs, including an assessment of processes 
        related to addressing extremism by white supremacists and other 
        hate-based content on your platforms that encourages harassment 
        and violence towards many communities;
  <bullet> Assign and publicly name a senior member of the executive 
        team with authority to oversee addressing hate on the platform 
        company-wide;
  <bullet> Hire or contract with a diverse team of experts on white 
        supremacist groups to develop methods for detecting and 
        responding to such groups, and to address hateful conduct and 
        content by these groups;
  <bullet> Create a committee of outside advisors with expertise in 
        identifying and tracking hate who will be responsible for 
        producing an annual and publicly available report on the 
        effectiveness of the steps taken by the company; and,
  <bullet> Disclose publicly any new plans that have been developed to 
        address extremism, including whether those plans will target 
        Muslims or seriously address white supremacists.
    Thank you for your consideration of our views. We look forward to 
hearing from you.
            Sincerely,
                                    Arab American Institute
                                 Bend the Arc Jewish Action
                                   Center for Media Justice
                                            Color of Change
                                                      CREDO
                                                     Emgage
                                  Media Matters for America
                                                 MoveOn.Org
                                           Muslim Advocates
                                                      NAACP
       NAACP Legal Defense and Educational Fund, Inc. (LDF)
                                  National LGBTQ Task Force
                                     National Sikh Campaign
                                             Sikh Coalition
                                Southern Poverty Law Center
                                 ______
                                 
                                 December 18, 2018.
Mark Zuckerberg,
Chairman and Chief Executive Officer, Facebook, 1 Hacker Way, Menlo 
        Park, CA 94025.
    Dear Mr. Zuckerberg: We write to express our profound 
disappointment regarding Facebook's role in generating bigotry and 
hatred toward vulnerable communities and civil rights organizations. 
For years, many of us have engaged directly with your company in good 
faith, seeking change from within the company that we hoped would 
address a range of civil rights, privacy, and safety problems resulting 
from abuse and mismanagement of the platform, including engaging in an 
on-going audit of the civil rights impact of your policies and 
programs, as well as how the platform has been used by hate groups, 
political entities, and others to stoke racial or religious resentment 
or violence. In particular, we asked you to take immediate action to 
stop abuse of the platform. Recent news demonstrates, however, that 
Facebook was not only looking the other way in response to our 
concerns, but also has been actively working to undermine efforts by 
those who seek to hold the company responsible for abuses on the 
platform.
    As you know, a recent investigation by the New York Times \1\ 
details information about Facebook's responses to a series of crises--
including crises around how the company manages and responds to hateful 
content. In the face of clear evidence that Facebook was being used to 
broadcast viral propaganda and inspire deadly bigoted campaigns, the 
company's leadership consistently either looked the other way, or 
actively worked to lobby against meaningful regulation, shifted public 
opinion against its allies, and personally attacked its critics.
---------------------------------------------------------------------------
    \1\ ``Delay, Deny and Deflect: How Facebook's Leaders Fought 
Through Crisis,'' The New York Times, November 14, 2018.
---------------------------------------------------------------------------
    Though Facebook has had significant time, opportunity and the 
benefit of input from experts and advocacy groups to address the 
problems on the platform, your company chose to target civil rights 
groups and our allies instead of changing the way you do business. 
Compounding this mistake, you retained the services of Definers Public 
Affairs to investigate, undermine, and attack our allies, mimicking the 
tactics of the worst, disreputable political operatives and hate 
groups. Out of your need to treat those leveling legitimate critiques 
against Facebook as your enemies, you jeopardized the safety and 
security of people who have dedicated their lives to the common good. 
This decision crossed all lines of common decency.
    Furthermore, it's an absolute disgrace that Facebook sought to 
deflect criticism and discredit advocates by exploiting anti-Semitic 
campaigns against philanthropist George Soros. A research document 
circulated by Definers wrongfully identified Mr. Soros as the force 
behind a broad anti-Facebook movement. According to the Times, Definers 
urged reporters to explore the financial connections between Mr. 
Soros's family or philanthropy and progressive groups hoping to somehow 
use this information to undercut advocates pursuing accountability for 
bigotry on the platform. Unbelievably, Facebook sought to have their 
cake and eat it too; while you weaponized anti-Semitism directed at Mr. 
Soros, you attacked legitimate criticism of the company as anti-
Semitic.
    Equally troubling are your claims over the years that problems with 
the platform or the company's approach have been inadvertent, and that, 
per a statement quoted in the article, ``our entire management team has 
been focused on tackling the issues we face.'' What is now clear, 
however, is direct evidence of malicious and calculated campaigns to 
undermine Facebook's critics.
    Your response as the company's chairman and CEO was also 
disconcerting. You plead ignorance, that you had no idea that this was 
happening. But the public has given your company the benefit of the 
doubt for far too long and ignorance is no longer an excuse. It's 
become abundantly clear that, as currently constituted, your leadership 
team is unable to adequately address the valid concerns of the civil 
rights community. It is now time for significant changes in, not only 
your policies, but also your leadership structure. At this time, we 
demand that Facebook immediately:
    1. Reorganize Facebook's board in order to enable greater 
        accountability of the leadership team and to allow more diverse 
        voices at the decision-making table. Specifically:
        a. You, Mr. Zuckerberg, should step down as chairman of the 
            board as long as you serve as the chief executive officer 
            to allow the board to provide independent oversight and 
            guidance for the management team.
        b. Sheryl Sandberg should step down from the board of directors 
            as long as she serves as chief operating officer in order 
            to allow the board to provide independent oversight and 
            guidance for the management team.
        c. Facebook should expand its board of directors by at least 
            three members to diversify the board; these new members 
            should reflect the diversity of your global community of 
            users.
        d. The board should appoint an independent and permanent civil 
            rights ombudsman to conduct consistent and on-going reviews 
            of the civil rights implications of Facebook's policies and 
            practices; this ombudsman shall also serve as a member of 
            the board of directors.
    2. Publicly identify and apologize to all organizations targeted by 
        Definers Public Affairs. In the spirit of transparency, release 
        all internal documents pertaining to opposition research 
        generated by Definers, including all research on civil rights 
        and advocacy organizations.
    3. Remove Facebook's Vice President of Global Public Policy, Joel 
        Kaplan, from his position.
    4. Make public all findings and recommendations of the civil rights 
        audit without revisions or redactions by January 31, 2019.
    Thank you in advance for your consideration. We would like to meet 
with you to discuss our concerns and recommendations. Please contact 
Naheed Qureshi of Muslim Advocates at [sic] with any questions and to 
coordinate a meeting.
            Sincerely,
                                           Muslim Advocates
                                    Arab American Institute
                 Asian Americans Advancing Justice--Atlanta
                                 Bend the Arc Jewish Action
                                Center for Human Technology
                                   Center for Media Justice
                               Community Responders Network
                                            CreaTV San Jose
                                                      CREDO
                                                     Emgage
                                              Equality Labs
                                      Freedom From Facebook
                                              HOPE not hate
              Interfaith Center on Corporate Responsibility
                              MCN--Muslim Community Network
                                  Media Matters for America
                       Million Hoodies Movement for Justice
                                                 MomsRising
                                                     MoveOn
                                              MPower Change
                                    Muslim Youth Collective
                                                      NAACP
                                  National LGBTQ Task Force
National Network for Arab American Communities/The Campaign 
                                            to TAKE ON HATE
             South Asian Americans Leading Together (SAALT)
                                Southern Poverty Law Center
                                         The Sikh Coalition
                                                UltraViolet
                                            United We Dream
                  Urbana-Champaign Independent Media Center
                                      Voting Rights Forward
  Women's Alliance for Theology, Ethics, and Ritual (WATER)

cc: Sheryl Sandberg, Marc Andreessen, Erskine B. Bowles, Kenneth I. 
Chenault, Susan Desmond-Hellmann, Reed Hastings, Peter A. Thiel, 
Jeffrey Zients.
                                 ______
                                 
             Statement of the ADL (Anti-Defamation League)
                             June 26, 2019
                               about adl
    Since 1913, the mission of the Anti-Defamation League (ADL) has 
been to ``stop the defamation of the Jewish people and to secure 
justice and fair treatment for all.'' For decades, ADL has fought 
against bigotry and anti-Semitism by exposing extremist groups and 
individuals who spread hate and incite violence.
    Today, ADL is the foremost non-governmental authority on domestic 
terrorism, extremism, hate groups, and hate crimes. Through our Center 
on Extremism (COE), whose experts monitor a variety of extremist and 
terrorist movements, ADL plays a leading role in exposing extremist 
movements and activities, while helping communities and Government 
agencies alike in combating them. ADL's team of experts--analysts, 
investigators, researchers, and linguists--use cutting-edge 
technologies and age-old investigative techniques to track and disrupt 
extremists and extremist movements world-wide. ADL provides law 
enforcement officials and the public with extensive resources, such as 
analytic reports on extremist trends and Hate Symbols \1\ and Terror 
Symbols databases. Through our Center for Technology and Society (CTS), 
ADL serves as a resource to tech platforms, civil society organizations 
and government, and develops proactive solutions to the problems of 
cyber hate, on-line harassment, and misuses of technology. Launched in 
2017 and headquartered in Silicon Valley, CTS aims for global impacts 
and applications in an increasingly borderless space. It is a force for 
innovation, producing cutting-edge research to enable on-line civility, 
protect vulnerable populations, support digital citizenship and engage 
youth. CTS builds on ADL's century of experience building a world 
without hate and supplies the tools to make that a possibility both on-
line and off-line.
---------------------------------------------------------------------------
    \1\ ADL, Hate on Display<SUP>TM</SUP> Hate Symbols Database, 
available at https://www.adl.org/hatesymbolsdatabase.
---------------------------------------------------------------------------
    On October 27, 2018, Robert Bowers perpetrated the deadliest attack 
against Jews in American history when he stormed a Pittsburgh synagogue 
armed with an assault rifle and three handguns.\2\ Shouting ``All Jews 
must die,'' Bowers killed 11 people in their place of worship. Less 
than 5 months later, Brenton Tarrant perpetrated the deadliest attack 
against Muslims in New Zealand's history, slaughtering 50 people who 
had gathered for prayer at two mosques.\3\ A little over a month later, 
John Earnest attacked the Jewish community at a synagogue in Poway, 
California killing 1 congregant and injuring 3 others.\4\ In the wake 
of these horrific crimes, Jewish and Muslim communities world-wide and 
concerned citizens across the globe began searching for clues about 
attacks that seemed to come out of nowhere.
---------------------------------------------------------------------------
    \2\ Jay Croft and Saeed Ahmed, ``The Pittsburgh synagogue shooting 
is believed to be the deadliest attack on Jews in American history, the 
ADL says,'' CNN, October 28, 2018, available at https://www-m.cnn.com/
2018/10/27/us/jewish-hate-crimes-fbi/index.html.
    \3\ ADL, ``White Supremacist Terrorist Attack at Mosques in New 
Zealand,'' March 15, 2019, available at https://www.adl.org/blog/white-
supremacist-terrorist-attack-at-mosques-in-new-zealand.
    \4\ https://www.adl.org/blog/poway-attack-illustrates-danger-right-
wing-extremists-pose-to-jews-muslims.
---------------------------------------------------------------------------
    In hindsight, however, these killings are wholly unsurprising, 
given that both attackers were enmeshed in on-line communities that 
exposed them to content designed to teach and amplify hate and make 
them potentially violent. Bowers was an engaged and active member of a 
fringe on-line community called Gab, which, like similar on-line 
forums, is a bastion of hatred and bigotry.\5\ Gab has seen a surge in 
racist and anti-Semitic postings since the 2016 Presidential election. 
Tarrant and Earnest, too, were part of a fringe on-line community 
called 8chan, one of the most notoriously hateful on-line communities 
on the internet.\6\
---------------------------------------------------------------------------
    \5\ ADL, ``Gab Was Down For a Week, Forcing Extremists to Consider 
Their Alternatives,'' November 5, 2018, available at https://
www.adl.org/blog/gab-was-down-for-a-week-forcing-extremists-to-
consider-their-alternatives.
    \6\ https://www.adl.org/news/article/how-facebook-and-twitter-help-
amplify-fringe-websites.
---------------------------------------------------------------------------
    ADL has been researching white supremacy and other forms of hate 
on-line. We have been working to identify how to more effectively 
address this growing threat.
                          adl and on-line hate
    ADL has been working to combat on-line hate since 1985, with its 
``Computerized Networks of Hate'' report which explored how dial-up 
computer bulletin boards served as a communications tool for white 
supremacists who have a modem and a home computer.
    Since then, ADL has worked with the technology industry at each 
turn of its rapid expansion to help counter hate and extremism on-line. 
In the 1990's, ADL published reports on the state of on-line hate such 
as ``The Web of Hate: Extremists Exploit the Internet''\7\ and 
``Poisoning the Web: Hatred on-line.'' In 2012, ADL convened the 
``Anti-Cyberhate Working Group'' which consisted of leading 
stakeholders from both technology companies in Silicon Valley as well 
as civil society discuss the burgeoning problem of hate on social 
media, and explored ways to mitigate this threat through policy. In 
2014, inspired by this group, ADL released ``Best Practices for 
Responding to Cyberhate,'' which was endorsed by leading tech companies 
and became a guidepost for the industry.\8\
---------------------------------------------------------------------------
    \7\ ADL, ``The Web of Hate: Extremists Exploit the Internet,'' 
available at https://www.adl.org/sites/default/files/documents/assets/
pdf/combating-hate/ADL-Report-1996-Web-of-Hate-Extremists-exploit-the-
Internet.pdf.
    \8\ ADL, ``Best Practices for Responding to Cyberhate,'' available 
at https://www.adl.org/best-practices-for-responding-to-cyberhate.
---------------------------------------------------------------------------
    ADL has continued to consult with technologists and policy makers 
on issues of on-line hate in the years following, and, in 2017 ADL 
launched the Center for Technology and Society (CTS).\9\ CTS is the 
leading advocacy and research center headquartered in Silicon Valley 
focused on fighting hate and harassment on-line. Since its launch, CTS 
has contributed considerably to the advocacy on cyber hate spearheaded 
by ADL, convening the Cyberhate Problem Solving lab with Facebook, 
Microsoft, Twitter, and Google.\10\ The lab includes managers at these 
companies from both the policy teams as well as the engineering teams 
that put policies into practice. CTS has significantly expanded on 
ADL's research work on on-line hate. This includes projects like the 
on-line Hate Index with UC Berkeley's D-Lab--a cutting-edge project 
that combines social science and machine learning techniques to develop 
a new way for AI to understand language and context in order to help 
identify and measure on-line hate speech.\11\ CTS also worked with our 
Belfer Fellow, Samuel Woolley, to produce original research on how 
disinformation tactics were used to spread anti-Semitism on-line in 
advance of the 2018 midterm elections.\12\ Moreover, in an effort to 
keep up with new forms of interactive digital technology, CTS 
collaborated with Implosion Labs to understand the potential for hate 
in the emerging ecosystem of social virtual reality.\13\ CTS has also 
expanded its focus to fight hate, bias, and harassment in video games. 
CTS has worked with our Belfer Fellow Dr. Karen Schrier on ways in 
which games can foster empathy and reduce bias, developed a guide for 
game developers to explore issues of identity through game design,\14\ 
and recently released a white paper exploring research at the 
intersection of identity, bias, empathy, and game design.\15\
---------------------------------------------------------------------------
    \9\ https://www.adl.org/news/press-releases/adl-to-build-silicon-
valley-center-to-monitor-fight-cyberhate-omidyar-network-2.
    \10\ https://www.adl.org/news/press-releases/facebook-google-
microsoft-twitter-and-adl-announce-lab-to-engineer-new.
    \11\ https://www.adl.org/resources/reports/the-on-line-hate-index.
    \12\ https://www.adl.org/resources/reports/computational-
propaganda-jewish-americans-and-the-2018-midterms-the-amplification.
    \13\ https://www.adl.org/resources/reports/hate-in-social-virtual-
reality.
    \14\ https://www.adl.org/media/12529/download.
    \15\ https://www.adl.org/designing-ourselves.
---------------------------------------------------------------------------
    In February 2019, CTS released a survey report that focused on the 
American experience of on-line hate and harassment.\16\ The report 
considered how people were harassed on-line, which individuals and 
groups were targeted, the serious and lasting impact and effect on 
targets' lives, and how respondents want Government and the tech 
industry to address this pervasive and important issue.
---------------------------------------------------------------------------
    \16\ https://www.adl.org/on-lineharassment.
---------------------------------------------------------------------------
      internal processes: managing hate on a social media platform
    A significant number of Americans use mainstream social media 
platforms as a part of their day-to-day life. As we have outlined, the 
terrorist attack in Christchurch highlighted the role that mainstream 
social media companies play in amplifying the spread of violent, 
extreme, and hateful content on-line. It is clear that the public, 
Government, and civil society lack important knowledge about social 
media platforms' ability and responsibility to detect and decrease 
violent, extremist, and hateful content.
    In the wake of this horrific tragedy and others that have involved 
social media, we know more attention needs to be paid to the following 
issues: The process by which mainstream social media platforms manage 
violent and hateful content; the limitations hindering our ability to 
understand and evaluate platforms' efforts to decrease the prevalence 
of hate on-line; the weaknesses on each platform that allow for 
hateful, extreme, and violent content to reach users despite efforts by 
the platforms; and the need for more information and transparency 
regarding how effective tech companies' current practices are in 
countering hate, violence, and extremism on their platforms.
    When we refer to ``mainstream social media companies,'' we are 
primarily referring to Facebook (which owns Instagram), Google (which 
owns YouTube), Twitter, and Snapchat. These American companies own and 
operate platforms that have the largest number of monthly active 
users.\17\
---------------------------------------------------------------------------
    \17\ Aaron Smith and Monica Anderson, ``Social Media Use in 2018,'' 
Pew Research Center, March 1, 2018, available at https://
www.pewinternet.org/2018/03/01/social-media-use-in-2018/.
---------------------------------------------------------------------------
    Mainstream social media platforms are not bound by the laws of a 
particular country. Instead, when moderating hate, violence and 
extremism, each of the mainstream social media platforms is governed by 
two sets of rules. First is the individual platform's forward-facing 
rules, often called ``community guidelines.'' Second is an internal, 
more expansive and granular set of unnamed rules, used to review and 
analyze content through a process called ``content moderation.''\18\ 
These content moderation guidelines are typically developed, 
maintained, reviewed, and revised by the Policy, Security or Trust and 
Safety teams at a tech company.
---------------------------------------------------------------------------
    \18\ Kate Klonick, ``The New Governors: The People, Rules, And 
Processes Governing on-line Speech,'' available at https://
docs.house.gov/meetings/IF/IF00/20180905/108642/HHRG-115-IF00-20180905-
SD011.pdf.
---------------------------------------------------------------------------
    The internal, more expansive rules governing content moderation are 
enforced continuously by staff or contractors on an operations team. In 
April 2018, Facebook became the first tech company to state that they 
were publicly releasing their internal community guidelines; however, 
this claim is unverifiable.\19\
---------------------------------------------------------------------------
    \19\ Monika Bickert, ``Publishing Our Internal Enforcement 
Guidelines and Expanding Our Appeals Process,'' Facebook Newsroom, 
April 24, 2018, available at https://newsroom.fb.com/news/2018/04/
comprehensivecommunity-standards/.
---------------------------------------------------------------------------
    Historically, the majority of content reviewed through the content 
moderation process is reported to the platform by its users. If the 
content moderation process is predominantly reactive--meaning 
problematic activity is only flagged once it is reported to the 
platform by users--the burden is placed entirely on users and the 
platform is merely providing customer service in addressing--and 
selectively at that--user reports of hateful content. (User flagging of 
problematic content has also been employed to address other types of 
problematic content, such as copyright violations.) In the mean time, 
as a result of their business models and algorithms many of the larger 
platforms continued to monetize and promote harmful content in search 
of increasing user engagement. Ultimately, this model allowed platforms 
to de-prioritize addressing the existence of hateful content on their 
platforms.
    Notably, when mandated by law or when trying to avoid Government 
regulation, tech companies have shown the ability to coordinate and 
take proactive measures to moderate certain kinds of objectionable 
content. For example, in the areas of child pornography and 
international terrorism, the mainstream tech platforms have worked 
together--using technology that allows them to tag and catalog certain 
images and videos and coordinate across platforms--to proactively 
remove problematic content.\20\ A recent working paper questioned the 
efficacy of such efforts following the events of Christchurch.\21\ 
Nevertheless, tech companies have shown meaningful success in terms of 
mitigating ISIS-related terrorism content.\22\
---------------------------------------------------------------------------
    \20\ 9 [sic] Kaveh Waddell, ``A Tool to Delete Beheading Videos 
Before They Even Appear on-line,'' The Atlantic, June 22, 2016, 
available at https://www.theatlantic.com/technology/archive/2016/06/a-
tool-to-delete-beheading-videosbefore-they-even-appear-on-line/488105/.
    \21\ https://www.ivir.nl/publicaties/download/
Hash_sharing_Heller_April_2019.pdf.
    \22\ Nitasha Tiku, ``Tech Platforms Treat White Nationalism 
Different From Islamic Terrorism,'' WIRED, March 20, 2019, available at 
https://www.wired.com/story/why-tech-platforms-dont-treat-all-
terrorism-same/
?utm_source=twitter&utm_medium=social&utm_campaign=wired- 
&utm_brand=wired&utm_socialtype=owned; J.M. Berger, ``Nazis vs. ISIS on 
Twitter: A Comparative Study of White Nationalist and ISIS On-line 
Social Media Networks,'' GW Program on Extremism, September 2016, 
available at https://extremism.gwu.edu/sites/g/files/zaxdzs2191/f/
downloads/Nazis%20v.%20ISIS.pdf.
---------------------------------------------------------------------------
    It is worth noting that the proliferation of harmful content and 
the ineffectiveness to date of the tech companies' responses have led 
to calls to weaken or eliminate Section 230 of the Communications 
Decency Act of 1996. That is the law that protects tech platforms from 
being liable for content posted by users--so called user-generated 
content. This law is the fundamental bedrock for much of what has been 
transformative for good in the development of an open internet 
promoting free speech, community, access to knowledge, education, and 
creativity. For example, Section 230 enabled platforms like Wikipedia, 
the on-line encyclopedia, to be created and to thrive. Without the 
protections of Section 230 many innovations and smaller companies, 
including not-for-profit sites like Wikipedia, likely could not exist. 
So ADL is not calling for the elimination or ``swiss-cheesing'' of 
Section 230 protections.
    At the same time, immunity from liability for user-generated 
content--along with a dominant business model that monetizes engagement 
(and often harmful but impactful content)--as well as the lack of other 
regulations or meaningful self-governance helps foster a purely 
reactive culture among large social media platforms. That places the 
onus on users to bring problematic content to the attention of the 
companies. And as we now know, that model failed egregiously to find 
and mitigate harmful content and did not adequately protect our 
democracy from manipulation.
    However, one-size-fits-all-regulation concerning content moderation 
will have unintended consequences--including removing extremist and 
unlawful content to places where it cannot easily be found and 
preempted or prosecuted by law enforcement. It will have serious 
potential unintended consequences. In addition, it will almost 
certainly make it very expensive to comply with internet regulations 
and thus lead to the ironic effect of consolidating monopoly market 
positions of the very tech giants whose behavior has rightly concerned 
Congress, since few companies would be able to afford to comply with 
regulations or defend against countless lawsuits based on user content.
    Turning back to content moderation as it works when the onus is on 
users, once a user (or a group like ADL) has reported a piece of 
content, the process by which a company decides whether that piece of 
content violates the platform's guidelines, and what actions to take as 
a result, is unclear. It is completely a black box, and is not made 
transparent in the companies' transparency reports or in any other way. 
What is clear is that the final decision regarding what constitutes a 
violation of platform rules, including determinations regarding 
classifying specific content as anti-Muslim, anti-Semitic, or racist, 
is made solely and independently by the platform.
    Some platforms have also provided the ability for users to appeal 
decisions made by the platform,\23\ which will result in a second 
review of the content, and second determination by the platform--or if 
Facebook's new initiative gets off the ground,\24\ by a sort of 
independent Supreme Court--as to whether that piece of content violates 
the platform rules. In the case of the New Zealand massacre, Facebook 
stated that 200 people watched the live-streamed video of the attack, 
and no one reported it to the platform, until it was brought to the 
company's attention by the authorities in New Zealand.\25\ Indeed, the 
entire 17 minutes of the video remained up as it was being live-
streamed. While Facebook has recently made some changes to its live-
streaming function as a result of this,\26\ the efficacy of those 
efforts is not clear.
---------------------------------------------------------------------------
    \23\ Ian Wren, ``Facebook Updates Community Standards, Expands 
Appeals Process,'' NPR, April 24, 2018, available at https://
www.npr.org/2018/04/24/605107093/facebook-updates-community-standards-
expands-appeals-process; Jacob Kastrenakes, ``Twitter promises to 
respond more quickly to people who report abuse,'' The Verge, October 
17, 2017, available at https://www.theverge.com/2017/10/17/16492100/
twitter-updated-abuse-hate-harassment-ban-rules; Claudine Beaumont, 
``YouTube users can appeal against `violations,' '' The Telegraph, 
April 30, 2019, available at https://www.telegraph.co.uk/technology/
google/7876926/YouTube-users-can-appeal-against-violations.html.
    \24\ Chris Sonderby, ``Update on New Zealand,'' Facebook Newsroom, 
March 18, 2019, available at https://newsroom.fb.com/news/2019/03/
update-on-new-zealand/.
    \25\ Ibid.
    \26\ https://newsroom.fb.com/news/2019/05/protecting-live-from-
abuse/.
---------------------------------------------------------------------------
    Some of this process of content moderation can be automated through 
technology, including machine learning. This is especially true when 
there is little ambiguity regarding the nature of the content, as in 
the case of spam or child pornography. Tech companies also regularly 
include ``violent content'' as one category of content that can be 
easily caught through automated technological methods. The attack in 
New Zealand and social media's role in the spread of the live-streamed 
video of the event calls this claim into question. CTS recently wrote a 
piece discussing efforts companies can undertake to improve their 
efforts around live-streaming.\27\
---------------------------------------------------------------------------
    \27\ https://www.adl.org/news/article/livestreaming-hate-problem-
solving-through-better-design.
---------------------------------------------------------------------------
    Because hate speech or coded extremist activity require more 
context and nuance in review, this content is typically reviewed by a 
human moderator. Oftentimes, the automated tool and the human 
moderators work in tandem to detect and review complicated and nuanced 
hateful content. There, the tool will identify content that requires 
human judgment and will then route the content to the human reviewer. 
Once routed, the human reviewer will analyze the instance and either 
make a decision according to the platform rules or escalate for further 
review.
    Once a piece of content is determined to have violated the rules of 
a particular platform, the platform then decides the appropriate 
consequences for violating the rules. Consequences range from the 
individual piece of a content being removed, to the user being 
suspended for a certain period of time, to the user (or community) 
being banned from the platform altogether. Each platform has its own 
unique approach to analyzing violations of its platform rules and 
implementing consequences. Certain platforms have also experimented 
with alternate types of consequences. For example, Reddit has explored 
placing offensive or objectionable communities in quarantine, making it 
harder for users not explicitly seeking out that content to find it, 
such as in the case of 9/11 Truthers and Holocaust Deniers.\28\ Most 
recently, YouTube has taken a number of types of content--including 
white supremacist and Holocaust denial content--which it previously 
handled by placing in ``limited state'' and instead decided to remove 
these categories of content from the YouTube platform.\29\ This may 
speak to the lack of efficacy of this particular alternative method of 
``limited state,'' if reducing the ability of this content to be found 
was not enough to reduce the harm caused by it. Barring more 
information as to the nature of policy change, we can only surmise as 
to the effectiveness of these alternative approaches.
---------------------------------------------------------------------------
    \28\ Xeni Jardin, ``Reddit `quarantines' white supremacist, incel, 
holocaust denier, and other gross subreddits,'' Boing, September 28, 
2018, available at https://boingboing.net/2018/09/28/reddit-
quarantines-major-w.html.
    \29\ https://youtube.googleblog.com/2019/06/our-ongoing-work-to-
tackle-hate.html.
---------------------------------------------------------------------------
    Each company has specific and unique methods when handling hateful 
content on its platforms--from the definition of what is hateful and 
other rules, to content moderation practices, to actions and 
consequences. And each company shares its practices with varying 
degrees of openness or transparency. That said, this overview should 
provide a surface-level understanding of how mainstream social media 
platforms function in terms of managing hate, violence, and extremism 
on-line, when there is no legal (or compelling business) mandate to do 
so.
                    evaluating efforts by companies
    Evaluating the effectiveness of mainstream social media platforms' 
content moderation processes, however, is hard to gauge, especially in 
light of the scale at which these platforms operate. Platform content 
moderation is taking place on an on-going basis and will only become 
more important and more difficult as these platforms continue to grow. 
How well content moderation can scale is an open question, as platforms 
grow, as billions of new users come onto the internet, as what might be 
otherwise praiseworthy privacy innovations have the unintended 
consequence of making content moderation harder, and as disruptive 
technologies come on-line--such as virtually undetectable ``deep 
fakes'' that generate hate and violence while defeating detection. 
Already, in January 2019, it was reported that Facebook had 2.27 
billion monthly active users globally, while YouTube had 1.9 
billion.\30\ As of December 2018, Facebook reported that of the 30,000 
employees or contractors working on safety and security at Facebook, 
half of those are focused on reviewing content.\31\ In late 2017, 
YouTube stated that it was increasing the number of individuals 
reviewing content to 10,000 people.\32\
---------------------------------------------------------------------------
    \30\ Statista, ``Most famous social network sites 2019, by active 
users,'' January 2019, available at https://www.statista.com/
statistics/272014/global-social-networks-ranked-by-number-of-users/.
    \31\ Ellen Silver, ``Hard Questions: Who Reviews Objectionable 
Content on Facebook--And Is the Company Doing Enough to Support Them?'' 
Facebook Newsroom, July 26, 2018, available at https://newsroom.fb.com/
news/2018/07/hard-questions-content-reviewers/.
    \32\ Sam Levin, ``Google to hire thousands of moderators after 
outcry over YouTube abuse 
videos,'' The Guardian, December 5, 2017, available at https://
www.theguardian.com/technology/2017/dec/04/google-youtube-hire-
moderators-child-abuse-videos.
---------------------------------------------------------------------------
    At-scale information on the effectiveness of these efforts is 
currently only available via self-reported statistics from the 
companies, each with varying degrees of opacity and no form of on-
going, independent, external auditing. More research on the nature of 
the problem is available from outside academics and civil society; 
however, this research also has no agreed-upon definitions or set of 
metrics to evaluate hateful and extreme content. Further, these groups 
have limited access to platform information or data, including on the 
prevalence of hateful content on a given platform. Some of the 
researchers are bound by non-disclosure agreements.
    In spite of these limitations, there are two limited methods for 
understanding mainstream social media companies' efforts to address 
hateful, violent, and extreme content: Reports released by the tech 
companies, and external studies from academics and civil society.
                         reporting by companies
    One method of company reporting on hate is the transparency reports 
that tech companies release on a regular basis, without being legally 
required to do so. Transparency reports contain a set of metrics, set 
by each tech company, regarding moderation practices across self-
selected content areas on their platforms. For example, Facebook's 
first transparency report in 2013 reported solely on the number of 
times governments asked Facebook for information on users, and the 
number of times Facebook responded.\33\ Google's first transparency 
report from 2010 provided similar statistics, focused on Government 
requests to Google's suite of products, which included but did not 
disaggregate YouTube.\34\ In 2018, both Facebook and Google/YouTube 
provided their first public statistics regarding their content 
moderation practices related to the enforcement of their community 
guidelines.\35\
---------------------------------------------------------------------------
    \33\ Lorenzo Franceschi-Bicchierai, ``Facebook Releases First 
Transparency Report,'' Mashable, August 27, 2013, available at https://
mashable.com/2013/08/27/facebook-transparency-report/#j4SvneYzzPqx.
    \34\ Google, Transparency Report, available at https://
web.archive.org/web/20100924044616/ http://www.google.com:80/
transparencyreport/.
    \35\ 2 [sic] Guy Rosen, ``Facebook Publishes Enforcement Numbers 
for the First Time,'' Facebook newsroom, May 15, 2018, available at 
https://newsroom.fb.com/news/2018/05/enforcement-numbers/; Catherine 
Shu, ``YouTube releases its first report about how it handles flagged 
videos and policy violations,'' TechCrunch, available at https://
techcrunch.com/2018/04/23/youtube-releases-its-first-report-about-how-
it-handles-flagged-videos-andpolicy-violations/.
---------------------------------------------------------------------------
    They have since provided several updates on the enforcement of 
their community guidelines, which contain most of the same shortcomings 
CTS articulated earlier this year:\36\ The limited, vague, and 
sometimes nonexistent, metrics in these transparency reports do not 
provide material information either to users, looking to frequent a 
particular platform, or to external researchers in academia or civil 
society looking to understand and combat the phenomena of hate on-line. 
For example, none of the figures provided by the companies can answer 
basic questions such as: ``How much hate is there on platform X? Are 
there indications that the approaches to mitigating this problem by the 
company are working?'' or ``Is this platform a safe space for people 
who identify as X?'' More concerning is the fact that these metrics are 
self-chosen and self-reported, so that there is no independent 
verification that they are either meaningful or accurate.
---------------------------------------------------------------------------
    \36\ https://www.adl.org/blog/we-need-real-transparency-about-hate-
on-social-media.
---------------------------------------------------------------------------
    Additional reporting related to hate on-line has been conducted by 
the companies in relation to the ``Code of Conduct on Countering 
Illegal Hate Speech On-line'' which was signed by Facebook, Twitter, 
Google/YouTube and Microsoft and the European Union in 2016.\37\ In 
this agreement tech platforms agreed to work to together with the 
European Union to address terrorism and hate speech on-line. Most 
notably, the code of conduct stipulates a 24-hour turnaround on reports 
of ``illegal hate speech.'' In February 2019, the tech companies 
reported that 89 percent of flagged content is assessed within 24 hours 
and 72 percent of the content deemed to be illegal hate speech is 
removed. This is compared to 40 percent and 28 percent respectively 
when the Code was launched in 2016.\38\ Once again, there is no 
information available about what communities are being impacted and how 
these figures relate to the prevalence of hate across an entire 
platform, let alone across platforms. Additionally, once again, these 
figures are self-reported by the companies, and are not verified by any 
independent third party. Nor are there agreed-upon and externally 
audited metrics about resultant (or corollary) reductions in the 
impact, in addition to incidence of hateful content.
---------------------------------------------------------------------------
    \37\ European Commission, Code Of Conduct On Countering Illegal 
Hate Speech on-line http://ec.europa.eu/justice/fundamental-rights/
files/hate_speech_code_of_conduct_en.pdf; Commission of the European 
Communities Press.
    \38\ Commission of the European Communities Press Release, IP/19/
805, February 4, 2019, available at http://europa.eu/rapid/press-
release_IP-19-805_en.htm.
---------------------------------------------------------------------------
                             external study
    The other limited pathway available to help understand the 
phenomena of hate on mainstream social media platforms is through 
external studies conducted by academic researchers and/or civil 
society. The advantage to this kind of study is that it exists outside 
of the corporate structure of tech companies, and thus can engage more 
freely in research and public communication regarding findings. 
However, because the phenomena of hateful content is so context 
dependent, there are currently no common frameworks, metrics or 
definitions to apply to these studies, thus making it hard to compare 
results. For example, in 2018, reports were released by ADL, the 
Community Security Trust (CST) in the United Kingdom and the World 
Jewish Congress on the nature of anti-Semitism on-line. Each report had 
its own methodology in terms of defining anti-Semitism and each were 
looking at different and incomplete parts of various on-line platforms.
    At present, most studies of these kinds are based on data available 
from Twitter and Reddit. Both Twitter and Reddit provide the public 
with access to a portion of their data, while still respecting user 
privacy. This allows researchers to independently examine and measure 
the nature of hate on these platforms. However, the scale of the 
platforms is so vast and the resources of these external groups and 
individuals so limited that conducting any kind of analysis that is 
generalizable to any platform as a whole is extremely difficult and 
time-consuming.
          on-line hate and harassment: the american experience
    Since its launch, CTS has taken an extensive look at the phenomena 
of hate on-line. Through various independent studies, CTS has worked to 
increase the public's understanding of how hate manifests on-line and 
has provided new ways to think about potential solutions to this 
monumental and multi-faceted problem.
    In February 2019, CTS released the results of its survey on on-line 
hate and harassment in the United States.\39\ The survey found that 53 
percent of Americans experienced some form of on-line harassment, 
whereas 37 percent of Americans reported experiencing severe 
harassment, which includes physical threats, sexual harassment, 
stalking and sustained harassment. Of people who were targeted by 
harassment on-line based on their identity, the most targeted 
communities were the LGBTQ community (63 percent), Muslims (35 
percent), Latinx (30 percent), African-Americans (27 percent) and women 
(24 percent)
---------------------------------------------------------------------------
    \39\ ADL, ``On-line Hate and Harassment: The American Experience,'' 
available at https://www.adl.org/on-lineharassment.
---------------------------------------------------------------------------
    Notably, an overwhelming majority of respondents from across the 
political spectrum supported strengthening laws against perpetrators of 
on-line hate and harassment, strengthening laws applying to platforms, 
and providing more training to law enforcement on how to handle on-line 
hate and harassment.
    The survey model of understanding the problem of hate on-line 
avoids the limitations of the data provided by the platforms and the 
definitions agreed to by external researchers by allowing respondents 
to self-report and define their own experience of on-line hate. For 
example, the platform where respondents said they most often 
experienced hate and harassment was Facebook, followed by Twitter and 
YouTube. Getting this kind of cross-platform comparative results on the 
experience of users regarding hate on-line through the data publicly 
available from these companies and platforms is currently impossible. A 
survey-based approach, however, is a very broad measure, and cannot get 
at the absolute level of prevalence of hate and harassment on any 
particular on-line platform at any one time.
 computational propaganda, jewish-americans and the 2018 midterms: the 
            amplification of anti-semitic harassment on-line
    In November 2018, ADL released the report ``Computational 
Propaganda, Jewish-Americans and the 2018 Midterms: The Amplification 
of Anti-Semitic Harassment on-line.'' The report focused on how tactics 
of disinformation, such as the use of automated accounts or bots to 
spread content, are being utilized to spread anti-Semitism on-line. The 
study consisted of both qualitative interviews with leaders and public 
figures in the Jewish community and a quantitative analysis of 7.5 
million Twitter messages from August to September 2018.
    The report found that nearly 30 percent of accounts engaging in 
anti-Semitic behavior were in fact bots, and that those bots made up 
over 40 percent of the anti-Semitic content in that time period. The 
qualitative results found that for the Jewish public figures who 
participated in the study, experiencing threats of violence and deluges 
of anti-Semitism had become part of their internal calculus for 
engaging in public life. For some, it drove them to speak out more 
loudly and vigorously; others, often citing concern over the harassment 
of family members, friends and romantic partners, sought to make 
adjustments to their on-line activity.
    This type of study shows both the strengths and limits of studying 
on-line hate with data currently available from the companies. Given 
the data available from Twitter, the author, Sam Woolley, was able to 
look deeply at a particular moment in time on a platform, leading up to 
a particular event and to perform analysis of certain activities on the 
platform related to hate within that time frame. The limitation of this 
study is that we cannot generalize to the whole of one platform, such 
as Twitter, even within the narrow subject matter of how disinformation 
tactics spread anti-Semitism. To do so would require significantly more 
effort and resources. Without getting a great deal closer to 
understanding the prevalence and impact of particular hateful content, 
among other data points, it is difficult to devise the best mitigation 
tactics or to measure their effectiveness.
                         the on-line hate index
    In an effort to provide a set of metrics or a common language as to 
the nature of hate on-line, ADL has been working in partnership with UC 
Berkeley's D-Lab on a project called the on-line Hate Index. The on-
line Hate Index combines social science practices with machine learning 
techniques to create an academically rigorous way to understand the 
phenomena of hate on-line.
    For a machine learning algorithm to actually learn, it requires 
large amounts of data that is labeled as to what it is or what it is 
not. For a machine learning algorithm to learn to detect hate speech 
on-line, it would need a large data set with some comments labeled as 
hateful and some labeled as not. At present, there are not many 
datasets that exist like this, and the ones that do exist are not very 
expansive. The on-line Hate Index project is working to provide a tool 
which will be available to the public that allows on-line comments to 
be labeled systematically and rigorously from a social science 
perspective, incorporating a myriad of community perspectives, so that 
there is a clear set of metrics and understandings as to the nature of 
hate on-line not only from the perspective of the speaker, but from the 
targets.
    This approach is novel in the sense that it is not directly 
engaging in research on the problem, but rather creating a methodology 
whereby future research of hate on-line can be conducted in a more 
systematic and uniform way. The issue here is, again, the tool will 
only be as good as the data to which it has access. The limited data 
currently provided by tech platforms limits the ability of innovative 
researchers such as the team at UC Berkeley's D-Lab from creating a 
shared understanding of the problem in the research community.
                         policy recommendations
    The challenges discussed above are complex and wide-ranging and 
require a whole-of-society response. There is no magic bullet. Indeed, 
there is not even a collective set of magic bullets. A constantly 
iterative interdisciplinary approach will be needed, drawing upon 
education in K-12 and in universities, engagement of various 
professions and industries (including, perhaps venture capital firms), 
a change in the divisive and polarizing rhetoric that has become 
mainstream at the highest levels of government, the training of 
engineers, including those developing games, the creation of tools and 
better coordination between humans and those tools, the inclusion of 
targeted communities and the groups that represent them, innovative 
marketing campaigns, litigation, and legislation, and reform in self-
governance, to name a handful. How to balance content moderation and 
privacy and free expression concerns will remain challenging, to say 
the least.
    Nonetheless, we must start somewhere, and quickly. Below are some 
initial recommendations for government and tech platforms to address 
hate on-line and the threat that it poses to Americans and people 
around the world.
          on-line hate: policy recommendations for government
Strengthen Laws Against Perpetrators of On-line Hate
  <bullet> Hate and harassment have moved from on the ground to on-
        line, but our laws have not kept up. Many forms of severe on-
        line misconduct are not consistently covered by current cyber 
        crime, harassment, stalking, and hate crime laws. While many of 
        these issues can and should be enacted and enforced at the 
        State level, Congress has an opportunity to lead the fight 
        against cyber hate by increasing protections for targets as 
        well as penalties for perpetrators of on-line misconduct.
  <bullet> Some actions Congress can take include:
    <bullet> Revising Federal law to allow for penalty enhancements 
            based on cyber-related conduct
    <bullet> Updating Federal stalking and harassment statutes' intent 
            requirement to account for on-line behavior where intent or 
            targeting is not present in the traditional sense but the 
            harm to the individual is just as devastating;
    <bullet> Legislating specifically on cyber crimes such as doxing, 
            swatting, and non-consensual pornography. ADL endorsed the 
            on-line Safety Modernization Act, which was introduced in 
            the last Congress to fill these gaps.
Urge Social Media Platforms to Institute Robust Governance
  <bullet> Government officials have an important role to play in 
        encouraging social media platforms to institute robust and 
        verifiable industry-wide self-governance. This could take many 
        forms, including Congressional oversight or passage of laws 
        that require certain levels of transparency and auditing. As 
        noted, one-size-fits-all laws specifying particular types of 
        content moderation are unlikely to be effective. The internet 
        plays a vital role in allowing for innovation and democratizing 
        trends, and that should be preserved. At the same time the 
        ability to use it for hateful and severely harmful conduct 
        needs to be effectively addressed. An escalating series of 
        regulations, depending upon a platform's successful self-
        regulation, may be an option. There are other areas of law to 
        which we can look to find systems that allow individual 
        companies to meet required thresholds in the ways best suited 
        for the manner in which they operate.
Improve Training of Law Enforcement
  <bullet> Law enforcement is a key responder to on-line hate, 
        especially in cases when users feels they are in imminent 
        danger. Increasing resources and training for these departments 
        is critical to ensure they can effectively investigate and 
        prosecute cyber cases and that targets know they will be 
        supported if they contact law enforcement.
               on-line hate recommendations for industry
Enhance Transparency
  <bullet> Platforms must report meaningful statistics to the public 
        about the prevalence of hate on their platforms. The metrics of 
        these reports should be determined in consultation with trusted 
        third parties so that they will be of value to the communities 
        most impacted by hate on-line.
Improve Accountability
  <bullet> Any public reporting done by tech companies regarding hate 
        on-line, whether through transparency reports or reporting 
        through other initiatives, should be reviewed and verified by 
        trusted third parties. Additionally, platforms should submit to 
        an external audit of hate on their platforms, to allow for a 
        fully independent analysis of the effectiveness of a company's 
        policies and practices in terms of mitigating hate on-line.
Provide Data
  <bullet> Platforms should, while respecting the privacy of their 
        users, provide meaningful data to external researchers to 
        advance understanding of the problem of hate on-line and to 
        promote innovation in solutions to mitigate the problem.
Ensure Strong Policies Against Hate
  <bullet> Privacy-by-design has become a best practice over the past 
        years. At the risk of being a bit facile, so must ``anti-hate-
        by-design.'' Every social media platform must have clear and 
        transparent terms of service that address hateful content and 
        harassing behavior, and clearly define consequences for 
        violations. These policies should include, but should not be 
        limited to:
    <bullet> Making clear that the platform will not tolerate hateful 
            content or behavior on the basis of protected 
            characteristics.
    <bullet> Prohibiting abusive tactics such as harassment, doxing, 
            and swatting.
    <bullet> Establishing an appeal process for users who feel their 
            content was flagged as hateful or abusive in error.
Strengthen Enforcement of Policies
  <bullet> Social media platforms should assume greater responsibility 
        to enforce their policies and to do so accurately at scale. 
        This means:
    <bullet> Improving the complaint process so that it provides a more 
            consistent and speedy resolution for targets. We know from 
            research that content moderators regularly make mistakes 
            when it comes to adjudicating hateful content.
    <bullet> Relying less on complaints from individual users, and 
            instead proactively, swiftly, and continuously addressing 
            hateful content using a mix of artificial intelligence and 
            humans who are fluent in the relevant language and 
            knowledgeable in the social and cultural context of the 
            relevant community.
Design to Reduce Influence and Impact of Hateful Content
  <bullet> Social media companies should design their platforms and 
        algorithms in a way that reduces the influence of hateful 
        content and harassing behavior. Steps should include:
    <bullet> Making hateful content more difficult to find in search 
            and algorithmic recommendations. This means, for example, 
            never recommending hatemongers' tweets, suggesting them as 
            friends, or auto-playing their videos.
    <bullet> Removing advertisements from hateful content.
    <bullet> Not allowing hateful content to be monetized for profit.
    <bullet> Labeling content suspected to be from automated ``bot'' 
            accounts, given the use of bots for spreading hate.
Expand Tools and Services for Targets
  <bullet> Given the prevalence of on-line hate and harassment, 
        platforms should offer far more user-friendly services, tools, 
        and opportunities for individuals facing or fearing on-line 
        attack. This includes:
  <bullet> Greater filtering options that allow individuals to decide 
        for themselves how much they want to see likely hateful 
        comments. What goes into default settings should also be 
        considered.
  <bullet> Protections for individuals who are being harassed in a 
        coordinated way.
  <bullet> User-friendly tools to help targets preserve evidence and 
        report problems to law enforcement and companies.
  <bullet> Enhanced industry support for counter-speech initiatives, 
        including fostering, aggregating and promoting positive 
        messages responding to offensive content.
                               conclusion
    We implore you and all public leaders to consistently call out 
bigotry and extremism at every opportunity. We all have a 
responsibility to make clear that America is no place for hate.
    We at ADL look forward to working with Members of the committee and 
the tech industry to understand and combat hate on-line, and to ensure 
justice and fair treatment to all in digital spaces.

    Chairman Thompson. I thank the witnesses for their valuable 
testimony and Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    The other point I would like to make, for Facebook, you 
were 30 hours late with your testimony. Staff took note of it. 
For a company your size, that was just not acceptable for the 
committee. So I want the record to reflect that.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Chairman Bennie G. Thompson for Monika Bickert
    Question 1. Does your company currently make data on on-line terror 
content and misinformation--including the amount and types of content 
you remove--available for academics and other stakeholders to research? 
In what ways or what partnerships? Will you commit to making such data 
available to researchers?
    Answer. To track our progress and demonstrate our continued 
commitment to make Facebook safe and inclusive, we regularly release 
our Community Standards Enforcement Report. This report shares metrics 
on how Facebook is performing in preventing and removing content that 
goes against our Community Standards. We also release a ``prevalence'' 
metric that estimates how much violating content has been posted on the 
platform. The report is focused on the following categories:
  <bullet> Terrorist propaganda (ISIS, al-Qaeda and affiliates)
  <bullet> Adult nudity and sexual activity
  <bullet> Bullying and harassment
  <bullet> Child nudity and sexual exploitation of children
  <bullet> Fake accounts
  <bullet> Hate speech
  <bullet> Regulated goods (drugs and firearms)
  <bullet> Spam
  <bullet> Violence and graphic content.
    For the first time in our May 2019 report, we also began sharing 
data on our process for appealing and restoring content to correct 
mistakes in our enforcement decisions. That report can be viewed at 
https://transparency.facebook.com/community-standards-enforcement. We 
continue to look for ways to expand and enhance the report moving 
forward.
    We have also launched the Content Policy Research Initiative 
(CPRI), which invites experts and researchers to help inform 
development of our content policies and assess possible product 
solutions to countering hateful and harmful content. At present, CPRI 
is focused on:
  <bullet> Hate speech and harmful speech
  <bullet> Preventing off-line harm
  <bullet> Bullying and harassment
  <bullet> Fairness in global enforcement.
    CPRI is comprised of both funding opportunities to support external 
research on content policy issues, as well as workshops where we openly 
share internal research methodology, discuss how we measure violations 
on the platform, explain policy making and processes, and work to 
identify areas that are ripe for collaboration with the research 
community. For more information about CPRI, see https://
research.fb.com/programs/content-policy-research/#About.
    Question 2. Private posts containing objectionable content pose a 
unique challenge for moderation. How does your company reconcile data 
privacy with the challenges of moderating content that violates your 
terms of service, including terrorist content and misinformation?
    Answer. Although the visibility of material varies for the general 
public based on the setting in which it is posted, our systems can 
proactively detect and remove violating content, including terrorist 
content, to help improve on-line safety. We do this by analyzing 
specific examples of bad content that have been reported and removed to 
identify patterns of behaviors. Those patterns can be used to teach our 
software to proactively find other, similar problems.
    Question 3. Does your company currently share AI training data 
related to counterterrorism with other social media companies? If not, 
is there a plan to share such data in the future?
    Answer. We are 1 of 4 founding members of the Global Internet Forum 
to Counter Terrorism (GIFCT). As part of this industry partnership, we 
are jointly focused on tech innovation--one of the key pillars of 
GIFCT's work. The partnership is crucial to combating terrorist content 
on on-line platforms. GIFCT is committed to working on technological 
solutions to help thwart terrorists' use of our services, including 
through a shared industry hash database, where companies can create 
``digital fingerprints'' for terrorist content and share it with other 
participating companies. The database, which became operational in the 
spring of 2017, now includes 15 companies that contribute to it, more 
than 200,000 visually distinct image hashes, and more than 10,000 
visually distinct video hashes. It allows the 15 member companies to 
use those hashes to identify and remove matching content--videos and 
images--that violate our respective policies or, in some cases, block 
terrorist content before it is even posted. Each company has different 
policies, practices, and definitions as they relate to extremist and 
terrorist content. If content is removed from a company's platform for 
violating that platform's individual terrorism-related content 
policies, the company may choose to hash the content and include it in 
the database. GIFCT also has created an on-line resource for smaller 
tech companies to seek support and feedback.
    We recognize that our work is far from done, but we are confident 
that we are heading in the right direction. We will continue to provide 
updates as we forge new partnerships and develop new technology in the 
face of this global challenge.
    Question 4. How is your company working together with other 
companies to share technology, information, and resources to combat 
misinformation? Is there an analogue to the Global Internet Forum to 
Counter Terrorism (GIFCT) for misinformation on your platforms?
    Answer. We believe that tech companies, media companies, newsrooms, 
and educators all need to work together to address the societal problem 
of misinformation. We are engaged with partners across these industries 
to help create a more informed community.
    In doing so, we have greatly expanded our efforts to fight false 
news: We are getting better at removing fake accounts and coordinated 
inauthentic behavior; we are using both technology and people to fight 
the rise in photo- and video-based misinformation; we have deployed new 
measures to help people spot false news and get more context about the 
stories they see in News Feed; and we have grown our third-party fact-
checking program to include 54 certified fact-checking partners who 
review content in 42 languages. And we are making progress. Multiple 
research studies suggest that these efforts are working and that 
misinformation on Facebook has been reduced since the U.S. Presidential 
elections in 2016.
    But misinformation is a complex and evolving problem, and we have 
much more work to do. With more than a billion things posted to 
Facebook each day, we need to find additional ways to expand our 
capacity. The work our professional fact-checking partners do is an 
important piece of our strategy. But there are scale challenges 
involved with this work. There are simply not enough professional fact-
checkers world-wide, and fact-checking--especially when it involves 
investigation of more nuanced or complex claims--takes time. We want to 
be able to tackle more false news, more quickly.
    As we have worked to expand our misinformation efforts over the 
past 2 years, we have also been doing extensive research and talking to 
outside experts to identify additional approaches that might bolster 
our defenses. One promising idea we have been exploring involves 
relying on groups of people who use Facebook to point to journalistic 
sources that can corroborate or contradict the claims made in 
potentially false content.
    We are also consulting a wide range of academics, fact-checking 
experts, journalists, survey researchers, and civil society 
organizations to understand the benefits and risks of ideas like this. 
We are going to share with experts the details of the methodology we 
have been thinking about to help these experts get a sense of where the 
challenges and opportunities are, and how they will help us arrive at a 
new approach. We will also share updates from these conversations 
throughout the process and find ways to solicit broader feedback from 
people around the world who may not be in the core group of experts 
attending these roundtable events.
    We all must work together to find industry solutions that 
strengthen the on-line news ecosystem and our own digital literacy. 
That is why we are collaborating with others who operate in this space. 
For instance, through the Facebook Journalism Project, we seek to 
establish stronger ties between Facebook and the news industry. The 
project is focused on developing news products, providing training and 
tools for journalists, and working with publishers and educators on how 
we can equip people with the knowledge they need to be informed readers 
in the digital age.
    Taking the fight against misinformation to the next level is an 
important task for us. There are elections around the world month after 
month, only adding to the everyday importance of minimizing false news. 
We plan to move quickly with this work, sharing some of the data and 
ideas we have collected so far with the experts we consult so that we 
can begin testing new approaches as soon as possible.
    Question 5. What is your company doing to ensure that your human 
content moderators are provided with all the resources they need in 
order to carry out their jobs, including mental health resources and 
adequate pay?
    Answer. We are committed to providing support for our content 
reviewers, as we recognize that reviewing certain types of content can 
be hard. That is why everyone who reviews content for Facebook goes 
through an in-depth, multi-week training program on our Community 
Standards and has access to extensive support to ensure their well-
being. This includes on-site support with trained practitioners, an on-
call service, and health care benefits from the first day of 
employment.
    Facebook actively requests and funds an environment that ensures 
this support is in place for the reviewers employed by our partners, 
with contractual expectations around space for resiliency and wellness, 
wellness support, and benefits including health care, paid time off, 
and bonuses.
    In 2015, we introduced a new set of standards for people who do 
contract work in the United States and since 2016, we have also 
required vendors in the United States to provide comprehensive health 
care to all of their employees assigned to Facebook. In the years 
since, it has become clear that $15 per hour does not meet the cost of 
living in some of the places where we operate. After reviewing a number 
of factors including third-party guidelines, we are committing to 
providing compensation that reflects local costs of living. This means 
a raise to a minimum of $20 per hour in the San Francisco Bay Area, New 
York City, and Washington, DC, and $18 per hour in Seattle. We will be 
implementing these changes by mid-next year, and we are working to 
develop similar standards for other countries.
    For workers in the United States that review content on Facebook, 
we are raising wages even more. Their work is critical to keeping our 
community safe, and it is often difficult. That is why we have paid 
content reviewers more than minimum wage standards, and why we will 
surpass this new living wage standard as well. We will pay at least $22 
per hour to all employees working for our vendor partners based in the 
Bay Area, New York City, and Washington, DC; $20 per hour to those 
living in Seattle; and $18 per hour in all other metro areas in the 
United States. As with all people who do contract work, we are working 
to develop similar international standards. This work is on-going, and 
we will continue to review wages over time.
    In addition to pay, we collaborate with our vendor partners to 
ensure they are providing a holistic approach to well-being and 
resiliency that puts the needs of their employees first. We have a team 
of clinical psychologists across three regions who are tasked with 
designing, delivering, and evaluating resiliency programs for everyone 
who works with objectionable content. This group works closely with our 
partners and each of their dedicated resiliency professionals to help 
build resiliency programming standards for their teams and share best 
practices. These programs are important as support and resiliency is so 
personal to each and every person. Everyone has their own way to build 
resilience and we, and our partners, work hard to ensure that resources 
are in place to help do that.
    We are also employing technical solutions to limit exposure to 
graphic material as much as possible. For the first time, we have added 
preferences that let reviewers customize how they view certain content. 
For example, they can now choose to temporarily blur graphic images by 
default before reviewing them. We made these changes after hearing 
feedback that reviewers want more control over how they see content 
that can be challenging.
    In April, we hosted all of our vendor partners at a summit to 
discuss on-going improvement and commitment to the work in these areas. 
We also formed an Advisory Working Group specific to resiliency issues. 
The group includes a subject-matter expert from each vendor partner to 
ensure that we are sharing across partners and setting standards going 
forward.
    Content review at our size can be challenging and we know we have 
more work to do. This is an important issue and we are committed to 
getting this right and to supporting our content reviewers in a way 
that puts their well-being first.
    Question 6. Prior to introducing new policies or products on your 
platforms, what processes does your company have in place to anticipate 
and plan for unintended consequences, harmful side effects, or 
exploitation by bad actors, including terrorists and those seeking to 
spread misinformation?
    Answer. Our Community Standards are a living set of guidelines--
they must keep pace with changes happening on-line and in the world. 
The core of our policy development process is a twice-monthly, global 
meeting where we debate and discuss potential changes to our Community 
Standards. In preparation for these meetings, members of our content 
policy team reach out to internal and external experts, analyze data, 
conduct research, and study relevant scholarship to inform our policy 
proposals. This multi-step effort allows us to account for both a range 
of perspectives and opinions across the globe, as well as unintended 
consequences and efforts to thwart our policies. When our policies are 
written or updated, we share those updates on our Community Standards 
website. More information about this process is available at https://
newsroom.fb.com/news/2019/04/insidefeed-community-standards-
development-process/ and https://www.facebook.com/commun- itystandards/
additional_information.
    Question 7. Facebook's latest Transparency Report contains some 
metrics for understanding Facebook's efforts to combat hate speech on 
its platform, but the report says that Facebook can't measure the 
prevalence of hate content. This is concerning because users, advocacy 
organizations, and Congress can only make sense of Facebook's 
enforcement performance if it can be compared to the prevalence of hate 
on the platform. What is preventing Facebook from reporting on the 
prevalence of hate content on your platform? Can Facebook report on 
U.S.-specific data? Does Facebook plan to report on this in the future?
    Community Standards Enforcement Report: Hate Speech, Facebook, 
https://transparency.facebook.com/community-standards-enforcement#hate-
speech (accessed July 9, 2019).
    Answer. We cannot currently estimate the prevalence of hate content 
on Facebook. But our prevalence measure is expanding to cover more 
languages and regions and to account for cultural context and nuances 
for individual languages.
    Measuring prevalence is difficult in some scenarios because it 
requires sampling content randomly. This prevalence methodology 
requires a very large number of content samples to estimate a precise 
measure for violations that are viewed very infrequently, such as 
Terrorist Propaganda. For these types of violations, we can only 
estimate the upper limit of violating views--meaning that we are 
confident that the prevalence of violating views is below that limit.
    Question 8. How do you anticipate making GIFCT effective in the 
next 5 years? Is there a plan to increase the resources devoted to 
GIFCT? Is there a plan to have a permanent staff and a physical 
location?
    Answer. The Global Internet Forum to Counter Terrorism (GIFCT) was 
founded to improve the ability of technology companies to identify and 
remove terrorist content. It is not a panacea, and has never been 
presented as such. Many of its programs are designed to help smaller 
technology companies improve their enforcement efforts.
    When GIFCT was founded in 2017, we worked in 3 workstreams--
employing and sharing technology, facilitating knowledge sharing, and 
supporting research. We have made major progress in these areas. Our 
shared hash-database includes hashes from more than 200,000 visually 
distinct pieces of content; we have engaged more than 120 technology 
companies in 11 workshops on 4 continents; and the research network we 
sponsored has published 7 papers on a range of issues, including 
lessons learned from regulation of the financial industry and a 
comparative study of how countries in the Five Eyes define and counter 
terrorism. Over the course of 2019, we will be holding workshops in 
Jordan, California, India, and the United Kingdom, along with a high-
level event with the United Nations' General Assembly in September.
    In the wake of the Christchurch attacks, we made the decision to 
add a fourth major workstream: Developing the ability to cooperate in a 
crisis. That commitment was drawn from elements of the Christchurch 
Call and led to an announcement on July 24 at the GIFCT Annual Summit 
about a new Content Incident Protocol to be used by the 4 founding 
GIFCT companies. The Protocol includes the ability to quickly spin up 
dedicated mechanisms within our hash-sharing database to share 
information relevant to a crisis scenario.
    Strengthening GIFCT is critical going forward and we are working 
with our partner companies to consolidate the consortium and ensure it 
can play a stronger role in the years to come. At the same time, policy 
makers must understand that the vast majority of the work that Facebook 
does to identify and remove terrorist content is not dependent on 
GIFCT. Rather, it relies on internal efforts and technology. GIFCT is a 
critical tool to leverage those efforts across industry. But the most 
important enforcement work we do on Facebook is driven internally.
    More information about GIFCT is available on its website: 
www.gifct.org.
    Question 9. Have members of GIFCT agreed on a common standard for 
prohibited terrorist content? If so, what are those standards and how 
do you ensure they are updated?
    Does GIFCT meet regularly to discuss trends in terrorist content? 
In addition to combatting ISIS and al-Qaeda content, does GIFCT focus 
on content related to other designated foreign terrorist organizations 
as well as right-wing extremist groups, such as white supremacist 
extremists? If not, is there a plan to do so?
    Answer. GIFCT members must prohibit terrorism in their Terms of 
Service, enable user reports of terrorism, agree to collaborate on 
technology, and commit to transparency reports. GIFCT also supports 
Tech Against Terrorism, an NGO that provides coaching for companies 
that need to develop these elements.
    The United Nations has been debating the definition of 
``terrorism'' for decades and even U.S. agencies define terrorism 
differently. The hash-sharing database is structured around the United 
Nations' Consolidated Sanctions list, with the exception of material 
produced during a crisis. Hash-sharing is ultimately a referral 
mechanism, but each company enforces against content per its own 
policies.
    Facebook's internal definitions of terrorism are available in our 
public-facing Community Standards. We remove content that supports 
Foreign Terrorist Organizations and define terrorism based on the 
behavior of groups and individuals. This means that we have long listed 
a wide-range of organizations--jihadis, right-wing, and left-wing--as 
terrorists.
      Questions From Honorable Lauren Underwood for Monika Bickert
    Question 1. During the hearing, you committed to providing in 
writing details on Facebook's partnership with Life After Hate, 
including financial support, and on any plans Facebook has to provide 
Life After Hate with continuous funding for the duration of Facebook's 
partnership with them. Please provide this information.
    Answer. We support Life After Hate's mission and, as Monika Bickert 
testified, they are ``doing great work with us.'' We provided Life 
After Hate with an initial grant when we set up the redirect 
initiative. We are currently working with the organization to help it 
manage the increased volume as a result of our productive partnership. 
We are awaiting their proposal to upscale our support and expect to 
have additional funding for them in the near future.
    Question 2a. During the hearing, you committed to provide in 
writing the percentage of Facebook users who click on links to 
``additional reporting'' that Facebook displays next to content that 
contains disinformation.
    Please provide this information, broken down by each month since 
Facebook began displaying links to additional reporting next to content 
that contains disinformation.
    Question 2b. Please provide a complete list, as well as a breakdown 
by percentage, of the websites that Facebook's suggested ``additional 
reporting'' links to.
    Answer. We do not capture metrics that would allow us to determine 
what percentage of Facebook users click on links that provide 
additional reporting. But we recognize that this is an important issue. 
False news is bad for people and bad for Facebook. Therefore, to help 
people make informed decisions about what to read, trust, and share, we 
built products that give people more information directly in News Feed. 
We also demote false news, which is one of our best weapons because 
demoted articles typically lose 80 percent of their traffic.
    We are continuing to evaluate these methods to ensure that they are 
providing a clear signal to people about the credibility of fact-
checked content when users encounter such content on Facebook.
    We have found this strategy to be successful. For example, we saw 
that when we started showing related articles to people--and in doing 
so, made the context from fact-checkers front and center in News Feed--
people were less likely to share the false stories.
    We know there is more to do, and we are prioritizing fighting 
misinformation. We would be happy to brief you or your staff to provide 
you with more information about our efforts in this area.
    Question 3a. During the hearing, you stated that Facebook has 
``launched some recent measures'' to combat vaccine hoaxes and 
disinformation, and that you would have additional measures in 
partnership with ``major health organizations'' in place ``soon.''
    Please provide a detailed description of all measures that Facebook 
currently has in place to combat vaccine hoaxes and disinformation on 
Facebook, Instagram, and WhatsApp.
    Question 3b. Please provide a detailed description and an exact 
date of implementation for those additional future measures.
    Question 3c. Please provide a list of the ``major health 
organizations'' that Facebook is working with to combat vaccine 
disinformation and hoaxes.
    Answer. We are working to tackle vaccine misinformation on Facebook 
by reducing its distribution and providing people with authoritative 
information on the topic. Our efforts include:
  <bullet> Reducing the ranking of groups and pages that spread 
        misinformation about vaccinations in News Feed and Search. 
        These groups and pages are not included in recommendations or 
        in predictions when you type into Search.
  <bullet> When we find ads that include misinformation about 
        vaccinations, we reject them. We also have removed related 
        targeting options, like ``vaccine controversies.'' For ad 
        accounts that continue to violate our policies, we may take 
        further action, such as disabling the ad account.
  <bullet> We do not show or recommend content that contains 
        misinformation about vaccinations on Instagram Explore or 
        hashtag pages.
  <bullet> We are exploring ways to share educational information about 
        vaccines when people come across misinformation on this topic.
  <bullet> We have also removed access to our fundraising tools for 
        pages that spread misinformation about vaccinations on 
        Facebook.
    As part of our effort to combat vaccine misinformation, we work 
with global health organizations, such as the World Health Organization 
and the U.S. Centers for Disease Control and Prevention, which have 
publicly identified verifiable vaccine hoaxes. If these vaccine hoaxes 
appear on Facebook, we take action against them. For example, if a 
group or page admin posts vaccine misinformation, we exclude the entire 
group or page from recommendations, reduce these groups' and pages' 
distribution in News Feed and Search, and reject ads with this 
misinformation.
    We also believe in providing people with additional context so they 
can decide whether to read, share, or engage in conversations about 
information they see on Facebook. We are exploring ways to give people 
more accurate information from expert organizations about vaccines at 
the top of results for related searches, on pages discussing the topic, 
and on invitations to join groups about the topic.
    Question 4. Before Facebook announced its digital currency, Libra, 
did Facebook evaluate or otherwise conduct ``red-teaming'' to assess 
potential use of Libra for gang activity, terrorism, child abuse, or by 
other bad actors?
    Answer. We made the deliberate decision to announce the plans for 
Libra early after an initial consultative phase with regulators, 
central banks, and other organizations. The time between now and launch 
is designed to be an open, collaborative process. We know that we 
cannot do this alone and that engaging with regulators, policy makers, 
and experts is critical to Libra's success. We will take the time to 
get this right. The Libra Association will set standards for its 
members to maintain anti-money-laundering and anti-fraud programs, and 
to cooperate with legitimate law enforcement investigations. The 
Association will also develop monitoring programs and work with vendors 
who have expertise in identifying illicit activity on public 
blockchains. That said, most of the work of preventing illicit activity 
will happen at the service-provider level. These service providers will 
include payment services and marketplaces that are already trusted 
today by millions of people to complete their transactions safely, and 
that have major investments in people and technology to fight fraud and 
prevent illicit activity.
    The service provider for which Facebook will be responsible is 
Calibra, a Facebook subsidiary. Calibra will incorporate know-your-
customer and anti-money-laundering methodologies used around the world, 
including those focused on customer identification and verification, 
and risk-based customer due diligence, while developing and applying 
technologies such as machine learning to enhance transaction monitoring 
and suspicious activity reporting. Calibra's efforts will be 
commensurate with its risk profile based on several factors, such as 
Calibra's product features, customer profiles, geographies, and 
transaction volumes.
      Questions From Ranking Member Mike Rogers for Monika Bickert
    Question 1. During the hearing, Professor Strossen raised a number 
of concerns about the dangers of moderating speech. Rather than 
censorship, she offered a number of suggestions to empower users. What, 
if anything, are your companies doing to provide more filtering tools 
to enhance the ability of users to control the content they see?
    Answer. The goal of News Feed is to connect people with the posts 
they find most relevant. We want to ensure that people see the content 
that is important to them--whether that is posts from family and 
friends or news articles and videos from pages they follow.
    We have built, and are continuing to build, new controls so that 
people can tell us directly what content they want to prioritize, take 
a break from, or get rid of in their News Feed. If our users want to 
make sure they see everything from a certain person, they can use the 
``See First'' feature to put that person's posts at the top of their 
Feed (for more information, see https://www.facebook.com/help/
1188278037864643). If they have heard too much from someone, users can 
``Unfollow'' that person (for more information, see https://
www.facebook.com/help/190078864497547). If users just want to take a 
break from someone, the ``Snooze'' feature removes that person from 
their News Feed for 30 days (for more information, see https://
www.facebook.com/help/538433456491590).
    Question 2. Do you have recommendations for ways to more 
effectively address the extremist content found on many of the off-
shore, fringe social media sites?
    Answer. One idea is for third-party bodies to set standards 
governing the distribution of harmful content and measure companies 
against those standards. Regulation could set baselines for what is 
prohibited and require companies to build systems for keeping harmful 
content to a bare minimum.
    Facebook already publishes transparency reports on how effectively 
we are removing harmful content. We believe every major internet 
service should do this quarterly, because it is just as important as 
financial reporting. Once we understand the prevalence of harmful 
content, we can see which companies are improving and where we should 
set the baselines.
    We are also a founding member of the Global Internet Forum to 
Counter Terrorism (GIFCT), through which we partner with others in the 
tech industry to combat terrorism and violent extremism on-line. Our 
work is focused on four key areas, one of which is sharing knowledge 
with smaller tech companies and bringing other sectors' expertise to 
the table.
    In this vein, we have partnered with Tech Against Terrorism to host 
11 workshops in 9 countries on 4 continents. As a result, we have 
engaged with over 120 tech companies, over 25 NGO's, and 12 government 
bodies. And just recently, we rolled out a cross-platform counter-
violent extremist toolkit that we jointly developed with the Institute 
for Strategic Dialogue. The toolkit will assist civil society 
organizations in developing on-line campaigns to challenge extremist 
ideologies, while prioritizing their safety, and will be available on-
line soon. We know that the technology industry is not the best or most 
appropriate messenger when it comes to pushing back on violent 
extremists, which is why it is so important to support civil society 
organizations that have the credibility and knowledge to combat, 
respond to, and counter the promotion of violent extremism on-line.
    Question 3. Can you describe the appeals process within your 
platform for users to challenge content removal decisions? How quickly 
does this process occur and how do you incorporate lessons learned when 
your company reverses a removal decision?
    Answer. In April 2018, we introduced the option to request re-
review of individual pieces of content that were removed for adult 
nudity or sexual activity, hate speech, or graphic violence. We have 
since extended this option so that re-review is now available for 
additional content areas, including dangerous organizations and 
individuals (a content area that includes our policies on terrorist 
propaganda), bullying and harassment, and regulated goods. We are also 
making this option available to individuals who have reported content 
that was not removed.
    In order to request re-review of a content decision we made, in 
most instances you are given the option to ``Request Review.'' We try 
to make the opportunity to request this review clear, either via a 
notification or interstitial, but we are always working to improve. 
Typically, re-review takes place within 24 hours.
    Transparency in our appeals process is important, so in our May 
2019 Community Standards Enforcement Report, we began including how 
much content people appealed and how much content was restored after we 
initially took action. Gathering and publishing those statistics keeps 
us accountable to the broader community and enables us to continue 
improving our content moderation. For more information, see https://
transparency.facebook.com/community-standards-enforcement.
    Question 4. Moderating terror and extremist content on social media 
platforms is a complex issue with no perfect solution. One consistent 
recommendation the committee has received from a variety of outside 
experts is the value of greater transparency in your respective content 
removal policies. What is your response to calls for you to open up 
your platforms for academics for research purposes, particularly 
allowing them to review the content you remove?
    Answer. We are committed to transparency at Facebook. That is why 
we decided to publish our internal guidelines. Facebook's Community 
Standards are available at https://www.facebook.com/
communitystandards/.
    We publish these internal guidelines for two reasons. First, the 
guidelines help people understand where we draw the line on nuanced 
issues. Second, providing these details makes it easier for everyone, 
including experts in different fields, to give us feedback so that we 
can improve the guidelines--and the decisions we make--over time. The 
content policy team at Facebook, which is responsible for developing 
our Community Standards, seeks input from experts and organizations 
outside Facebook so we can better understand different perspectives on 
safety and expression, as well as the impact of our policies on 
different communities globally.
    To track our progress and demonstrate our continued commitment to 
making Facebook safe and inclusive, we regularly release a Community 
Standards Enforcement Report, which includes metrics on how Facebook is 
performing in preventing and removing content that violates our 
Community Standards. In total, we are now including metrics across 9 
policies within our Community Standards: Adult nudity and sexual 
activity, bullying and harassment, child nudity and sexual exploitation 
of children, fake accounts, hate speech, regulated goods, spam, global 
terrorist propaganda, and violence and graphic content. For more 
information, see https://transparency.facebook.com/community-standards-
enforcement.
    We are also moving forward with plans to establish an independent 
Oversight Board so people in the community can appeal our content 
decisions. We know that our systems can feel opaque and people should 
have a way to hold us accountable and make sure that we are enforcing 
our standards fairly. This independent Oversight Board will look at 
some of our hardest cases, and the decisions it makes will be binding. 
We have spent the first half of this year working with experts on 
speech and safety, running workshops around the world, and asking for 
public input on how this could work. We published a report with all the 
feedback we have gotten so far at the end of June. For more 
information, see https://newsroom.fb.com/news/2019/06/global-feedback-
on-oversight-board/.
    And with regard to the call from academics that we open up our 
platform for research purposes, we launched the Content Policy Research 
Initiative (CPRI), which invites experts and researchers to help inform 
development of our content policies and assess possible product 
solutions to countering hateful and harmful content. At present, CPRI 
is focused on:
  <bullet> Hate speech and harmful speech
  <bullet> Preventing off-line harm
  <bullet> Bullying and harassment
  <bullet> Fairness in global enforcement.
    CPRI is comprised of both funding opportunities to support external 
research on content policy issues as well as workshops where we openly 
share internal research methodology, discuss how we measure violations 
on the platform, explain policy making and processes, and work to 
identify areas that are ripe for collaboration with the research 
community. For more information about CPRI, see https://
research.fb.com/programs/content-policy-research/#About.
      Questions From Chairman Bennie G. Thompson for Nick Pickles
    Question 1. Does your company currently make data on on-line terror 
content and misinformation--including the amount and types of content 
you remove--available for academics and other stakeholders to research? 
In what ways or what partnerships? Will you commit to making such data 
available to researchers?
    Answer. Twitter is a uniquely open service. The overwhelming 
majority of content posted is publicly available and made available 
through our free public and commercial application programming 
interfaces (``APIs''). We make public Tweet data available to Twitter 
users, developers, researchers, and other third parties. We encourage 
developers and others to create products using this public data for 
purposes that serve the public interest and the general Twitter 
community. Such uses have included saving lives during flooding in 
Jakarta, helping the U.S. Geological Survey track earthquakes, and 
working with the United Nations to achieve its Sustainable Development 
Goals. This service is a hallmark of our commitment to transparency, 
collaboration, and innovation.
    Moreover, in October 2018, we published the first comprehensive 
archive of Tweets and media associated with suspected state-backed 
information operations on Twitter and since then we have provided two 
further updates covering a range of actors. Thousands of researchers 
from across the globe have now made use of these datasets, which 
contain more than 30 million Tweets and more than 1 terabyte of media, 
using our archive to conduct their own investigations and to share 
their insights and independent analysis with the world.
    By making this data open and accessible, we seek to empower 
researchers, journalists, governments, and members of the public to 
deepen their understanding of critical issues impacting the integrity 
of public conversation on-line, particularly around elections. This 
transparency is core to our mission.
    Additionally, for the past 7 years, our biannual Twitter 
Transparency Report (transparency.twitter.com) has highlighted trends 
in requests made to Twitter from around the globe. Over time, we have 
significantly expanded the information we disclose adding metrics on 
platform manipulation, Twitter Rules enforcement, and our proactive 
efforts to eradicate terrorist content, violent extremism, and child 
sexual exploitation from our service.
    We have now suspended more than 1.5 million accounts for violations 
related to the promotion of terrorism between August 1, 2015, and 
December 31, 2018. According to our most recent Twitter Transparency 
Report, in 2018, a total of 371,669 accounts were suspended for 
violations related to promotion of terrorism. We continue to see more 
than 90 percent of these accounts suspended through proactive measures.
    The trend we are observing year-over-year is a steady decrease in 
terrorist organizations attempting to use our service. This is due to 
zero-tolerance policy enforcement that has allowed us to take swift 
action on ban evaders and other identified forms of behavior used by 
terrorist entities and their affiliates. In the majority of cases, we 
take action at the account creation stage--before the account even 
Tweets. We are encouraged by these metrics but will remain vigilant. 
Our goal is to stay one step ahead of emergent behaviors and new 
attempts to circumvent our robust approach.
    Finally, the Global Internet Forum to Counter Terrorism (GIFCT) 
facilitates, among other things, information sharing; technical 
cooperation; and research collaboration, including with academic 
institutions. GIFCT's partnership with the Royal United Services 
Insitute (RUSI) to establish the Global Research Network on Terror and 
Terrorism highlights the industry's commitment to working closely with 
academics and researchers. The Network is a consortium of academic 
institutions and think tanks that conducts research and shares views on 
on-line terrorist content; recruiting tactics terrorists use on-line; 
the ethics and laws surrounding terrorist content moderation; public-
private partnerships to address the issue; and the resources tech 
companies need to adequately and responsibly remove terrorist content 
from their platforms.
    This network is providing valuable insights and feedback. For 
example, one recent paper from the network, used Twitter's open API to 
evaluate attempts by Daesh (also known as the Islamic State of Iraq and 
Syria, ISIS) to use Twitter to disseminate its on-line magazine, 
Rumiyah. The researchers found: ``Twitter was effective in its response 
to Daesh's attempts to use its platform as a gateway to Rumiyah . . . a 
high proportion of the user accounts that posted outlinks to PDFs of 
Rumiyah were suspended and the tweets that these accounts posted 
received relatively few retweets.'' See Stuart Macdonald, Daniel 
Grinnell, Anina Kinzel, and Nuria Lorenzo-Dus, Global Research Network 
on Terrorism and Technology: Paper No. 2, A Study of Outlinks Contained 
in Tweets Mentioning Rumiyah (2019) (on-line at https://rusi.org/sites/
default/files/20190628_grntt_paper_2_0.pdf).
    Question 2. Private posts containing objectionable content pose a 
unique challenge for moderation. How does your company reconcile data 
privacy with the challenges of moderating content that violates your 
terms of service, including terrorist content and misinformation?
    Answer. Unlike many other internet companies and social media 
platforms, Twitter is public by its nature. People come to Twitter to 
speak publicly, and public Tweets are viewable and searchable by 
anyone. We are committed to providing a service that fosters and 
facilitates free and open democratic debate, and we do so by making it 
possible for people to react to, comment on, and engage with content 
that they or other accounts choose to share, in accordance with the 
Twitter Rules.
    Twitter employs extensive content detection technology to identify 
and police harmful and abusive content embedded in various forms of 
media on the platform. We use PhotoDNA and hash matching technology in 
the context of child sexual exploitation, and we use proprietary 
internal technology to identify terrorist accounts, including URL 
analyses. We use these technologies to identify previously identified 
content in order to surface it for agent review, and we continually 
expand our databases of known violative content.
    Question 3. Does your company currently share AI training data 
related to counterterrorism with other social media companies? If not, 
is there a plan to share such data in the future?
    Answer. Machine learning plays an important role across a multitude 
of our product surface areas. We strive to give our users control and 
transparency over these, by allowing them to opt out of the algorithmic 
time line and safe search, for example. Making Twitter more healthy 
requires making the way we practice machine learning more fair, 
accountable, and transparent.
    To continually advance the state of machine learning, inside and 
outside Twitter, we are building out a research group at Twitter to 
focus on a few key strategic areas such as natural language processing, 
reinforcement learning, machine learning ethics, recommendation 
systems, and graph deep learning.
    Additionally, studying the societal impact of machine learning is a 
growing area of research in which Twitter has been participating. We 
are partnering with researchers at the University of California 
Berkeley to establish a new research initiative focused on studying and 
improving the performance of ML in social systems, such as Twitter. The 
team at UC Berkeley will closely collaborate with a corresponding team 
inside Twitter. As a company, Twitter is able to bring data and real-
world insights to the table, but by partnering with UC Berkeley we can 
create a research program that has the right mix of fundamental and 
applied research components to make a real practical impact across 
industry.
    Today, the consequences of exposing algorithmic decisions and 
machine learning models to hundreds of millions of people are poorly 
understood. Even less is known about how these algorithms might 
interact with social dynamics: People might change their behaviour in 
response to what the algorithms recommend to them, and as a result of 
this shift in behaviour the algorithm itself might change, creating a 
potentially self-reinforcing feedback loop. We also know that 
individuals or groups will seek to game or exploit our algorithms and 
safeguarding against this is essential.
    By bringing together the academic expertise of UC Berkeley with our 
industry perspective, we are looking to do fundamental work in this 
nascent space and apply it to improve Twitter.
    We welcome efforts to increase collaboration in this area, both 
with industry and governments. The work of the GIFCT to foster 
technical collaboration will enable us to build on work already done, 
and policy makers could support these efforts with greater legal 
protections for companies sharing content of this nature.
    Question 4. How is your company working together with other 
companies to share technology, information, and resources to combat 
misinformation? Is there an analogue to the Global Internet Forum to 
Counter Terrorism (GIFCT) for misinformation on your platforms?
    Answer. The challenges posed by misinformation are serious and 
wide-ranging. We are carefully considering how our approach should 
evolve to respond to the growing range of threats the public 
conversation faces in this regard. In particular, the public 
conversation occurring on Twitter is never more important than during 
elections, the cornerstone of our democracy. Any attempts to undermine 
the integrity of our service is antithetical to our fundamental rights 
and undermines the core tenets of freedom of expression.
    We remain vigilant about malicious foreign efforts to manipulate 
and divide people in the United States and throughout the world, 
including through the use of foreign disinformation campaigns that rely 
upon the use of deepfakes. In April 2019, we issued a new policy 
regarding election integrity governing 3 categories of manipulative 
behavior and content related to elections. First, an individual cannot 
share false or misleading information about how to participate in an 
election. This includes but is not limited to misleading information 
about how to vote or register to vote, requirements for voting, 
including identification requirements, and the official, announced 
date, or time of an election. Second, an individual cannot share false 
or misleading information intended to intimidate or dissuade voters 
from participating in an election. This includes but is not limited to 
misleading claims that polling places are closed, that polling has 
ended, or other misleading information relating to votes not being 
counted.
    We also do not allow misleading claims about police or law 
enforcement activity related to polling places or elections, long 
lines, equipment problems, voting procedures or techniques which could 
dissuade voters from participating in an election, and threats 
regarding voting locations. Finally, we also do not allow the creation 
of fake accounts which misrepresent their affiliation, or share content 
that falsely represents its affiliation to a candidate, elected 
official, political party, electoral authority, or Government entity.
    If we see the use of any manipulated content to spread 
misinformation in violation of our policies governing election 
integrity, we will remove that content.
    The solutions, which will require both product and policy 
interventions, will need to protect the rights of people to engage in 
parody, satire, and political commentary while protecting the integrity 
of the public conversation. As Mr. Pickles testified at the hearing: 
``We are continuing to explore how we may take action--through both 
policy and product--on these types of issues in the future. We continue 
to critically examine additional safeguards we can implement to protect 
the conversation occurring on Twitter.''
    Our existing efforts to make available a comprehensive archive of 
Tweets and media associated with suspected state-backed information 
operations we remove from Twitter is also a valuable tool. Our industry 
peers can leverage the range of signals we publish including links, 
media, and account indicators. The datatsets we have published include 
more than 30 million Tweets and more than 1 terabyte of media.
    Twitter cannot address these issues alone. The challenges we face 
as a society are complex, varied, and constantly evolving. Every entity 
has a role to play--including how the media chooses to cover examples 
of manipulated media. A whole-of-society approach includes educators 
and media literacy groups to promote better understanding of these 
issues. This is a long-term problem requiring a long-term response, not 
just the removal of content.
    Question 5. What is your company doing to ensure that your human 
content moderators are provided with all the resources they need in 
order to carry out their jobs, including mental health resources and 
adequate pay?
    Answer. In addition to an increased investment in machine learning, 
our efforts to improve the health of the public conversation do include 
global content review teams made up of agency partners. These teams are 
sometimes exposed to material that is sensitive and potentially 
distressing in nature.
    The well-being of those who review content is a primary concern for 
our teams and our highest priority is to ensure our staff and 
contractors are treated with compassion, care, and respect. We are 
continually evaluating our partners' standards and remain committed to 
protecting the well-being of the teams tasked with this important and 
challenging role. We have a full suite of support services available 
for our employees, including content moderators. As part of our work 
with third parties, we require in our contracts the provision of 
support services, including a period of time after an individual 
changes roles.
    In the long term, one of the most valuable investments we can make 
is in technology and tooling. The more we can leverage these to 
minimise the exposure to content, the less frequently our employees and 
contractors will come into contact with it. We will continue to support 
those engaged in these roles.
    Question 6. Prior to introducing new policies or products on your 
platforms, what processes does your company have in place to anticipate 
and plan for unintended consequences, harmful side effects, or 
exploitation by bad actors, including terrorists and those seeking to 
spread misinformation?
    Answer. We draft and enforce the Twitter Rules to keep people safe 
on our service, and to protect the health of the public conversation. 
The Twitter Rules apply to everyone. In general, we create our rules 
with a rigorous policy development process; it involves in-depth 
research, analysis of the behavior of individuals on Twitter and 
historical violation patterns, and immersion in academic material.
    We appreciate these issues are complex, and we value the input of 
external voices in developing our approach. As part of the internal 
development process, we consult with a wide range of stakeholders and 
we focus consideration regarding the risk of gaming, subverting, or 
otherwise abusing our policies and product changes. We supplement this 
work with conversations with outside experts and organizations where 
appropriate.
    For example, many scholars have examined the relationship between 
dehumanization and violence. In September 2018, we tried something new 
by asking the public for feedback on a policy before it became part of 
the Twitter Rules. Our goal is to test a new format for policy 
development whereby the individuals who use Twitter have a role in 
directly shaping our efforts to protect them. We wanted to expand our 
hateful conduct policy to include content that dehumanizes others based 
on their membership in an identifiable group, even when the material 
does not include a direct target.
    We asked for feedback to ensure we considered a wide range of 
perspectives and to hear directly from the different communities and 
cultures who use Twitter around the globe. In 2 weeks, we received more 
than 8,000 responses from people located in more than 30 countries.
    Following our review of public comments, in July 2019, we expanded 
our rules against hateful conduct to include language that dehumanizes 
others on the basis of religion.
       Questions From Ranking Member Mike Rogers for Nick Pickles
    Question 1. During the hearing, Professor Strossen raised a number 
of concerns about the dangers of moderating speech. Rather than 
censorship, she offered a number of suggestions to empower users. What, 
if anything, are your companies doing to provide more filtering tools 
to enhance the ability of users to control the content they see?
    Answer. Twitter provides a variety of tools to individuals on our 
service to enable them to control the content they see. At the most 
basic level, individuals on Twitter control the content they see by 
choosing which accounts to follow. They can unfollow an account at any 
time, or choose to receive a notification for every Tweet an account 
sends.
    We also enable individuals on the service to control their 
individual experience through tools such as the ability to block and 
mute. If an individual has reported a Tweet, we will hide it behind a 
notice and give the individual the choice on whether or not he or she 
want to view the content again. We will also hide content behind an 
interstitial if an individual has muted or blocked an account and their 
Tweets are shared by someone else.
    Individuals may also mute a conversation they do not wish to be a 
part of, or mute a specific word, hashtag, or phrase. The individual 
can control how long this stays in place.
    We also offer a range of advanced filters for notifications that 
individuals on Twitter can customize. This includes the option to hide 
notifications from accounts that an individual does not follow or who 
do not follow the individual, from those that have not confirmed an 
email address or phone number, those who have not set a profile 
photograph, or from all new accounts.
    We also give people control over what they see in search results 
through a ``Safe Search'' option. This option excludes potentially 
sensitive content from search results, such as spam, adult content, and 
the accounts an individual has muted or blocked. Individual accounts 
may mark their own posts as sensitive as well. Twitter's safe search 
mode excludes potentially sensitive content, along with accounts an 
individual may have muted or blocked, from search results. Safe Search 
is enabled by default, and people have the option to turn safe search 
off, or back on, at any time.
    In December 2018, Twitter introduced a sparkle icon located at the 
top of individuals' time lines to more easily switch on and off reverse 
chronological time line, allowing them to view tweets without 
algorithmic ranking. As described above, the algorithms we employ are 
designed to help people see the most relevant Tweets. The icon now 
allows individuals using Twitter to easily switch to chronological 
order ranking of the Tweets from only those accounts they follow. This 
improvement allows individuals on Twitter to see how algorithms affect 
what they see, and enables greater transparency into the technology we 
use to rank Tweets.
    We additionally empower individuals on the service to control their 
experiences through notices, or instititals. Our systems and teams may 
add notices on Tweets to give individuals on the service more context 
or notice before an individual on Twitter clicks on the Tweet. Twitter 
may add a notice to an account or Tweet to provide more context on the 
actions our systems or teams may take. In some instances, this is 
because the behavior violates the Twitter Rules. We may place some 
forms of sensitive media like adult content or graphic violence behind 
an interstitial advising viewers to be aware that they will see 
sensitive media if they click through the filter. This allows us to 
identify potentially sensitive content that some people may not wish to 
see.
    Question 2. Do you have recommendations for ways to more 
effectively address the extremist content found on many of the off-
shore, fringe social media sites?
    Answer. Although Twitter strictly enforces our policies removing 
terrorist and extremist content that violates our Rules, it does not 
eliminate the ideology underpinning them. Quite often, it moves these 
views into darker corners of the internet where they cannot be 
challenged and held to account. As Twitter and our peer companies 
improve in our efforts, this content continues to migrate to less 
public and more private platforms and messaging services. We are 
committed to learning and improving, but every part of the on-line 
ecosystem has a part to play.
    There are a range of approaches policy makers could consider. 
Broadening the range of companies who are part of the discussion is 
essential if we are to form a robust view on how to tackle these 
issues. Widening the discussion will also bring important perspectives 
to the fore about the nature and challenges of content moderation at 
scale. The role of financial incentives is also useful to consider. For 
example, a recent report from the Global Disinformation Index project 
focused on the ways the on-line ecosystem is being abused by bad actors 
to monetize disinformation. The same may be true of the monetization of 
terrorist content on some parts of the on-line ecosystem. See Global 
Disinformation Project, Cutting the Funding of Disinformation: The Ad-
Tech Solution (May 2019) (on-line at https://disinformationindex.org/
wp-content/uploads/2019/05/GDI_Report_Screen_AW- 2.pdf).
    We acknowledge that we have a role to play and acknowledge that we 
will never reach a point where we are finished tackling these issues. 
Tech companies and content removal on-line cannot alone, however, solve 
these issues. They are systemic and societal and as such they require 
an whole-of-society approach. We welcome the opportunity to continue to 
work with our industry peers, Government, academics, and civil society 
to find the right solutions.
    Question 3. Can you describe the appeals process within your 
platform for users to challenge content removal decisions? How quickly 
does this process occur and how do you incorporate lessons learned when 
your company reverses a removal decision?
    Answer. Content moderation on a global scale is a new challenge not 
only for our company, but also across our industry. When an action is 
taken in error, we act promptly to correct them. We now offer people 
who use Twitter the ability to more easily file an appeal from within 
the Twitter app when we tell them which Tweet has broken our rules. 
This makes the appeal process quicker and easier for users. We 
anticipate this new process will enable us to respond 60 percent faster 
to appeals.
    We also allow individuals to file a report through a web form that 
can be accessed at http://help.twitter.com/appeals. We also continue to 
improve our transparency around the actions we take, including better 
in-app notices where we have removed Tweets for breaking our rules. We 
also communicate with both the account who reports a Tweet and the 
account which posted it with additional detail on our actions. These 
steps are all a part of our continued commitment to transparency, and 
we will continue to better inform individuals who use Twitter on our 
work in these areas.
    If an account was suspended or locked in error, an individual can 
appeal. First, the individual must log in to the account that is 
suspended and file an appeal. The individual must describe the nature 
of the appeal and provide an explanation of why the account is not in 
violation of the Twitter Rules. Twitter employees will engage with the 
account holder via email to resolve the suspension.
    Question 4. Moderating terror and extremist content on social media 
platforms is a complex issue with no perfect solution. One consistent 
recommendation the committee has received from a variety of outside 
experts is the value of greater transparency in your respective content 
removal policies. What is your response to calls for you to open up 
your platforms for academics for research purposes, particularly 
allowing them to review the content you remove?
    Answer. In regard to the removal of accounts, our biannual Twitter 
Transparency Report highlights trends in enforcement of our Rules, 
legal requests, intellectual property-related requests, and email 
privacy best practices. The report also provides insight into whether 
or not we take action on these requests. The Transparency Report 
includes information requests from governments world-wide and non-
government legal requests we have received for account information. 
Removal requests are also included in the Transparency Report and 
include world-wide legal demands from governments and other authorized 
reporters, as well as reports based on local laws from trusted 
reporters and non-governmental organizations, to remove or withhold 
content.
    As part of our commitment to educate users about our rules and to 
further prohibit the promotion of terrorism or violent extremist 
groups, we have updated our rules and associated materials to be 
clearer on where these policies apply. We agree that our rules should 
be clear and understandable. Recently we completed a process to refresh 
our rules and ensure that they are easier to understand. This includes 
each specific rule being short enough to Tweet.
    In addition, we have improved the supporting information in our 
help center, which adds context and examples to the Rules. With regard 
to terrorism and violent extremism, there is a dedicated page in our 
help center accessed at https://help.twitter.com/en/rules-and-policies/
violent-groups.
    We have now suspended more than 1.5 million accounts for violations 
related to the promotion of terrorism between August 1, 2015, and 
December 31, 2018. In 2018, a total of 371,669 accounts were suspended 
for violations related to promotion of terrorism. We continue to see 
more than 90 percent of these accounts suspended through proactive 
measures.
    With regard to academic access, Twitter is a uniquely open service. 
The overwhelming majority of content posted is publicly available and 
made available through our free public and commercial application 
programming interfaces (``APIs''). We make public Tweet data available 
to Twitter users, developers, researchers, and other third parties. We 
encourage developers and others to create products using this public 
data for purposes that serve the public interest and the general 
Twitter community.
      Questions From Chairman Bennie G. Thompson for Derek Slater
    Question 1. Does your company currently make data on on-line terror 
content and misinformation--including the amount and types of content 
you remove--available for academics and other stakeholders to research? 
In what ways or what partnerships? Will you commit to making such data 
available to researchers?
    Answer. Response was not received at the time of publication.
    Question 2. Private posts containing objectionable content pose a 
unique challenge for moderation. How does your company reconcile data 
privacy with the challenges of moderating content that violates your 
terms of service, including terrorist content and misinformation?
    Answer. Response was not received at the time of publication.
    Question 3. Does your company currently share AI training data 
related to counterterrorism with other social media companies? If not, 
is there a plan to share such data in the future?
    Answer. Response was not received at the time of publication.
    Question 4. How is your company working together with other 
companies to share technology, information, and resources to combat 
misinformation? Is there an analogue to the Global Internet Forum to 
Counter Terrorism (GIFCT) for misinformation on your platforms?
    Answer. Response was not received at the time of publication.
    Question 5. What is your company doing to ensure that your human 
content moderators are provided with all the resources they need in 
order to carry out their jobs, including mental health resources and 
adequate pay?
    Answer. Response was not received at the time of publication.
    Question 6. Prior to introducing new policies or products on your 
platforms, what processes does your company have in place to anticipate 
and plan for unintended consequences, harmful side effects, or 
exploitation by bad actors, including terrorists and those seeking to 
spread misinformation?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Lauren Underwood for Derek Slater
    Question 1a. During the hearing, you committed to providing in 
writing information on what percentage of users who view YouTube videos 
with information cues actually click on the link for more information.
    Please provide this information, broken down by each month since 
YouTube's CEO announced the policy in March 2018.
    Answer. Response was not received at the time of publication.
    Question 1b. During the hearing, you stated that information cues 
link to an on-line encyclopedia, in addition to Wikipedia. Please 
provide a complete list, as well as a breakdown by percentage, of the 
websites that YouTube's information cues link to.
    Answer. Response was not received at the time of publication.
    Question 2a. Does YouTube vet the Wikipedia articles that it links 
to in ``information cues'' to ensure their accuracy, or work with 
Wikipedia to ensure that the articles are locked against malicious 
edits?
    Answer. Response was not received at the time of publication.
    Question 2b. During the hearing, you stated that YouTube ``has a 
process to make sure that [YouTube is] displaying accurate 
information'' in information cues. Please provide a detailed 
description of that process.
    Answer. Response was not received at the time of publication.
       Questions From Ranking Member Mike Rogers for Derek Slater
    Question 1. During the hearing, Professor Strossen raised a number 
of concerns about the dangers of moderating speech. Rather than 
censorship, she offered a number of suggestions to empower users. What, 
if anything, are your companies doing to provide more filtering tools 
to enhance the ability of users to control the content they see?
    Answer. Response was not received at the time of publication.
    Question 2. Do you have recommendations for ways to more 
effectively address the extremist content found on many of the off-
shore, fringe social media sites?
    Answer. Response was not received at the time of publication.
    Question 3. Can you describe the appeals process within your 
platform for users to challenge content removal decisions? How quickly 
does this process occur and how do you incorporate lessons learned when 
your company reverses a removal decision?
    Answer. Response was not received at the time of publication.
    Question 4. Moderating terror and extremist content on social media 
platforms is a complex issue with no perfect solution. One consistent 
recommendation the committee has received from a variety of outside 
experts is the value of greater transparency in your respective content 
removal policies. What is your response to calls for you to open up 
your platforms for academics for research purposes, particularly 
allowing them to review the content you remove?
    Answer. Response was not received at the time of publication.
      Question From Ranking Member Mike Rogers for Nadine Strossen
    Question. During the hearing, you highlighted the importance of 
transparency by mainstream social media companies. Can you provide 
more: (1) Background on the importance of transparency and (2) 
recommendations for how transparency measures could be implemented by 
these companies? Additionally, do you have (3) recommendations for 
transparency measures for the Global Internet Forum to Counter 
Terrorism (GIFCT)?
    Answer.
(1) Background on the importance of transparency
    In enforcing their ``content moderation'' policies, determining 
what speakers and speech will be allowed on their platforms--and which 
will not be allowed--the dominant social media companies 
(``companies'') exercise vast censorial power that even exceeds the 
scope of censorial power that in the past only Government has wielded. 
However, as private-sector entities, these companies are not subject to 
the Constitutional constraints that limit Government power, including 
requirements to respect not only freedom of speech and press, but also 
privacy, due process/fair procedures, and equality. This means that the 
companies may also exercise their vast power in ways that undermine our 
democratic self-government. For example, they could discriminatorily 
suppress certain speakers or ideas based on partisan political 
preferences, or they could promote disinformation about political 
candidates and public policy issues.
    For these reasons, it is essential that steps be taken to curb the 
companies' powers to suppress users' freedoms. However, it is also 
essential that any such steps are respectful of the companies' own 
rights and freedoms. For example, the companies' own free speech rights 
would be infringed by Government regulations dictating what speech they 
could or could not permit on their platforms--to the same extent that 
such Government regulations would infringe on the free speech rights of 
more traditional media, such as newspapers and broadcasters.
    Recognizing these countervailing free speech concerns, many experts 
who have studied these issues have concurred that, as a baseline 
minimum approach for protecting the rights of platform users--and 
associated democratic concerns--the companies should design and 
implement their content moderation policies in a manner that complies 
with certain basic process standards, including transparency. 
Concerning transparency in particular, the companies should disclose 
what their content moderation policies are, and how they are enforced, 
both in the aggregate and in particular cases. The companies should not 
only provide information about how their content moderation policies 
are enforced in general, or in particular categories (as explained 
further in the next section), but they should also provide information 
to individual users whose content is removed. (This kind of 
individualized disclosure/transparency is often referred to as 
``notice,'' invoking a fundamental due process/fairness concept.)
    Government officials could and should use their ``bully pulpit'' to 
encourage companies to provide aggregate and individualized information 
consistent with the goal of transparency; civil society organizations 
and the companies' customers should do likewise. In fact, many 
Government officials, civil society organizations, and individual 
experts--not only in the United States, but also in other countries and 
in international agencies--have advocated such transparency. A number 
of the companies have endorsed at least the general concept of enhanced 
transparency, and have undertaken some compliance efforts.
    As New America's Open Technology Institute has commented, the 
companies' disclosure of data about from whom they get takedown 
requests, and how they respond to such requests, ``is a vital first 
step toward enabling the public to hold [them] accountable in their 
roles as arbiters of speech, and also hold accountable the governments 
and private parties that seek to censor on-line speech.''\1\ Moreover, 
this reporting ``helps the public identify where they think the 
[c]ompanies are doing too much--or not enough--to address content 
issues,'' and also benefits the Companies, including by ``helping to 
build trust with their users and policy makers.''\2\
---------------------------------------------------------------------------
    \1\ https://www.newamerica.org/oti/blog/announcing-otis-new-
transparency-reporting-toolkit-focused-on-content-takedowns/.
    \2\ Spandana Singh & Kevin Bankston, ``The Transparency Reporting 
Toolkit: Content Takedown Reporting,'' New America, Oct. 2018, at 6. 
https://www.newamerica.org/oti/reports/transparency-reporting-toolkit-
content-takedown-reporting/
---------------------------------------------------------------------------
(2) Recommendations for how transparency measures could be implemented
Transparency about overall content takedown practices
The Santa Clara Principles (2018)
    In May 2018, a group of expert organizations and individuals issued 
``the Santa Clara Principles,'' which they described ``as initial steps 
that companies engaged in content moderation should take to provide 
meaningful due process to impacted speakers and better ensure that the 
enforcement of their content guidelines is fair, unbiased, 
proportional, and respectful of users' rights.''\3\ Since then, the 
Santa Clara principles have been endorsed--at least in spirit--by 
diverse experts, including the United Nations Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression, and some of the Companies.
---------------------------------------------------------------------------
    \3\ https://santaclaraprinciples.org/.
---------------------------------------------------------------------------
    In terms of transparency, these Principles declared that 
``companies should publish the numbers of posts removed and accounts 
permanently or temporarily suspended due to violations of their content 
guidelines.'' The Principles further specified that, at a minimum, 
``this information should be broken down along each of these 
dimensions'':
  <bullet> Total number of discrete posts and accounts flagged
  <bullet> Total number of discrete posts removed and accounts 
        suspended
  <bullet> Number of discrete posts and accounts flagged, and number of 
        discrete posts removed and accounts suspended, by category of 
        rule violated
  <bullet> Number of discrete posts and accounts flagged, and number of 
        discrete posts removed and accounts suspended, by format of 
        content at issue (e.g., text, audio, image, video, live stream)
  <bullet> Number of discrete posts and accounts flagged, and number of 
        discrete posts removed and accounts suspended, by source of 
        flag (e.g., governments, trusted flaggers, users, different 
        types of automated detection); and
  <bullet> Number of discrete posts and accounts flagged, and number of 
        discrete posts removed and accounts suspended, by locations of 
        flaggers and impacted users (where apparent).
    Finally, the Santa Clara Principles called for this data to ``be 
provided in a regular report, ideally quarterly, in an openly licensed, 
machine-readable format.''
            The Transparency Reporting Toolkit: Content Takedown 
                    Reporting (2018)
    Especially detailed recommendations for transparency reporting have 
been provided by the Open Technology Institute and Harvard University's 
Berkman Klein Center for Internet & Society. In 2016, both 
organizations released the ``Transparency Reporting Toolkit,'' which 
``aimed to make it easier for companies to create and improve their 
transparency reports around government demands for user data and to 
make transparency reporting more consistent, easier to understand and 
more effective.''\4\ In October 2018, the Open Technology Institute 
issued a new transparency reporting toolkit that focused expressly on 
content takedowns (``2018 Toolkit''). Based on extensive consultations 
with a broad, diverse array of companies and civil society experts, the 
2018 Toolkit identified general ``best practices'' for content takedown 
reporting regarding any kind of content, as well as additional, more 
specific best practices for reporting about certain types of content 
takedown (copyright-related, network shutdowns and service 
interruptions, and ``right to be forgotten'' delistings).
---------------------------------------------------------------------------
    \4\ https://www.newamerica.org/oti/policy-papers/transparency-
reporting-toolkit-reporting-guide-and-template/.
---------------------------------------------------------------------------
    Below I will list the general best practices that the 2018 Toolkit 
recommends, all of which it explains in more detail:
  <bullet> Issuing reports for clearly and consistently delineated 
        reporting periods
  <bullet> Issuing reports specific to the type of demand
  <bullet> Reporting on types of demands using specific numbers
  <bullet> Breaking down demands by country
  <bullet> Reporting on categories of objectionable content targeted by 
        demands
  <bullet> Reporting on products targeted by demands
  <bullet> Reporting on specific government agencies/parties that 
        submitted demands
  <bullet> Specifying which laws pertain to specific demands
  <bullet> Reporting on the number of accounts and items specified in 
        demands
  <bullet> Reporting on the number of accounts and items impacted by 
        demands; and
  <bullet> Reporting on how the company responded to demands.
    The foregoing best practices focus on quantitative transparency. 
The 2018 Toolkit also discussed some additional best practices that 
seek to improve the qualitative transparency surrounding content 
takedowns. These include:
  <bullet> Defining terms clearly
  <bullet> Providing meaningful explanations of internal policies
  <bullet> Offering case studies to illustrate the company's practices 
        and the issues it faces
  <bullet> Reporting on specific notices where reasonable and permitted 
        by law
  <bullet> Providing meaningful numbers that reflect how many pieces of 
        content or accounts were taken down, blocked or otherwise 
        restricted based on automated flagging or review
  <bullet> Linking relevant reports to one another
  <bullet> Publishing reports at static and functioning URLs
  <bullet> Publishing data in a structured data format
  <bullet> Publishing reports using a non-restrictive Creative Commons 
        license; and
  <bullet> Offering a Frequently Asked Questions section for the 
        report.
Transparency about takedown of particular content: notice
    The Santa Clara Principles also set out basic recommendations for 
implementing this fundamental, individualized facet of transparency. 
First:

``In general companies should provide detailed guidance to the 
community about what content is prohibited, including examples of 
permissible and impermissible content and the guidelines used by 
reviewers. Companies should also provide an explanation of how 
automated detection is used across each category of content.''

    Additionally, ``[c]ompanies should provide notice to each user 
whose content is taken down or account is suspended about the reason 
for the removal or suspension.'' This required notice to individual 
users must include the following details, at a minimum:
  <bullet> URL, content excerpt, and/or other information sufficient to 
        allow identification of the content removed
  <bullet> The specific clause of the guidelines that the content was 
        found to violate
  <bullet> How the content was detected and removed (flagged by other 
        users, governments, trusted flaggers, automated detection, or 
        external legal or other complaint); and
  <bullet> Explanation of the process through which the user can appeal 
        the decision.
    Moreover, the Principles provide that ``[t]he identity of 
individual flaggers should generally not be revealed, however, content 
flagged by government should be identified as such, unless prohibited 
by law.'' Finally, they specify:

``Notices should be available in a durable form that is accessible even 
if a user's account is suspended or terminated. Users who flag content 
should also be presented with a log of content they have reported and 
the outcomes of moderation processes.''
[3] Recommendations for transparency measures for the Global Internet 
        Forum to Counter Terrorism (GIFCT)
    Before laying out the recommendations for transparency measures for 
GIFCT, which have been urgently called for by a wide array of experts, 
I will briefly summarize GIFCT's operations. GIFCT was formed by 
Facebook, Microsoft, Twitter, and YouTube, and publicly announced in 
2016. It created a hash database (``the database'') that contains 
digital hash ``fingerprints'' of images and videos that the 
participants have identified as ``extreme terrorist material,'' based 
on their own internal content moderation standards--not based on any 
legal definition. The participating companies then use automated 
filtering tools to identify and remove duplicates of the hashed images 
or videos.
    GIFCT raises serious human rights problems, as well as serious 
questions about its efficacy in countering terrorism; none of these 
important issues can be definitively evaluated because of the lack of 
transparency about GIFCT's operations. Accordingly, it is imperative 
that the companies disclose sufficient information to facilitate 
assessment of GIFCT's costs and benefits in terms of both countering 
terrorism and respecting freedom of speech and other human rights.
    The foregoing critiques of GIFCT's lack of transparency have been 
made by multiple, diverse observers, including a large group of expert 
organizations and individuals from many different countries, in a joint 
February 4, 2019 letter to the European Parliament. Underscoring their 
shared commitment to the goal of countering terrorist violence, and not 
questioning GIFCT operators' positive intent to promote that goal, 
these experts stressed that ``lawmakers and the public have no 
meaningful information about how well'' the database actually ``serves 
this goal, and at what cost to democratic values and individual human 
rights.''
    I will quote here some of this letter's key points about needed 
transparency for meaningful evaluation and accountability:

``Almost nothing is publicly known about the specific content that 
platforms block using the database, or about companies' internal 
processes or error rates, and there is insufficient clarity around the 
participating companies' definitions of `terrorist content.' 
Furthermore, there are no reports about how many legal processes or 
investigations were opened after the content was blocked. This data 
would be crucial to understand to what extent the measures are 
effective and necessary in a democratic society, which are some of the 
sine qua non requisites for restriction of fundamental rights.''

    This letter noted some well-publicized failures of algorithmic 
removals of alleged ``terrorist content'' that actually constituted 
important material ``for news reporting, combating terrorist 
recruitment on-line, or scholarship,'' because algorithmic filters 
``are blind to . . . contextual differences'' between material with 
otherwise similar ``terrorist content.'' However, among the information 
that has not yet been disclosed is ``whether major platforms like 
YouTube or Facebook adequately correct for'' such problems ``through 
employees' review of filtering decisions.''
    The letter urged the European Parliament not to adopt any 
regulation that would incorporate GIFCT precisely because of the 
absence of transparency:

``The European public is being asked to rely on claims by platforms or 
vendors about the efficacy of the database . . . or else to assume that 
any current problems will be solved by hypothetical future technologies 
or untested, post-removal appeal mechanisms. Such optimistic 
assumptions cannot be justified given the serious problems researchers 
have found with the few filtering tools available for independent 
review.''
                               conclusion
    Members of Congress and others cannot meaningfully assess the 
impact of the companies' efforts to counter on-line terrorist content 
(including through GIFCT), misinformation, or any other controversial, 
potentially problematic content, in the absence of detailed information 
about the companies' content moderation policies. In particular, policy 
makers and the public cannot assess either: (i) How effective such 
efforts are in reducing the targeted content, or (ii) how much 
legitimate, even valuable content is also removed in the process. In 
short, no meaningful cost-benefit analysis can be done of the aggregate 
results of content moderation policies without much more information, 
of the sort I have outlined. Likewise, individual users whose 
expression has been suppressed cannot exercise the important right to 
appeal such suppression without detailed information of the sort also 
laid out. Members of Congress, as well as other public officials, 
NGO's, and the companies' customers should all continue to advocate for 
such increased transparency.

                                 [all]
</pre></body></html>
